<html>
<title> - PROTECTING THE TIMELY DELIVERY OF MAIL, MEDICINE, AND MAIL-IN BALLOTS</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]





 
                         PROTECTING THE TIMELY

                      DELIVERY OF MAIL, MEDICINE,

                          AND MAIL-IN BALLOTS

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                          OVERSIGHT AND REFORM
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

                            AUGUST 24, 2020

                               __________

                           Serial No. 116-113

                               __________

      Printed for the use of the Committee on Oversight and Reform
      
      
      
      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]     


                       Available on: govinfo.gov
                         oversight.house.gov or
                             docs.house.gov
                             
                             
                              ______                      


             U.S. GOVERNMENT PUBLISHING OFFICE 
41-938 PDF            WASHINGTON : 2020 
                              
                             
                             
                             
                             
                   COMMITTEE ON OVERSIGHT AND REFORM

                CAROLYN B. MALONEY, New York, Chairwoman

Eleanor Holmes Norton, District of   James Comer, Kentucky Ranking 
    Columbia                             Minority Member
Wm. Lacy Clay, Missouri              Jim Jordan, Ohio
Stephen F. Lynch, Massachusetts      Paul A. Gosar, Arizona
Jim Cooper, Tennessee                Virginia Foxx, North Carolina
Gerald E. Connolly, Virginia         Thomas Massie, Kentucky
Raja Krishnamoorthi, Illinois        Jody B. Hice, Georgia
Jamie Raskin, Maryland               Glenn Grothman, Wisconsin
Harley Rouda, California             Gary Palmer, Alabama
Ro Khanna, California                Michael Cloud, Texas
Kweisi Mfume, Maryland               Bob Gibbs, Ohio
Debbie Wasserman Schultz, Florida    Clay Higgins, Louisiana
John P. Sarbanes, Maryland           Ralph Norman, South Carolina
Peter Welch, Vermont                 Chip Roy, Texas
Jackie Speier, California            Carol D. Miller, West Virginia
Robin L. Kelly, Illinois             Mark E. Green, Tennessee
Mark DeSaulnier, California          Kelly Armstrong, North Dakota
Brenda L. Lawrence, Michigan         W. Gregory Steube, Florida
Stacey E. Plaskett, Virgin Islands   Fred Keller, Pennsylvania
Jimmy Gomez, California
Alexandria Ocasio-Cortez, New York
Ayanna Pressley, Massachusetts
Rashida Tlaib, Michigan
Katie Porter, California

                     David Rapallo, Staff Director
            Aaron Blacksberg & Candyce Phoenix Chief Counsel
                          Elisa LaNaier Clerk

                      Contact Number: 202-225-5051

               Christopher Hixon, Minority Staff Director
                                 ------                    
                                 
                         C  O  N  T  E  N  T  S

                              ----------                              
                                                                   Page
Hearing held on August 24, 2020..................................     1

                               Witnesses

Louis DeJoy, Postmaster General, U.S. Postal Service
    Oral Statement...............................................    11

Robert M. Duncan, Chairman, U.S. Postal Service Board of 
  Governors
    Oral Statement...............................................    12
* The prepared statements for the above witnesses are available 
  at:  docs.house.gov.

                           INDEX OF DOCUMENTS

                                 ------                                
The documents listed below are available at: docs.house.gov.
  * USPS Service Performance Measurement PMG Briefing August 12, 
  2020; submitted by Chairwoman Maloney.

  * LA Times - ``Like Armageddon: Rotting food, dead animals and 
  chaos at postal facilities amid cutbacks'', article; submitted 
  by Chairwoman Maloney.

  * Courier Journal - ``Postal Service's cost cutting is 
  frustrating Kentuckians - and raising election concerns'', 
  article; submitted by Chairwoman Maloney.

  * NY1 - ``Some Mail Is Delayed Five to Six Days in NYC, Postal 
  Workers' Union Says'', article; submitted by Chairwoman 
  Maloney.

  * Rep. Mucarsel-Powell Letter to Chairwoman Maloney Re: USPS 
  Oversight Hearing, August 21, 2020; submitted by Chairwoman 
  Maloney.

  * Letter to PMG Louis DeJoy from AARP, August 17, 2020; 
  submitted by Chairwoman Maloney.

  * Letter to Board of Governors Urging Resignation of PMG Louis 
  DeJoy, August 19, 2020; submitted by Chairwoman Maloney.

  * Rep. Steven Cohen (TN-09) Statement for the Record, August 
  24, 2020; submitted by Chairwoman Maloney.

  * CREW Testimony for the Record, August 24, 2020; submitted by 
  Chairwoman Maloney.

  * DI-DIFAD Letter of Support of Delivering for America Act, 
  August 21, 2020; submitted by Chairwoman Maloney.

  * The Leadership Conference on Civil and Human Rights Letter of 
  Support for Delivering for America Act August 21, 2020; 
  submitted by Chairwoman Maloney.

  * NALC Letter of Support for Delivering for America Act, August 
  19, 2020; submitted by Chairwoman Maloney.

  * NARFE Letter of Support for H.R. 8105, H.R. 6800, and S. 
  4147; submitted by Chairwoman Maloney.

  * The Navajo Nation Letter of Support for H.R. 8105, August 20, 
  2020; submitted by Chairwoman Maloney.

  * NCPSSM Letter of Support for H.R. 8015; submitted by 
  Chairwoman Maloney.

  * Secure Democracy Letter of Support for H.R. 8015 Delivering 
  for America Act; submitted by Chairwoman Maloney.

  * Voting Rights Lab Letter of Support for H.R. 8105, August 19, 
  2020; submitted by Chairwoman Maloney.

  * Workers' Injury Law & Advocacy Group Letter of Support for 
  the Postal Service Emergency Assistance Act, August 21, 2020; 
  submitted by Chairwoman Maloney.

  * USPS - Kentucky Mail Processing Closing Announced; submitted 
  by Rep. Massie.

  * USPS - Ashland Mail Processing Operations Moving to 
  Charleston, WV; submitted by Rep. Massie.

  * USPS - PMG Louis DeJoy Memorandum on Organizational 
  Structure, August 7, 2020; submitted by Rep. Speier.

  * Letter to PMG Louis DeJoy from CREW, August 21, 2020; 
  submitted by Rep. Speier.

  * PMG Louis DeJoy Political Contributions Chart; submitted by 
  Rep. Welch.

  * Questions for the record: to Dejoy; submitted by Chairwoman 
  Maloney.

  * Questions for the record: to Duncan; submitted by Chairwoman 
  Maloney.


                         PROTECTING THE TIMELY

                      DELIVERY OF MAIL, MEDICINE,

                          AND MAIL-IN BALLOTS

                              ----------                              


                        Monday, August 24, 2020

                  House of Representatives,
                 Committee on Oversight and Reform,
                                                   Washington, D.C.

    The committee met, pursuant to notice, at 10:09 a.m., in 
room 2154, Rayburn House Office Building, Hon. Carolyn B. 
Maloney [chairwoman of the committee] presiding.
    Present: Representatives Maloney, Norton, Clay, Lynch, 
Cooper, Connolly, Krishnamoorthi, Raskin, Rouda, Khanna, Mfume, 
Wasserman Schultz, Sarbanes, Welch, Speier, Kelly, DeSaulnier, 
Lawrence, Plaskett, Gomez, Ocasio-Cortez, Pressley, Tlaib, 
Porter, Comer, Jordan, Gosar, Foxx, Massie, Hice, Grothman, 
Palmer, Cloud, Gibbs, Higgins, Norman, Roy, Miller, Green, 
Armstrong, Steube, and Keller.
    Also present: Representatives Quigley, Adams, and Walker.
    Chairwoman Maloney. The committee will come to order.
    Without objection, the chair is authorized to declare a 
recess of the committee at any time.
    Without objection, the gentlewoman from North Carolina, Ms. 
Adams, as well as the gentleman from Illinois, Mr. Quigley, 
will be permitted to join the committee and be recognized for 
questioning the witnesses.
    In addition, the gentleman from North Carolina, Mr. Walker, 
will be recognized at the proper time to introduce his 
constituent.
    I now recognize myself for an opening statement.
    Good morning. I would like to welcome Postmaster General 
Louis DeJoy and the chairman of the Postal Board of Governors, 
Robert Duncan, to this oversight hearing, and I thank you all 
for being here.
    In all of our districts, we are hearing from constituents 
about significant delays in the delivery of mail, medicines, 
food, and other supplies. These delays are especially 
concerning and potentially life-threatening during the 
coronavirus crisis.
    These are not isolated complaints. They are widespread. Our 
offices have been receiving thousands of calls and emails about 
the detrimental effects these delays are having on our 
veterans, seniors, small businesses, and families across the 
country.
    When we asked postal leaders about these delays, they 
downplayed them. They dismissed them as temporary. They 
discounted them as minor unintended consequences of reforms 
being put in place. But then we saw national headlines 
describing these delays in much more detail.
    I have a document here that lists headlines from almost 
every state in the country talking about these delays. For 
example, in my home state of New York, I quote: "Mail is 
delayed five to six days in New York City, Postal Workers Union 
says," end quote.
    In Kentucky, Ranking Member Comer's home state, quote: 
"Postal Service's cost-cutting is frustrating Kentuckians and 
raising election concerns", end quote.
    In California, the home state of our vice chairman Mr. 
Gomez, quote: "Like Armageddon, rotting food, dead animals, and 
chaos at Postal facilities amid cutbacks," end quote.
    This list goes on and on.
    Last Friday, when Mr. DeJoy was confronted in the Senate 
with these widespread reports, he said he felt bad about what 
he called a dip in service. But then, after Mr. DeJoy's 
testimony in the Senate, we obtained an internal Postal Service 
document entitled ``PMG briefing.'' This is a presentation 
prepared directly for the Postmaster General. It is dated 
almost two weeks ago, August 12.
    According to this document, these delays are not just a 
dip. This document warns the Postmaster General of significant 
and widespread drops across the board, in first-class 
marketing, periodicals, and other categories. This document 
shows that these delays are not a myth or conspiracy theory, as 
some of my colleagues have argued. These steep declines did not 
start in April or May, when the corona crisis hit us, but in 
July when Mr. DeJoy came on board and began making his changes.
    Our entire country is experiencing these delays as a result 
of Mr. DeJoy's actions, such as his decision to restrict the 
number of trips from processing plants to delivery units.
    Perhaps Mr. DeJoy thought his sweeping changes would not 
cause any delays. In my opinion, that would be incompetence, at 
best. Or perhaps this was intentional. Maybe Mr. DeJoy was 
warned that his changes would cause delays, but he disregarded 
those warnings. That would be extremely reckless in the middle 
of a global pandemic with less than three months before an 
important election. Or perhaps there is a far simpler 
explanation. Perhaps Mr. DeJoy is just doing exactly what 
President Trump said he wanted on national television, using 
the blocking of funds to justify sweeping changes to hobble 
mail-in voting.
    All of these options are bad, but when you install someone 
as Postmaster General after he donates millions of dollars to 
your campaign, when he rushes to make changes without 
conducting adequate analysis, and when he withholds key 
information from Congress and doesn't level with us when people 
begin to ask what in the world is going on, given all of this, 
it's not surprising that the Postal Service inspector general 
has already opened an investigation into Mr. DeJoy's 
controversial changes.
    We will be asking Mr. DeJoy some hard questions today. We 
will also be asking Mr. Duncan, as chairman of the Board, about 
his own role in choosing Mr. DeJoy as Postmaster General, about 
his own role in vetting Mr. DeJoy for conflicts of interest, 
including Mr. DeJoy's ownership of stock in major Postal 
Service competitors, and Mr. Duncan's own role in allowing 
these delays to happen under his watch.
    Whatever the cause of these massive delays, the American 
people want to go back to the way things were. They don't want 
these changes; they want them reversed. They don't want anyone 
messing with the post office, and they certainly don't want it 
politicized. They want to have confidence that their mail, 
their medicine, their ballots will be delivered on time.
    I look forward to hearing from our witnesses, and I now 
recognize the distinguished ranking member, Mr. Comer, for an 
opening statement.
    Mr. Comer. Well, thank you, Chairwoman Maloney. I 
appreciate you calling this hearing today on the United States 
Postal Service, even though it would have been nice to do so 
before we actually voted on the bill Saturday.
    We all agree that the Postal Service needs to be reformed 
to better serve the American people. We all want the Postal 
Service to be as efficient and effective as possible to ensure 
Americans receive their prescriptions on time, small businesses 
thrive, and mail-in ballots are delivered in a timely fashion.
    But meaningful reform is going to take bipartisanship, 
something we have seen very little of in the last few days. 
Democrats fabricated a baseless conspiracy theory about the 
Postal Service and hastily passed a bill Saturday before 
hearing from you, Mr. DeJoy. The bill had no prior committee 
action to vet the bill, no hearings, no markup.
    Because of this rushed process, the bill was significantly 
amended by the Democrats before it went to the Rules Committee. 
It then proceeded to the House floor under a process that 
prevented any amendments to the bill. There was no Republican 
input, not at any step in the process. Just this morning, we 
have learned that the U.S. Postal Service opposes the bill that 
you all passed Saturday. They read the bill and realized that 
it ties their hands and will make it harder and more expensive 
to deliver the mail. At least this legislation is consistent 
with the Obama-Biden years at the Postal Service: more delays, 
more financial losses.
    This chain of events show Democrats are not serious about 
meaningful reform. The President does not support the bill. The 
Postal Service does not support the bill, and the Senate will 
likely not take up the bill. This is a political stunt. During 
Saturday's debate, Chairwoman Maloney unveiled a 60-page 
PowerPoint deck she had just received overnight from an 
apparent whistleblower.
    Madam Chair, I don't need to remind you that your and Adam 
Schiff's record with whistleblowers is less than stellar.
    The deck is dated August 12, proving it played no role in 
the creation of your bill, which was unveiled the day before. 
The deck contains delivery performance data, updated since the 
U.S. Postal Service's third quarter report. It shows some 
delays in July and August.
    I am very interested to hear from Mr. DeJoy today about 
what he has learned about the causes of these delays. How much 
of an effect is the ongoing pandemic and increasing employee 
sick leave having on U.S. Postal Service's delivery 
performance? How does that compare to any temporary growing 
pains from efforts to make the Postal Service more efficient 
and self-sufficient?
    I say I am interested to hear Mr. DeJoy's responses because 
I do not know the answer to those questions. I don't believe 
the chairwoman does either. This is why I have repeatedly said, 
Madam Chairwoman, that this committee is doing things backward. 
When we make policy, it's our job to understand why something 
is happening. How would you find out why? You would have a 
hearing on the topic with the Postmaster General. When would 
you have this hearing? Certainly before you passed the bill.
    Returning to today, let me say that postal issues are 
something I have long heard about a great deal in my rural 
district. For example, I distinctly remember when the Obama-
Biden administration, a mail facility in Paducah was closed, 
resulting in letters that once took a day to get from point A 
to point B now taking three to four days. I also heard a lot 
about the Postal Service from my grandmother, who spent her 
entire career, 27 years, as a rural mail carrier.
    My heart and sympathies go out to our Postal Service 
families who have lost loved ones during this pandemic. As her 
grandson and the Congressman representing the First District of 
Kentucky and as the ranking member of this committee, I want to 
see the Postal Service return to being a viable institution, 
but I am disappointed at the hysterical frenzy whipped up 
around this issue by my colleagues on the left and their 
friends in the media.
    Let's look at the most often repeated claims again. Does 
the Postal Service need a bailout in order to survive through 
November? No. Mail volume has declined, but package delivery 
has shot through the roof, increasing USPS revenue by $1.5 
billion. It has nearly $15 billion cash on hand and can operate 
until at least August 2021.
    Next question: Is the Postmaster General sabotaging the 
election by removing blue postal boxes and mail sorting 
machines? No. The Postal Service has more than adequate 
capacity to handle the vote-by-mail. If everybody in the U.S. 
requests and sends their ballots via mail, that's still less 
than one day's average volume.
    The blue boxes and mail sorters were both components of 
longstanding programs in response to significant reduction in 
mail volume. Thirty-three percent reduction over the past 15 
years. For reference, under President Obama, approximately 
12,000 blue mailboxes were removed, and we didn't hear one word 
from the other side when he did that. The mail sorters were on 
track to be removed because they were sitting idle, simply 
taking up floor space for more productive activities.
    Is the Postal Service telling states they won't be able to 
deliver ballots on time? No. What the Postal Service is doing 
and has for years is trying to warn states their vote-by-mail 
laws don't take into account what the Postal Service can and 
cannot do. USPS can treat ballots as first-class mail or better 
than first-class mail, but they cannot break the laws of time 
and space.
    The letters that Democrats characterize as threats and 
propaganda are good-faith efforts to prevent weeks of 
uncertainty and confusion, such as what happened very recently 
with Chairwoman Maloney's race.
    And the charges about overtime, those came from an effort 
to reduce billions of dollars in overtime and extra truck trips 
the Postal Service spends every year. If overtime and extra 
truck trips are normal, are a normal everyday part of your 
business operations, it means something's wrong and you better 
fix it.
    On Friday, before the Senate Homeland Security Committee 
hearing, Mr. DeJoy acknowledged the recent dip in service. He 
took responsibility for this performance lapse. The logical 
step is to understand why this happened and come up with a 
plan.
    Even though your bill would prevent that, Madam Chairwoman, 
I hope that today helps in that process.
    I yield back.
    Chairwoman Maloney. I thank the gentleman for his 
statement, and I ask unanimous consent to place in the record 
the service performance measurement Postmaster General 
briefing, an official report from the post office, data, 
research, facts.
    Chairwoman Maloney. In this report, the facts speak for 
themselves. They show that under the first two months of the 
Postmaster General's work, the service fell anywhere from 6 to 
10 percent in all the major categories.
    My bill merely funds the post office and returns it back to 
the way it was so that the services can get the mail out to the 
people during a pandemic and before a very important election. 
After the pandemic, we can revisit and have other statements 
and work go forward, but let's not dismantle the services to 
the American people, the veterans, the seniors. People deserve 
to get their mail in a timely way. Most districts are having 
people calling frantically, where is my mail; where is my 
medications? So, facts speak for themselves. I am placing this 
into the record.
    I now recognize the distinguished chairman of the 
Subcommittee on Government Operations, who has done a great 
deal of work in this area, Mr. Connolly, for an opening 
statement.
    Mr. Connolly. Thank you, Madam Chairwoman, and thank you 
for your leadership. I was proud to cosponsor your bill that 
passed the House with 26 Republicans showing the courage to 
address an emergency with respect to the most esteemed 
institution of government in America.
    We have an obligation constitutionally to ensure that 
something that's been part of the American fabric since 1775 
has a future. The Postal Service is not only fighting for its 
economic survival; it's fighting to maintain 120 years of 
professional--professional--service, rid of rotten patronage 
systems that served elected officials and not those who rely on 
mail every day.
    We're here today to save the Postal Service. We have in 
front of us a newly appointed Postmaster General and a chairman 
of the Board of Governors that selected him for that post. We 
have a PMG who, six weeks into the complex and awe-inspiring 
new job, in the midst of a global pandemic and just weeks 
before a consequential national election where the Postal 
Service will play an unprecedented role, decides to announce a 
sweeping reorganization that he admits could slow down mail and 
will undoubtedly infuse uncertainty and confusion throughout 
the Postal Service and into our neighborhoods all across 
America.
    He announces these and other abysmally unsupported changes 
without engaging staff, unions, trade organizations, mailers, 
mail recipients or Congress. In fact, Congress was told Mr. 
DeJoy did not yet feel prepared to respond to any questions we 
might have for him. Yet he felt confident enough to freeze 
overtime, delay mail delivery, and announce sweeping 
reorganizations.
    And, Mr. Duncan, congratulations on being the rubber stamp. 
The Postal Service Board of Governors is required by law to 
represent the public interest, not the President, not a 
political party, or not even the Postmaster General.
    Today, the Postal Service employs 650,000 people. It's the 
foundation for more than a $1.7 trillion mailing industry that 
employs another 7.5 million people. But at the turn of the last 
century, the U.S. Post Office was nothing more than 77,000 
patronage positions, rife with gross incompetence and often 
embezzlement of funds.
    It was rural America that used its political voice at that 
time to professionalize the post office. Instead of traveling 
miles to the closest general store to pick up mail from a 
sycophantic political hack, rural residents lobbied Congress en 
masse for rural free delivery, an innovation that brought mail 
delivery to even the most distant of homes and businesses.
    The massive grassroots lobby effort brought those with 
acumen and expertise into the post office and refocused 
political leaders on what they were elected to do: serve the 
people, not their political parties. As a Nation, the people 
transformed the post office into the Postal Service.
    This history lesson resonates today. Yet another reckoning 
for this country and the Postal Service, here again, the people 
of the Nation have stood up loudly and consistently to condemn 
attempts to turn a crown jewel of our Federal Government, by 
far the most trusted agency among the hundreds that serve this 
Nation, into a spoils system's honey pot. We cannot and must 
not let that happen.
    During this pandemic, the Postal Service is a lifeline to 
the delivery of life-saving prescription medications, medical 
equipment, food and pantry staples, stimulus checks, to pay 
rent and utility bills, Census forms, and even simply coupons 
to help struggling families stay out of poverty. What leader 
would think that even the possibility of slowing down mail in a 
time such as this is a good idea?
    What leader would take steps to freeze overtime for a work 
force literally risking its life every day to deliver mail to 
the people of this Nation? 40,000 postal workers have 
contracted COVID-19 or been quarantined because of it, 40,000.
    As the new PMG, Mr. DeJoy has recklessly cut hours and 
delayed delivery times in the pursuit of unsupported 
operational efficiencies. He's never once asked Congress for 
help, despite a team of Members ready to provide financial and 
other support. The chairwoman and I, along with a collection of 
hundreds of Members, have been fighting to provide the Postal 
Service with $75 billion in support, to pay overtime and hazard 
costs to the dedicated work force, to invest in a modernized 
and green postal fleet that doesn't explode, to pay for 
information technology investments that can streamline 
communications from trucks and planes that are running late 
with important cross-county or international mail deliveries. 
Mr. DeJoy and Mr. Duncan have failed to work with Congress to 
get this enacted. Thus far, the passenger service airline 
industry has received $25 billion in revenue stabilization; the 
Postal Service not a dime.
    On August 18, the PMG announced he would put a hold on some 
of these sweeping operational changes, but his announcement did 
not commit to reversing the cuts to service and capacity 
already made. It did not include an agenda to support election 
mail that demonstrates a commitment to helping the Postal 
Service fulfill its historic role in the upcoming election.
    And, last, the PMG is still not advocating for the 
additional funding for the Postal Service, despite the fact 
that the Republican-controlled Trump-appointed Board of 
Governors unanimously called for that package, not a Democratic 
idea, a Republican-dominated board unanimously recommending it.
    The recent operational and organizational changes Mr. DeJoy 
has made have resulted in delivery delays across the country, 
as the chairwoman just showed. Those aren't our data. That's 
yours, Mr. Postmaster General. These delays have real impacts 
on real lives with real consequences.
    Most devastatingly, the damage to the Postal Service's 
credibility in a very brief time. Congratulations, Mr. DeJoy, 
an esteemed institution that now is in doubt in the American 
public's mind.
    I applaud my colleagues in the House for passing the 
Delivering for America Act bill because we need to act now. We 
need to reverse this. We need to reassure the American public 
that they will get their mail on time and that their ballots 
will get there on time and be counted. This is about the future 
of our democratic institutions. This is the future about the 
most important election in my lifetime. That's what's at stake 
today.
    I yield back.
    Chairwoman Maloney. I thank----
    Mr. Comer. Madam Chair.
    Chairwoman Maloney. Yes?
    Mr. Comer. I'd just like to make a point that you didn't 
notify our committee that Mr. Connolly, as ranking--or as 
chairman of the subcommittee, would be delivering opening 
remarks. That's another example of this rushed process. But I 
would like to ask that our ranking member of Mr. Connolly's 
subcommittee also be allowed to deliver opening remarks.
    Chairwoman Maloney. Absolutely. The staff told me they 
reached out to you and your staff. It's general that the 
subcommittee that has the jurisdiction should speak on both 
sides. I have in my notes that Mr. Hice, who is now the ranking 
member on the Subcommittee of Government Operations, will also 
be giving an opening statement. And I was told that they did 
reach out. In the future, I will personally call you myself----
    Mr. Comer. Thank you.
    Chairwoman Maloney.--and make sure it gets to you. I was 
told by staff they talked to your staff, that they had reached 
out to you. If that did not get to you, then I apologize. I 
will personally call you every time. But it is usually the 
standard that we make an opening statement and the subcommittee 
with the jurisdiction makes an opening statement.
    Mr. Comer. I agree, and I appreciate the chairwoman doing 
that. That's again important why we need to be prepared and not 
rush things like we have this Postal reform bill.
    Mr. Connolly. Madam Chairwoman.
    Chairwoman Maloney. Yes, Mr. Connolly.
    Mr. Connolly. If I can come to your defense, it has been 
your practice as chairwoman that, when it is the jurisdiction 
of a subcommittee, you have always allowed the subcommittee 
chair and the ranking member to have opening statements. That's 
practice. It's not something you sprung on us today.
    I can think of at least four examples. Mr. Raskin is one; 
Mr. Rouda is another; and their ranking members. So, it's 
actually the practice of the committee under Chairwoman Maloney 
to do just that.
    Mr. Comer. Madam Chair, if I may, I agree that it's 
practice. We just weren't notified, and it wasn't on the agenda 
item that we received, but we appreciate that. Mr. Hice, it's 
my understanding, is prepared to deliver an impromptu opening 
statement.
    Chairwoman Maloney. OK. First of all, I want to thank Mr. 
Connolly for pointing that out and also pointing out the double 
standard, that businesses such as the airlines and others are 
receiving Federal aid in the HEROES package, in the COVID 
relief package, but the vital services from our post office 
that so many people depend on, a lifeline to Americans across 
America, they deserve to be funded too.
    I now recognize the distinguished subcommittee chairman, 
Mr. Hice, for Government Operations for an opening statement. 
And you are recognized, Mr. Hice.
    Mr. Hice. Thank you, Madam Chair. I appreciate that. Yes, 
we were not notified of this, but I'm happy to take a few 
moments.
    Again, here we are having a hearing after a vote. I think 
this is absolutely disgusting. Certainly, we have had many 
votes without bothering to have a hearing, but I don't ever 
recall having a vote to so-called fix something and then have 
the hearing afterwards. This is unprecedented and, again, to me 
I believe is an example of political malpractice on the side of 
the Democrats.
    We are here to talk about the Postal Service. And, Madam 
Chair, I'm glad you brought up the HEROES Act because, in 
itself, in the HEROES Act I believe is the unveiling of what 
the Democrats are really trying to do, and that is themselves 
to fraudulently influence the upcoming election.
    In the HEROES Act is a requirement for universal mail-in 
ballots. In the HEROES Act is a requirement that states cannot 
be involved in requiring voter ID. So, we're going to have tens 
of millions of ballots sent out all across the country to many 
people who perhaps are deceased, to people who have moved, to 
people, who knows who they are, and states are not going to be 
able to have any voter ID if the Democrats have their way, and 
then we're going to have the ballot harvesting take place. This 
is what's at stake.
    I agree with Chairman Connolly, saying that this is the 
most important election. This is what is at stake. If the 
Democrats have their way in this election, it will be filled 
with fraud. It will be filled with confusion. It will be filled 
with lawsuits, because that's what is in the HEROES Act to 
produce if the Democrats have their way. Thankfully, that bill 
is not going anywhere, any further than the bill that was 
passed Saturday before the hearing.
    Then we talk about delays at the USPS. Well, we haven't 
even had hearings on the USPS since I believe it was April 
2019, and now all of a sudden we are called in for an emergency 
over this whole thing.
    We had a briefing in April of this year--not a hearing; it 
was a briefing--and the purpose of that briefing was to discuss 
the delays at the Postal Service due to COVID-19. Yes, there 
have been delays. Yes, there are thousands of USPS workers who 
are not showing up for work due to COVID-19.
    Are we surprised that there are any delays? Of course not. 
We had a briefing to discuss that just a couple of months ago. 
The Postmaster General has nothing to do with COVID-19. He has 
nothing to do with it coming, nor does he have anything with 
thousands of his workers not showing up.
    We also have cities that are rioting. Of course, there are 
delays in many of those cities, be it Minneapolis or Portland 
or Chicago or L.A. or wherever it may be.
    The fact of the matter is the bailout that passed on 
Saturday in the House of Representatives is pointless. It 
refuses the opportunity to have any reforms. So, we have a 
Postal Service right now that has $14 billion cash on hand, 
another $10 billion available to them with the Treasury, and 
they can't even get access to the $10 billion because they have 
too much money cash on hand.
    Yet we pass a bill for another $25 billion, and in that 
bill, we disallow them from making any changes. It doesn't 
matter how much money we keep throwing at the Postal Service if 
we don't allow for reform to take place, which is what is 
desperately needed.
    So, with that, I do look forward to this hearing going 
forward. I fully anticipate a lot of political theater from my 
friends on the opposite side of the aisle. I do anticipate the 
continued attempt to portray a conspiracy that does not exist 
when, in fact, it is their own party that I believe are fully 
committed, based upon the HEROES Act and other comments, to 
influence this upcoming election using fraudulent methods.
    With that, Madam Chair, I'll I yield back, and I appreciate 
you giving me the opportunity to speak.
    Chairwoman Maloney. I now recognize Mark Walker to 
introduce our first witness, who is a constituent of 
Congressman Walker's.
    Mr. Walker. Thank you, Madam Chair Maloney and Ranking 
Member Comer. It is my privilege to introduce Mr. Louis DeJoy, 
the Postmaster General of the United States. Mr. DeJoy has 
earned the respect of both charitable and business communities.
    Since its creation in 2005, the DeJoy/Wos Family Foundation 
has positively impacted thousands of people: Duke University, 
the Cone Health Center for Children, police foundations, just 
to name a few. I was actually present when Mr. DeJoy was 
inducted into the hall of fame for the Triad's Junior 
Achievement Business Leaders, the world's largest organization 
educating K-to-12 students on financial literacy and 
entrepreneurship.
    Just this past week, I received in the mail the family 
contribution, the sponsorship of Family Service of the 
Piedmont, which serves 18,000 children and adults, many of 
those battling domestic violence issues. Yet maybe the most 
impressive act by this family is the one established for 
students from Title I schools, the Scholars Program at Elon 
University. You see, I've had the opportunity to meet some of 
these students, who come from some of our most impoverished 
areas. It's not something Louis flaunts; it's just something he 
does.
    Throughout his professional career, Louis DeJoy has 
garnered a reputation as a genius in the logistical, 
innovation, and supply chain field. As the CEO of New Breed 
Logistics, he took a broken trucking company from New York to 
North Carolina and transformed it into a prominent U.S. 
provider in contract logistics, creating close to 9,000 jobs.
    Maybe that's why he was unanimously appointed to the 
position by the USPS bipartisan Board of Governors.
    Mr. DeJoy has been on the job about two months, but he's 
being blamed for implementing the reforms Congress has passed. 
For example, back in 2006, it wasn't Mr. DeJoy who passed the 
Postal Accountability Enhancement Act. It was actually 
Congress. The leading sponsor on this bill, well, he's the one 
with the biggest picture in the room, former chair of this 
committee, Henry Waxman.
    Today, Mr. DeJoy will be viciously attacked with 
prepackaged questioned and false accusations, one member even 
suggesting impeachment. That's original. How sad is it when the 
cancel culture has reached the Halls of Congress? The man 
sitting before this committee today is not who the Democrats 
have villainized him to be. He's here today because he 
supported President Trump, and with this Congress, that makes 
you a target.
    Over the past month, the DeJoys have endured protests 
outside his home, with hundreds of people blocking streets and 
frightening their neighbors. Sadly, in this day and age, an 
industry leader with a passion for service can be persecuted in 
the court of public opinion for his apparent political 
affiliation.
    As the circus unfolds today, remember that Louis DeJoy is a 
community-minded philanthropist, an industry-leading 
businessman, and, most importantly, a man with a good heart 
doing his best to serve his country.
    Mr. DeJoy, I want to commend you for being here today. Many 
of your accusers didn't extend the same courtesy. But, unlike 
the Senator from Delaware, let's hope they at least know how to 
mute themselves.
    Thank you, Madam Chair. I yield back.
    Chairwoman Maloney. Thank you.
    Our second witness is Robert Duncan, who is the chairman of 
the Postal Service's Board of Governors. He was appointed to 
the Board of Governors by President Donald Trump in August 
2018, and his term expires in December 2025.
    Please stand and raise your right hands.
    Do you swear or affirm that the testimony you are about to 
give is the truth, the whole truth, and nothing but the truth, 
so help you God?
    Let the record show that the witnesses affirmed this in the 
affirmative.
    Without objection, your written statements will be part of 
the record.
    With that, Mr. DeJoy, you are now recognized for your 
testimony.

  STATEMENT OF LOUIS DEJOY, POSTMASTER GENERAL, UNITED STATES 
                         POSTAL SERVICE

    Mr. DeJoy. Good morning, Chairwoman Maloney, Ranking Member 
Comer, and members of the committee. I am proud to be with you 
today on behalf of the 630,000 dedicated women and men of the 
United States Postal Service.
    On June 15, I became America's 75th Postmaster General. 
Since that time, for a variety of reasons, there has been a 
great deal of attention to the Postal Service by our elected 
officials, the media, and the American people.
    I want to begin by assuring this committee and the American 
public that the Postal Service is fully capable and committed 
to delivering the Nation's ballots securely and on time. This 
sacred duty is my No. 1 priority between now and election day. 
To be clear, we will do everything we can to handle and deliver 
election mail in a manner consistent with the proven processes 
and procedures that we have relied upon for years. 
Nevertheless, I encourage all Americans who choose to vote by 
mail to request their ballots early and to vote early as a 
commonsense best practice.
    As part of this conversation, there are many inaccuracies 
about my actions that I wish to again correct. First, I did not 
direct the removal of blue collection boxes or the removal of 
mail processing equipment. Second, I did not direct the cutback 
on hours at any of our post offices. Finally, I did not direct 
the elimination or any cutback in overtime.
    I did, however, suspend these practices to remove any 
misperceptions about our commitment to delivering the Nation's 
election mail. Any further assertions by the media or elected 
officials is furthering a false narrative to the American 
people.
    And let me describe the two actions I have taken in 70 days 
since my appointment. I came to the Postal Service with decades 
of experience in solving large and complex logistical problems. 
I planned to use this experience to help lead the operating 
change required for the Postal Service to grow and embark on a 
path of sustainability. On the day of my swearing in, the 
Postal Service inspector general issued an astonishing report 
about the schedule delays in Postal Service transportation and 
a substantial cost associated with our weaknesses in this 
fundamental operating principle.
    Upon review, I directed the Postal Service operations team 
to develop and execute on a plan to improve our adherence to 
the transportation schedule of our over 40,000 trips a day. We 
have accomplished this goal, as our on-time departures are 
approaching 98 percent and wasteful extra trips are down by 
over 70 percent.
    While we have had a temporary service decline, which should 
not have happened, we are fixing this. In fact, last week 
service improved across all major mail and package categories, 
and I am laser-focused on improving service for the American 
public.
    The second of two changes I made as Postmaster General was 
installing a new organizational reporting structure to better 
align talent and resources, to instill greater accountability 
for performance, and to focus the organization on service and 
growth.
    These two changes, creating our new on-time transportation 
network and designing an engaged functional organizational 
structure, will be the catalyst for significant improvements in 
cost, performance, and growth that I plan for this vital 
American institution.
    Madam Chairwoman, the women and men of the Postal Service 
have demonstrated extraordinary commitment to our mission of 
service throughout the COVID-19 pandemic. In every community in 
America, we continue to work to keep our employees and 
customers safe as we fulfill our essential role in delivering 
the medications, benefit checks, and financial statements the 
public depends upon.
    Since the beginning of the pandemic, there has been a 
public outpouring of support for our Postal employees as they 
perform their essential service throughout the Nation. This is 
a well-deserved testament to their dedication.
    Chairwoman Maloney, Ranking Member Comer, I hope we can 
agree that the financial state of the Postal Service is 
unacceptable and needs to be fixed. I look forward to working 
with you and this committee and our stakeholders to restore the 
financial health of the United States Postal Service and to 
improve the way we serve the American public.
    This concludes my remarks, and I welcome any questions that 
you and the committee may have. Thank you.
    Chairwoman Maloney. Thank you very much for your testimony, 
and we will now recognize Chairman Duncan.
    You are now recognized for your testimony.
    And he will be appearing remote.
    Chairman Duncan, you are now recognized.

  STATEMENT OF THE HONORABLE ROBERT DUNCAN, CHAIRMAN, UNITED 
            STATES POSTAL SERVICE BOARD OF GOVERNORS

    Mr. Duncan. Thank you. Chairwoman Maloney, Ranking Member 
Comer, and members of the committee, thank you for inviting me 
to speak today. My name is Mike Duncan, and for the past two 
years, I've had the honor of serving as the chairman of the 
United States Postal Board of Governors.
    Throughout my life, I've looked for ways to help and 
strengthen and support institutions that are important to 
American communities. That's why I spent five years on the 
Tennessee Valley Authority Board. It's why I serve on Alice 
Lloyd College. It's why I've served on numerous boards and 
commissions in Kentucky and at the Federal level.
    When I accepted this position, I did so because of my 
admiration for the United States Postal Service and its public 
service mission. I've spent my life in rural Appalachia, and I 
know how important the Postal Service is to communities like 
mine. I also know the Postal Service provides important jobs to 
more than 630,000 Americans, which at one time included my own 
grandfather, who delivered mail by horseback in east Tennessee.
    Since I've joined the Board, I've made it a point to get on 
the road, to visit postal facilities, to meet workers, speak 
directly with our customers, union members, union leaders. 
These conversations have only deepened my understanding for and 
of the importance of the Postal Service.
    Serving on the Board of Governors of this institution is a 
significant responsibility. The Governors, by statute, 
represent the public interest. That means I'll always remember 
its special role in our Nation, and it means I can never forget 
the challenges that are putting us at risk. These challenges 
should come as no surprise to the members of this body.
    On two occasions, I've sent you the Postal Service's annual 
report to Congress. In each of those communications, I wrote 
that, quote: "The Postal Service's business model is broken and 
will only produce widening losses in the coming years, absent 
dramatic change."
    Last fall, Postmaster General Megan Brennan notified the 
Board of her impending retirement. In response, the Board 
immediately recognized that we would be faced with the most 
important decision we would make as Governors, the selection of 
a new Postmaster General. The Board agreed that the Postal 
Service would benefit from a transformational leader, one who 
could help us buildupon the inherent strengths and confront its 
longstanding challenges.
    The Postal Service is an amazing institution, and we can do 
a lot to make it better. But we're unable to fix our broken 
business model or control our own pricing without the help of 
Congress and the Postal Regulatory Commission. What we can do 
is increase our efficiency and cut down on unnecessary 
expenses. We can also focus on marketability and modernization 
while reducing some expenses. Business as usual is not an 
option.
    It's for these reasons that, after an organized, 
deliberate, and thorough search process, The Board selected 
Louis DeJoy to serve as our 75th Postmaster General of the 
United States. He's the fifth Postmaster General since 1971 to 
join the institution from the private sector, and we believe 
the private sector experience that he has will be an asset in 
identifying ways to improve the Postal Service.
    In addition, Mr. DeJoy has decades of experience in 
improving and managing sophisticated logistic chains for 
Fortune 100 companies. He was a major contractor for the U.S. 
Postal Service for more than 25 years. He has a deep knowledge 
about the institution and how it can be strengthened.
    Like the Postmaster General, the Board has confidence in 
the Postal Service's ability to perform for the American people 
in this election season. Five years from now, the United States 
will celebrate the 250th anniversary of the American Postal 
Service. Throughout our Nation's history, this institution has 
delivered for the American people. Now we have a sacred 
responsibility to preserve, defend, and strengthen this 
organization for generations to come.
    Thank you for your time. I appreciate the opportunity and 
look forward to your questions. Thank you.
    Chairwoman Maloney. Thank you for your testimony.
    I now recognize myself for questioning.
    Mr. DeJoy, we have all been flooded with concerns and 
complaints from our constituents about the delay in the mail. 
In the vote on my bill, Delivering for America, on Saturday, 26 
Republicans voted with us, and they expressed the same 
concerns. People depend on their mail for their medications, 
for business, for keeping in touch with their families. It's 
critically important.
    We've seen headlines across this Nation from many, many 
states, headlines, major news from our states about the delay 
in the mail. It's been said it's a major institution in our 
country. People depend on it. Over the weekend, we obtained 
this internal document, and it is dated less than two weeks ago 
on August 12. It's titled a Service Performance Measurement for 
the PMG, Postmaster General briefing.
    Now, your office already confirmed to my office that this 
document is authentic. So, let's go through a little bit of it 
now. This document clearly shows major degradations across the 
board, beginning in July, when you started your changes. Here 
is the document for first-class mail, and overall it is down an 
astonishing 8.1 percent from the baseline before your changes 
for the past two months, beginning in July.
    Now, the second one, the next slide is the marketing mail, 
and that is down a stunning 8.42 percent. Now, the next--and 
it's on the wall where you can see it better--the next, 
periodicals, and that is down almost 10 percent, down 9.57 
percent.
    So, Mr. DeJoy, you and your aides have repeatedly 
downplayed these delays. You just downplayed it in your 
testimony. But this is just a disaster for the people who need 
their mail. Don't you agree?
    Would you turn on your mic? We can't hear you. Thank you.
    Mr. DeJoy. We are very concerned with the deterioration in 
service and are working very diligently. In fact, we're seeing 
a big recovery this week. In fact, that report, I requested 
that report be put together. Oddly enough, we didn't have 
measurement briefings at an executive level like this before my 
arrival where the whole executive team was involved in looking 
at what the underlying circumstances were.
    We're focused on fixing it. We've seen a nice--we're 
starting to see a nice recovery. W44 e will have it back to--my 
goal is to get it, you know, to a high--we were not meeting 
metrics before. With this change, this fundamental change, we 
have a real good shot at getting to the stated metrics that we 
are supposedly, you know, governed by.
    Chairwoman Maloney. Well, you just testified that you've 
been on the job 70 days.
    Mr. DeJoy. Uh-huh.
    Chairwoman Maloney. So, this is essentially your report 
card for that period of time. If any other CEO had this kind of 
plummeting record in his first two months on the job, I can't 
imagine why he would be kept on.
    Mr. DeJoy. That's an unfair accusation.
    Chairwoman Maloney. May I continue? When you testified on 
Friday, Senators asked you over and over about the status of 
these delays. They also asked you to produce analysis about the 
negative impacts of your changes.
    It would have been easy to mention to the Senators that 
this document existed. You could have said, ``As a matter of 
fact, Senator, I just received a detailed briefing and, 
unfortunately, the data shows major delays in nearly all 
categories.'' But you didn't do that. You dismissed these 
nationwide delays as, quote, "a dip," and you refused to turn 
over any analysis.
    So, my question is, why didn't you disclose this document 
and any analysis to the Senate when you had it and they were 
asking for it?
    Mr. DeJoy. They asked me for it on Friday. They asked me 
for an analysis on my decision. I----
    Chairwoman Maloney. Of the delays, the delays. I watched 
the testimony. They wanted an analysis, why are there all these 
delays.
    Mr. DeJoy. Well, there's a lot of reasons for delays 
besides just my--my--the action that I took to run your trucks 
on time. There are other reasons for the delays in the Nation.
    Chairwoman Maloney. Well, I would say running trucks on 
time would probably increase delivery, but for some reason, it 
backed it up five to six days----
    Mr. DeJoy. Oddly enough, yes.
    Chairwoman Maloney.--into the district that I represent so 
reported.
    But, Mr. DeJoy, on August 14, this committee sent you a 10-
page letter, along with the chairs and ranking members of three 
other committees, and we asked you to produce all 
communications, and I'm quoting from the letter: "All 
communications, evaluations, assessments or reports regarding 
mail left behind or delayed as a result of these new policies 
that you instituted," end quote. We asked for these documents 
by Friday. And on Friday night, you did produce some documents 
to us, but you did not produce this one.
    So, my question is, why did you leave this important 
internal document from the postal professionals that was 
delivered to you and briefed to you two days before the Senate 
hearing? Why did you leave it out?
    Mr. DeJoy. I am not familiar with the request in total of 
how we supported it. I'm sure the staff answered the questions 
as they were asked.
    And let me just for the record clear up. I did not--that is 
not a policy change. That is a request that we run our 40,000 
trucks a day on schedule. Your intuition is right. You would 
think that the mail moved faster, and it did, a good portion of 
it moved faster.
    We also were sitting there looking at a report that talked 
somewhere between $1 billion and $3 billion worth of costs 
wasted on our truck trips being out of schedule. It was an easy 
request that I spoke with every senior executive in the 
organization about the----
    Chairwoman Maloney. My time is limited. I am concerned why 
we didn't receive any of this information and I have to say 
that, Mr. DeJoy, we sent our letter two days after you received 
this briefing and this document. It must have been fresh on 
your mind. There's absolutely no excuse for concealing it and 
withholding this information from the committee or from your 
testimony before the Senate when you were expressly asked 
questions about the information in the document. Unfortunately, 
this committee received it from someone else.
    So, Mr. DeJoy, you're withholding information from us, 
concealing documents, and downplaying the damage that you're 
causing. So, let me close with this: This committee expects a 
full and complete production of all the documents we requested 
no later than this coming Wednesday. And if you continue to 
withhold information or otherwise fail to comply, you can 
expect a subpoena.
    Now, I know many of our members plan to ask about how you 
intend to fix the problems, the problems you created, and 
reverse these horrible trend lines. So, we will get to those 
questions next.
    With that, I now recognize the distinguished ranking member 
for his questions. He is saying that Virginia Foxx will be the 
first to respond, Virginia Foxx from the great state of North 
Carolina.
    Ms. Foxx. Thank you, Madam Chairwoman. Madam Chairwoman, I 
do note that you're going over time a great deal.
    But, Postmaster General DeJoy, thank you very much for 
being with us today. Some claim the Expedited to Street/
Afternoon Sortation pilot and your changes are deliberative 
efforts to slow down mail and hurt Postal Service employees. Is 
that true?
    Mr. DeJoy. No, ma'am.
    Ms. Foxx. Are you banning employees from charging overtime 
or are you trying to limit unplanned overtime to ensure the 
Postal Service's viability?
    Mr. DeJoy. At this time, no, ma'am, and no time since I've 
been here.
    Ms. Foxx. Thank you. Postmaster General DeJoy, as a 
logistics expert--and I believe that Representative Walker 
outlined your expertise very well--what does the consistent use 
of unplanned overtime and the need for extra trips mean in 
terms of the efficiency of operations?
    Mr. DeJoy. Well, besides costing substantial amounts of 
money, you know, for the Postal Service, in terms of billions 
of dollars, it also does not keep the system, the delivery 
system, in balance, which also results in late--delays in mail, 
and in equilibrium in our production processes across the whole 
network.
    Ms. Foxx. Can more efficient, on-time operations result in 
better delivery performance?
    Mr. DeJoy. Absolutely.
    Ms. Foxx. And does unplanned overtime hinder the Postal 
Service's ability to stay financially viable?
    Mr. DeJoy. Absolutely.
    Ms. Foxx. You know, my husband and I have experienced some 
very, very inefficient services on the part of the Postal 
Service in the last few weeks. I'm not going to go into those 
details, but I want to applaud your approach to accountability. 
What we know from our colleagues on the other side of the aisle 
is they run away from accountability in every case in the 
Federal Government or in allied services, like the Post Office. 
So, let me applaud you for pushing on accountability.
    Mr. DeJoy, as we're all aware, the Postal Service is not a 
government agency that receives appropriations. In fact, it is 
law. The Postal Reorganization Act of 1970 created the U.S. 
Postal Service as an independent and self-sustaining entity.
    Postmaster General DeJoy, do you believe it is your duty to 
uphold this law and ensure that the USPS is self-sufficient?
    Mr. DeJoy. I do.
    Ms. Foxx. And what will it take to make the USPS self-
sufficient?
    Mr. DeJoy. Legislation with regard to our healthcare--
Medicaid integration into our--pension reform, flexibility from 
the PRC. We still haven't got a decision from them. We're in 
their 14th year of a 10-year analysis.
    The Postal Service itself, there's a library of OIG reports 
identifying flawed practices and billions and billions and 
billions of dollars of cost, waste that this committee--nobody 
seems to pay attention to.
    Then the Postal Service, our management team itself 
delivering--you know, helping fix ourselves, both in terms of 
service and cost. We have a plan now to do that, and part of it 
includes running our trucks on time.
    Ms. Foxx. And these OIG reports have come from Democrat 
Presidents and Republican administrations both. Is that 
correct?
    Mr. DeJoy. Yes, ma'am.
    Ms. Foxx. Thank you. If you have no operational 
flexibility, can you possibly make the Postal Service self-
sufficient?
    Mr. DeJoy. I think we have a very, very good shot. We have 
some new revenue ideas for the Postal Service also. We have it 
where we're beginning to finalize the plan, and I need to brief 
the Board, but I'm very, very excited about the management team 
under our new organizational structure. I'm excited about the 
dedication of the 650,000 men and women.
    And I think we can embark upon--with a little help from 
this Congress, we are about to embark upon some significant, 
exciting future for the Postal Service. I believe in the six-
day delivery. I think the carrier is--or the carriers, our 
Postal carriers' relationship with the American people is the 
most important ingredient in giving us the approval rating that 
we have. We have plans to really enhance that relationship and 
to help our growth.
    Ms. Foxx. Well, again, I want to thank you for bringing 
your expertise to become the Postmaster General of the United 
States. You have the exact background that we need and the 
commitment that we need to make the post office work the way 
Americans want it to work.
    Thank you, Madam Chairman and Ranking Member. I yield back.
    Chairwoman Maloney. Thank you.
    I now recognize Congresswoman Norton, Congresswoman Norton 
by Webex.
    Ms. Norton. Thank you very much, Madam Chair. This hearing 
is very necessary to clarify matters that were left open when 
we took the vote already on this bill.
    Mr. DeJoy, in your testimony, you suggested that the 
coronavirus was having--and here I'm quoting--a significant--
was a significant issue in employee availability in many, many 
parts of the country.
    If that's the case, sir, I want to know why you'd be 
reducing overtime. Isn't overtime even more necessary to postal 
employees during this national emergency, during this pandemic 
with so many people at home, and given what you've already 
testified to about the significant issue in employee 
availability across the country?
    Mr. DeJoy. Thank you.
    Ms. Norton. Why wouldn't overtime be necessary to make up 
for all of that?
    Mr. DeJoy. Thank you, ma'am. Since I've been here, we've 
spent $700 million in overtime. The overtime rate before my 
arrival was at 13 percent within the organization. It's still 
at 13 percent. As I said in my opening statement, this is a 
continued misinformation regarding what I did since I've gotten 
there. I never put a limitation on overtime.
    Ms. Norton. Well, that's very important testimony, Mr. 
DeJoy, because in some states, we're seeing 10 times the normal 
volume of mail.
    And I'd like to ask about additional resources two weeks 
before the election. Is expanded allowance of overtime one of 
the items under consideration when you have already announced 
you will bring, quote, "additional resources to bear" in two 
weeks before the election? Does that include expanded overtime; 
indeed, wouldn't it have to?
    Mr. DeJoy. Yes, ma'am, it does. We will--the 650,000 men 
and women of the Postal Service are very committed to having a 
successful election in our role in the election. Overtime, 
extra truck trips, postal inspection checks, rounds, you know, 
in each postal processing facility.
    Ms. Norton. Well, that's very important. That's very 
important for the record, that expanded overtime will be 
allowed in the two weeks before the election.
    My next question is on a PMG Postal Service document we 
have received. This is what it said and why my questions were 
necessary. I'm quoting now the document titled, ``PMG 
Expectations and Plan.'' Overtime will be eliminated. There you 
see it before you. Again, we are paying too much for overtime, 
and it is not cost effective and soon will be taken off the 
table. More to come on this.
    We asked your general counsel and he claimed that that came 
from a midlevel manager, and should not be treated as an 
official statement of Postal Office policy. So, I ask you, 
would a postal manager send this document without some kind of 
word from you or from the top of the agency? And can you 
explain who this was and give us----
    Mr. DeJoy. I have--thank you. I have purposely not tried to 
find out who that was, but there are many ways that people 
interpret----
    Ms. Norton. You have tried not to find out who that was?
    Mr. DeJoy. That's right. I don't know--that was not a 
directive from me. There's 50,000 managers within the 
organization, and this is one of the reasons I changed the 
organization quickly after the rollout of the truck schedule. 
There was very, very confusing----
    Ms. Norton. So, are you looking for whoever it was who 
jumped ahead of you in issuing that to----
    Mr. DeJoy. Absolutely.
    Ms. Norton [continuing]. To all your employees?
    Mr. DeJoy. Absolutely. We----
    Ms. Norton. I want you to give that name when you find it 
to the chair as well.
    In a statement on August 18, you stated overtime has and 
will continue to be approved as needed. I wanted to understand 
``as needed,'' what that means. Can postal managers and 
employees continue approving and using overtime as they did 
before your tenure began or are there any changes since you 
took office?
    Mr. DeJoy. Same as from prior to me being here.
    Ms. Norton. Have you issued any internal guidance to that 
effect and would you provide it to us, please?
    Mr. DeJoy. I'm sorry, I didn't hear the question.
    Ms. Norton. I asked, have you issued any internal guidance 
to that effect that the employees continue to approving--can 
continue to approve and use overtime?
    Mr. DeJoy. I never issued a guidance against that effect, 
but everybody--the organization----
    Ms. Norton. Are you intending to issue any guidance to the 
effect that employees----
    Mr. DeJoy. Yes. I've told the executive team, the 
operations team. They know there is no different process----
    Mr. Comer. Madam Chair?
    Mr. DeJoy [continuing]. Than prior to my arrival.
    Chairwoman Maloney. OK. The gentlewoman's time is 
completed.
    Ms. Norton. Well, Madam Chair, can I ask just ask that he 
provide us or provide you any written guidance on overtime to 
the committee?
    Chairwoman Maloney. I make that request on behalf of the 
committee.
    I now recognize Mr. Gosar, Congressman Gosar.
    Mr. Gosar. Yes. Can you hear me and see me?
    Chairwoman Maloney. Yes, we can.
    Mr. Gosar. OK. Thank you.
    Chairwoman Maloney. We can hear you, but we don't see you. 
There. There you are.
    Mr. Gosar. OK. Mr. DeJoy, thanks very much for coming 
today. I want to clear up some obvious political disinformation 
that the majority is actually putting out, so--and then I also 
want to say thank you very much for acknowledgment of the dip 
in services, but we'll get to that in a few minutes.
    On Saturday on the House floor, my colleagues said the Post 
Office is on the verge of collapse. But that's not true. You 
have over $10 billion cash on hand and access to a $10 billion 
line of credit, which makes you fiscally viable through August 
2021. Is that true, Mr. DeJoy?
    Mr. DeJoy. Yes. But I would say that only in Washington, 
DC. would that be a good position to be in, when I have $135 
billion in liabilities, a $2.5 billion a month--a week--
biweekly payroll and a whole bunch of others. But, yes, we can 
get through the election and with the loan, should we take it. 
I don't know how we would pay it back, but should we take it, 
we should be fine for--through mid 2021.
    Mr. Gosar. So, now, isn't it true that you're actually 
generating more revenue at this time of the year than you also 
did last year, and you're processing more--successfully 
processed an uptick in mass mail government items such as the 
stimulus checks, and the question about--the Census question of 
ballots? Is that true?
    Mr. DeJoy. We're seeing more revenue mostly due to package 
increase. Mail products are down 15 percent or so on average, 
but package volume is up substantially. But package volume is 
very costly for us to handle in overcapacity method.
    Mr. Gosar. So now, do you believe that the money on hand 
successful
    [inaudible] that you said the mail volume is down by 15 
percent and the hard work of the over 600,000 postal workers, 
that you can handle the slight election increases that you'll 
possibly see?
    Mr. DeJoy. I will be very, very clear that the 650,000 men 
and women, we are working with our union leadership, our 
management team, our employees, we will be able to handle all 
election mail for the 2020 election.
    Mr. Gosar. Now, I want to go back to the slowdown related 
to the pandemic. I want to highlight that this week, the 
president of the Phoenix Postal Workers Union stated that it 
was suffering from these pandemic work force strains, that no 
processing machines have been removed during your tenure, and 
the United States Postal Service processed over 700,000 ballots 
in our recent primary election.
    Let me ask you a question, Mr. DeJoy. Have you had 
slowdowns or impediments like in Seattle and Portland and New 
York City and Chicago because of the rioting and the anarchy 
that's going on?
    Mr. DeJoy. Well, sir, I mean, any kind of rioting does 
produce delays with any type of public service. So, I don't 
have a specific measurement on that. But I would--I will say 
this, that as the coronavirus cases throughout the country have 
expanded, it has had an impact on our employee availability.
    In the urban areas that are hot spots, you know, the 
averages don't play out what the real picture is like in areas 
like Philadelphia where employee availability is significantly 
below our normal run rates and what it has been in the 
pandemic--we actually peaked, started to peak in terms of 
employee availability issues in the July timeframe.
    Mr. Gosar. Now, I want to go back to, you paused any policy 
changes to the Postal Service such as the elimination of 
overtime, prohibiting extra trips, hiring freezes, and removing 
sorting machines. Is that true?
    Mr. DeJoy. The extra trips--and they weren't prohibited. 
We--it's true on everything else but the extra trips. My 
direction was we need to work on getting our trucks on schedule 
and mitigating our extra trips. We still run 700, 800 extra 
trips a day, and we still have thousands of truck trips that 
run late. So, it wasn't a flat directive. It was work through 
our plan, that was my directive, and come up with a plan to 
work through our plan.
    So, the management team put the plan together and executed 
on the plan. So, everything else I had nothing to do with. 
There was a longstanding plan on collection boxes and sorting 
machines and postal hours. That was way--that was ongoing--
really in the areas they were taking care of that.
    Mr. Gosar. So, another quick question. Is the Pony Express 
still available today?
    Mr. DeJoy. I've been here 70 days, sir. I'm searching for 
the good. I haven't seen that yet, no, so I think it's gone.
    Mr. Gosar. Oh, technology has its changes. And any transfer 
or new ideas, always goes smoothly, doesn't it, Mr. DeJoy?
    Mr. DeJoy. I'm sorry?
    Mr. Gosar. A transition where you're trying to make changes 
always goes smoothly, doesn't it?
    Chairwoman Maloney. The gentleman's time is expired, but 
you may answer his question.
    Mr. DeJoy. Transitions don't always go smoothly. We should 
have a recovery process. Our recovery process is taking too 
long. This should have been resolved in a couple--in a few 
days, and it's not. So, you know, the impact--there's a lot of 
reasons--there are a lot of things that are impacting our 
service. This is one of them on the front end, and we should 
have cleared it up quicker, and we are--I think we have the 
focus on it now, and it will recover, you know, quite rapidly 
going forward.
    Chairwoman Maloney. Thank you.
    The chair now recognizes Mr. Clay, Congressman Clay.
    Mr. Clay. Thank you for conducting this hearing. Thank you, 
Madam Chair, for conducting this hearing.
    Mr. DeJoy, one of the most damaging results of your actions 
is the reports we have heard over and over again from people 
and families across the country who are not getting their mail 
and medications on time, and it's heartbreaking. The Postal 
Service delivers hundreds of millions of prescription drug 
shipments each year. That is millions of shipments per day, six 
days a week of vital medicines delivered.
    Chairwoman Maloney. We're having a technical problem right 
now with Mr. Clay. We can't hear you. It's breaking up.
    Should we go to someone else and go back? OK. Mr. Clay, 
we're going to try to correct what's--there's a problem. We 
can't hear you.
    Mr. Clay. This is literally a lifeline for our most----
    Chairwoman Maloney. We're going to hold your testimony.
    Mr. Clay [continuing]. Vulnerable populations.
    Chairwoman Maloney. Should we go forward or not?
    Mr. Clay. This problem has gotten aggravated during the 
coronavirus crisis because mail-order----
    Mr. Comer. Madam Chair, for the sake of time, let's move 
on.
    Chairwoman Maloney. OK. Mr. Clay, we're going to hold up on 
you and go to Mr. Lynch and then go to a Republican and come 
back to you. We have technical difficulties.
    Mr. Lynch, Congressman lynch, you are now recognized.
    Mr. Lynch. Thank you, Madam Chair.
    Chairwoman Maloney. Thank you.
    Mr. Lynch. Thank you, Mr. DeJoy, for attending.
    Mr. DeJoy, you've been the Postmaster General of the United 
States for a couple of months right now?
    Mr. DeJoy. Seventy days.
    Mr. Lynch. Seventy days, OK. So, I've been a member of this 
committee for about 20 years, and since my mom and two of my 
sisters, a bunch of my aunts, cousins, my in-laws all worked at 
the Post Office--some of them are retired. Some of them are 
still there--as a Member of Congress, you might say I've been 
compelled to take a keen interest on matters affecting the 
Postal Service.
    I'm also a former president of the Iron Workers Union in 
Boston, so you can get a sense of my perspective. It's blue 
collar, you know, commonsense, get your work done sort of 
perspective.
    So, Mr. DeJoy, as the Postmaster for the United States of 
America for the last 70 days, did you know that the Postal 
Service has never allowed itself to be in the situation that 
it's in today?
    Throughout the Postal Service history, there's been a 
tradition of reliable delivery from the very beginning, Article 
I, Section 8, Clause 7 of the United States Constitution. Going 
back to Ben Franklin, our first Postmaster General, the Pony 
Express that's been mentioned before.
    I was actually watching a Ken Burns special last week, and 
he had these heart-wrenching letters that were back and forth 
from soldiers during the civil war. So, even at a moment when 
the country was at war with itself, the mail was delivered. 
During the First World War and the Spanish flu influenza of 
1918, through the Great Depression, millions of people out of 
work, 1,000 bank failures, the mail was delivered on time. Even 
during the Second World War with the threat of Nazi U-boats, 
international mail was delivered on time.
    It just so happens I was elected on 9/11, the day of the 
terrorist attacks on our Nation, a God-awful day. Some people 
forget, in the days after 9/11, we had direct anthrax attacks 
on the United States Postal Service. We lost two brave postal 
workers, Joseph Curseen and Tom Morris, down at the Brentwood 
facility here in D.C. from anthrax inhalation. But for the good 
of the country, the postal unions continue to send their 
members into the post office to do their job to keep the 
country running.
    So, two weeks ago, after you'd been Postmaster for just a 
few weeks, that all changed. In the middle of a pandemic that 
has killed 170,000 Americans and on the eve of a national 
election at a time when the CDC is advising people not to 
gather, limit outside contact, the Postal Service started 
removing 671 high-speed mail sorting machines across the 
country.
    You stopped the APWU from sorting the mail and you stopped 
the National Letter Carriers and Mail Handlers from working 
overtime to deliver the mail. And for the first time in 240 
years, in our history of the United States Postal Service, you 
sent out a letter embarrassingly in July to 46 states that said 
the Post Office can't guarantee that we can deliver the mail in 
time for the elections in November. We have reports from across 
the country, as you acknowledge, service has been delayed and 
the mail is piling up. You have ended a once proud tradition.
    Now, as a member of the Oversight Committee, we are the 
chief investigative committee in the Congress. We conduct 
oversight on every matter that impacts the American people, 
foreign and domestic. There are members on this committee who 
have been to Iraq and Afghanistan a couple dozen times. They've 
been to Yemen, Somalia, Gaza, you name it. They literally go to 
the ends of the Earth to investigate matters that affect the 
American people especially when it involves our sons and 
daughters in uniform.
    In this moment, it is our postal workers who happen to be 
our men and women in uniform. They are on the front lines of 
this pandemic. Throughout this pandemic, they've risked their 
own health and safety to deliver or try to deliver mail, 
medicines, and mail-in ballots to every American home and 
business six days a week.
    As a member of this august committee, I'm supposed to ask 
you a question. In my heart, I'm tempted to ask, after 240 
years of patriotic service delivering the mail, how can one 
person screw this up in just a few weeks? Now, I understand you 
bring private sector expertise. I guess we couldn't find a 
government worker who could screw it up this fast. It would 
take them a while. The President is running this Post Office 
like a business, like he said. He's running it into the ground 
as he has declared bankruptcy a few times on his own 
businesses.
    In an effort to apply the facts, the real facts, not the 
alternative facts, based on what you have actually done, one 
can only reach--as a fact finder, we can only reach two 
conclusions: One, either through gross incompetence you have 
ended the 240-year history of delivering the mail reliably on 
time, or the second conclusion that we could gather is that 
you're doing this on purpose and that you're deliberately 
dismantling this once proud tradition.
    Chairwoman Maloney. The gentleman's time is expired. The 
gentleman may answer his question.
    Mr. Lynch. My last question is this----
    Mr. DeJoy. Thank you, sir.
    Mr. Lynch [continuing]. What the heck are you doing? What 
the heck are you doing? That's my question.
    Chairwoman Maloney. The gentleman's time is expired.
    Mr. DeJoy. Thank you, sir.
    Chairwoman Maloney. The gentleman's time is expired. The 
gentleman may answer.
    Mr. DeJoy. First of all, I would like to agree with you on 
the heroic efforts of our 650,000 employees across the Nation 
and the history of the Postal Service, for their 250-year 
history of serving the American public. And I'm really proud--
--
    Mr. Lynch. Will you put the machines back?
    Mr. DeJoy. I'm very proud to lead the organization. The 
rest of your accusations are actually----
    Mr. Lynch. Will you put the machines back?
    Mr. DeJoy. They're actually outrageous. No, I will not.
    Mr. Lynch. You will not?
    Mr. DeJoy. Will not.
    Mr. Lynch. You will not. Well, there you go.
    Mr. DeJoy. There I go what? Those machines have been coming 
out for years.
    Mr. Comer. Madam Chair, let the witness answer the 
question. And he has gone over time.
    Chairwoman Maloney. Order. Order. Order. Order. The 
gentleman may answer the question without being interrupted----
    Mr. DeJoy. Every accusation----
    Chairwoman Maloney.--and the question is, will you put the 
machines back?
    Mr. DeJoy. The answer is no. Every accusation you made, 
other than the truck--adhere to the truck schedule, is 
inaccurate and more misinformation for the American public.
    Mr. Lynch. You won't put the machines back, though?
    Mr. DeJoy. I will not put them----
    Mr. Lynch. You took them out. They're high-speed machines 
and you took them out.
    Mr. Comer. Madam Chair? Madam Chair?
    Chairwoman Maloney. Mr. Jordan is now recognized. 
Congressman Jordan, is he here?
    Mr. Comer. No. I believe that's not the order.
    Chairwoman Maloney. What? No, it's Palmer, Congressman 
Palmer. I'm getting different signs up here. Why don't we go 
back to the old way that you write it down, because it keeps 
changing.
    OK. Congressman Palmer is now recognized.
    Mr. Palmer. I thank the chairman.
    I just want to point out a Washington Post article from 
August 26, 2015, almost five years to the day, that there was a 
decline in first-class letter delivery of 18 to 44 percent and 
a 38 percent decline in the performance over the same time in 
2014. This was during the Obama-Biden administration.
    The United States Postal Office in 2012 started closing 
dozens of mail-sorting facilities. From January to June 2015, 
there were 494 million pieces of mail that did not arrive on 
time, a 48 percent increase in delayed mail delivery, and I'm 
sure that that was intended to impact the 2012 election. Yet 
this committee didn't see fit to look into that.
    Mr. DeJoy, these will be yes and no for the most part. Is 
there any way the post offices can know whether or not ballots 
that they are delivering to households or to eligible voters--
is there any way for the Post Office to know that?
    Mr. DeJoy. No, sir.
    Mr. Palmer. I bring that up because there's an analysis of 
data released by the U.S. Election Assistance Commission in 
2019, and in a recent U.S. Census Bureau's five-year American 
community survey there were 378 counties nationwide that have 
more voter registrations than citizens living there who are old 
enough to vote.
    These are counties where the registration exceeds 100 
percent. In Iowa, there are at least 18,658 extra voters. Under 
the National Voter Registration Act of 1993, Judicial Watch 
sent notice of violation letters to 19 large counties in five 
states: California, Pennsylvania, North Carolina, Virginia, and 
Colorado.
    RealClearPolitics reported that Los Angeles County had an 
estimated 1.6 million ineligible voters, and 38 states have 
counties where the voter registration is over 100 percent, 
including Montgomery Country, Maryland, which is represented by 
my distinguished friend Mr. Raskin.
    The same article cited a 2012 Pew study that found there 
are 24 million voter registrations that are no longer valid or 
significantly inaccurate. Pew's total included 1.8 million dead 
people and another 2.75 million who were registered in at least 
two states.
    New York, for instance, in this most recent primary that 
impacted your race, Madam Chairman, had 84,000 ballots, almost 
a fifth of all the--over a fifth of all the ballots, I think, 
cast, 12,000 in your race that were disqualified.
    So, my question to you, Mr. DeJoy, is there any way to be 
sure that more ballots than a household should be eligible to 
receive are not being delivered?
    Mr. DeJoy. I'm sorry. Say that again.
    Mr. Palmer. Is there any way for the Postal Service to 
determine whether or not a household is getting more ballots 
than they should be?
    Mr. DeJoy. We're focused on delivering the mail.
    Mr. Palmer. So, the answer is no, there is no way to know 
that. So--and if there was some way to know that, I'm sure the 
postal inspectors would get involved?
    [Webex interruption. Discussion off the record.]
    Madam Chairman, I reserve my time.
    Chairwoman Maloney. What's going on?
    Mr. Palmer. I think the Chinese have hacked in or 
something.
    Chairwoman Maloney. OK. What is that noise?
    Mr. Palmer. Ma'am, the clock is still running.
    Mr. Comer. Madam Chair, can his time be restored?
    Chairwoman Maloney. Yes. We will give you adequate time 
to--because of the----
    Mr. Palmer. Have we resolved this, do you think?
    Chairwoman Maloney. This is a problem. What is it?
    The Clerk. They're just trying to deal with technical. 
We'll give you extra time. Keep going.
    Chairwoman Maloney. You have extra time. We have some 
technical problems.
    Mr. Palmer. Thank you, Madam Chairman. I do appreciate your 
indulgence. Thank you.
    The Census Bureau reports that 11 percent of Americans move 
each year. Section 8 of the National Voter Registration Act, 
which was passed by the Democrats in 1993, signed by President 
Clinton and voted for by Mr. Cooper and Mr. Clay and Madam 
Chairman Maloney, requires states to perform voter registration 
maintenance.
    It is really the responsibility of the Federal Government 
to ensure that states and local governments make sure their 
voter rolls are accurate, that they have removed deceased 
people, people who have moved, or inactive voters.
    And it should be noted that the Obama-Biden administration 
did not bring a single Section 8 enforcement action during 
their entire term. That makes the Post Office task of only 
delivering ballots to eligible voters more difficult.
    My point is, is that you've been accused of trying to 
impact an election when the fact of the matter is, for those 
people who have never had a real job out in business, what 
you've been trying to do is improve the performance of the Post 
Office so that what happened in 2015 does not continue to 
happen.
    And it's going--and the accusations are that you're trying 
to throw the election, when the fact of the matter is the fact 
that the Federal Government has not done its part, particularly 
during the Obama-Biden administration, to ensure that the voter 
rolls are accurate has made your job more difficult.
    It's really not your job, is it, one way or the other?
    Mr. DeJoy. No, sir.
    Mr. Palmer. Can we count on the Post Office and delivery 
personnel around the Nation to not deliver mass ballots, stacks 
of ballots to an address where the delivery person knows that 
there's nobody there, an abandoned house, an abandoned 
apartment complex, a business? Would that--that would be 
reported, wouldn't it?
    Mr. DeJoy. We deliver mail to the address specified.
    Mr. Palmer. And if dozens or hundreds of mail-in ballots 
are dumped into blue mailboxes instead of left in a regular 
mailbox for pickup or dropped off at the post office, would it 
make sense to report to the postal inspectors to make sure that 
those ballots are legitimate?
    Mr. DeJoy. There are processes that the postal inspectors 
deploy. I'm not fully aware of what they are right now, but 
there are processes that the postal inspectors deploy to 
identify any fraudulent type of activity within the mail 
system.
    Mr. Palmer. Well, we need to make sure that this election 
is not tainted by fraudulent mail-in ballots.
    Madam Chairman, I'm going to do something that I rarely do. 
When Mr. Gosar mentioned the burned out--the riots in Portland 
and other--Seattle and other places around the country, there 
was a chuckle from one of the Democrats on this committee, and 
I take offense at that.
    This is a picture of the burned out post office in 
Minneapolis, OK. There was mail in that post office that was 
lost. There may have been prescription drugs that were lost. 
There may have been Social Security checks in that office that 
were lost.
    It is a fact that not only is the mail delivery delayed 
when you have anarchists laying siege to cities all over the 
country, it endangers postal workers, delivery people. It may 
have endangered people's lives who were not able to get their 
medicine because it burned up in the Minneapolis Post Office. 
That's not funny. I hope that the Democrats in this committee 
and in this Congress will take seriously what's happening in 
American cities.
    I yield back.
    Chairwoman Maloney. The gentleman yields back.
    We're still having difficulty connecting with Congressman 
Clay. I now recognize Mr. Cooper, Congressman Cooper.
    Mr. Cooper. Mr. DeJoy, here's what your so-called reforms 
have done to my district in 70 days. A lady named Elena Roser 
paid $5 on July 22 to send a certified letter to the Nashville, 
Tennessee Social Security Office. The distance is 20 miles. The 
letter took 12 days to arrive.
    Just this morning, excellent reporting from Nashville's 
Channel 5 TV proves that Nashville's mail trucks are being 
forced to leave on schedule even when completely empty. Imagine 
it, 53-foot trucks forced to travel hundreds of miles 
completely empty due to your so-called reforms. Here are the 
truck records. That's not efficiency. That's insanity.
    For anyone thinking of voting absentee, the effect of your 
policies is to unilaterally move up election day from November 
3 to something like October 27. And if you force more empty 
trucks on the highway, you will be able to single handedly move 
up election day even earlier.
    According to NPR, already 550,000 primary ballots, absentee 
ballots were rejected in just 30 states, and one of the main 
reasons was late delivery. How dare you disenfranchise so many 
voters when you told the Senate committee just last week that 
you had a sacred duty to protect election mail.
    You know that it's a felony for a Postal Service officer or 
employee to delay delivery of mail. A postal employee can be 
fined or imprisoned for up to five years for delaying the mail, 
but somehow you can delay all the mail and get away with it? 
They can be prosecuted but you can't, even if your actions are 
a million times worse?
    Mr. DeJoy, do you have a duty to obey U.S. law like every 
other American?
    Mr. DeJoy. I do, sir.
    Mr. Cooper. Well, previous Postmasters General have been 
punished for much smaller conflicts of interest than yours. In 
1997, the 70th Postmaster General, Marvin Runyon from 
Tennessee, had to pay $27,000 because of a $350,000 conflict of 
interest.
    If your $30 million conflict of interest, 100 times larger 
than Mr. Runyon's, were treated like your predecessors, you 
would have to pay a $2.7 million fine and probably be ousted 
from being Postmaster General.
    So, Mr. DeJoy, are you above the law that applies to other 
Postmasters General?
    Mr. DeJoy. I don't agree with the premise. I'm in full 
compliance with all ethical requirements that I need to have. 
There's an OIG investigation, and I welcome the result of that 
report.
    Mr. Cooper. Mr. DeJoy, as a mega donor for the Trump 
campaign, you were picked, along with Michael Cohen and Elliott 
Broidy, two men who have already pled guilty to felonies, to be 
the three deputy finance chairmen of the Republican National 
Committee. Did you pay back several of your top executives for 
contributing to Trump's campaign by bonusing or rewarding them?
    Mr. DeJoy. That's an outrageous claim, sir, and I resent 
it.
    Mr. Cooper. I'm just asking a question.
    Mr. DeJoy. The answer is no.
    Mr. Cooper. So, you did not bonus or reward any of your 
executives----
    Mr. DeJoy. No. No.
    Mr. Cooper [continuing]. Anyone that you solicited for 
contribution to the Trump campaign?
    Mr. DeJoy. No, sir.
    Mr. Cooper. Not in whole or in part?
    Mr. DeJoy. To be--actually, during the Trump campaign, I 
wasn't even working at my company anymore.
    Mr. Cooper. Well, we want to make sure that campaign 
contributions are legal.
    Mr. DeJoy. Well----
    Mr. Cooper. So, all your campaign contributions are legal?
    Mr. DeJoy [continuing]. I'm fully aware of legal campaign 
contributions.
    Mr. Cooper. Well, what if----
    Mr. DeJoy. And I resent the assertion. So, what are you 
accusing me of?
    Mr. Cooper. Well, I'm asking a question. Do your mail 
delays fit Trump's campaign goal of hurting the Post Office, as 
stated in his tweets?
    Mr. DeJoy. I'm not----
    Mr. Cooper. Are your mail delays complicit campaign 
contributions?
    Mr. DeJoy. I'm not going to answer these types of 
questions. I'm here to represent the Postal Service. It has 
nothing to do with--all my actions have to do with improving 
the Postal Service.
    Mr. Cooper. May this----
    Mr. DeJoy. Am I the only one in this room that understands 
that we have $10 billion a year loss, right? Am I the only one 
in this room that----
    Mr. Cooper. Will you give this committee your 
communications with Mark Meadows, with Treasury Secretary 
Mnuchin, with the President?
    Mr. DeJoy. Go ahead and do that.
    Mr. Cooper. Mr. DeJoy, is your backup plan to be pardoned 
like Roger Stone?
    Voice. Pitiful.
    Mr. Cooper. You have two seconds to answer the question.
    Mr. DeJoy. I have no comment on that. It's not worth my 
time.
    Mr. Cooper. I see my time is expired.
    Mr. DeJoy. It's not worth a comment.
    Chairwoman Maloney. The gentleman's time is expired, 
Representative.
    The gentleman from Florida, Mr. Steube, is recognized for 
five minutes. Congressman Steube.
    Mr. Steube. Thank you, Madam Chair.
    First of all, as a veteran who served in Iraq in support of 
Operation Iraqi Freedom, to compare postal workers to our 
military servicemembers in Iraq or Afghanistan quite frankly to 
me is offensive. Last time I checked, the Postal Service 
drivers weren't getting their vehicles blown up by IEDs or 
being shot at as they drove around and delivered mail. So, to 
try to compare our military servicemembers who sacrifice on the 
battlefields across this world to our Postal Service members 
is, frankly, offensive as a person that had served.
    It's unfortunate that there are Democrats on this committee 
that have 100 percent politicized the Postal Service to try to 
stoke fear with the American people. But we shouldn't be 
surprised. It's a familiar theme for Democrats over the last 
few years.
    A subcommittee chairman of this committee when asked on 
national television, and I quote, "Are you saying, say it 
directly, is this an attempt by the President you believe to 
interfere in the election?" The answer was "absolutely." There 
is absolutely no evidence whatsoever that President Trump is 
using the Postal Service to interfere with the election. None, 
in fact. Quite the opposite. But Democrats don't care about the 
facts.
    So, here we go again. Seems like just yesterday we were 
hearing how the Trump campaign colluded and conspired with 
Russia to interfere with the last election. And when the facts 
actually came out, there was no evidence that that ever 
occurred. This is absolutely a concocted narrative by the 
Democrats to stoke fear in the American people, just like the 
Russia collusion hoax.
    Financial issues have plagued the Postal Service for 
decades and is vastly in need of reform. Mr. DeJoy just stated 
that $10 billion loss a year. Businesses couldn't operate that 
way. But the Democrats don't want real reform. If they did, 
they would have worked with our witness today. They would have 
worked with Republicans in crafting a bill. They would have 
worked with our counterparts in the Senate. They would have 
worked with the administration to actually come up with a 
reform that would actually pass. This is a political stunt to 
further the Democrats' newest interference hoax.
    I represent nine counties in Florida, and just last week we 
held our primary elections. Florida saw the largest turnout in 
a Presidential election year primary since 1992. That was 18 
years. About 2.3 million mail-in ballots were cast, which made 
up about 59 percent of all ballots cast. Initial reports 
indicate that there were minimal issues with the additional 
ballots handled by the Postal Service. There were no issues in 
my nine counties with absentee ballots in this district, that 
I'm aware of.
    Mr. DeJoy, would it be fair to say that the Postal Service 
successfully delivered during the Florida's primary last week?
    Mr. DeJoy. Yes, sir.
    Mr. Steube. The 2.3 million mail-in ballots that were cast 
in Florida are a significant amount for one state. What are the 
factors that led to the Postal Service being able to deliver 
the substantial increase in mail-in ballots on time?
    Mr. DeJoy. When it comes to ballots, the Postal Service--
prior to my arrival and the heightened awareness of this 
particular election--throws everything it has to--at moving 
ballots through the system. Their ballots are usually 
identified with special markings, and every employee is very 
much--and manager is very much focused on making sure that 
ballots move quickly through the process, sometimes in advance 
of first-class mail. So, those particular processes were 
deployed and will be deployed as we come into the 2020 
election.
    Mr. Steube. And Florida has--am I correct in stating that 
Florida has a reasonable timeframe for Postal Service to return 
the ballots as opposed to some states that just allow ballots 
to be requested at the last minute, therefore delaying their 
ability for the Postal Service to get those ballots to the 
precincts in time?
    Mr. DeJoy. Thank you, sir. The--and that is a big part of 
the effort of the Postal Service. Prior to my arrival and since 
my arrival and the purpose of sending out the letters to all 
the states with regard to what--we just want to make everybody 
aware of what is it that will really work.
    We can put all these additional processes on, but it would 
be more helpful if we had reasonable standards from the 
election boards that comply with our processes to enable us to 
do it more efficiently and effectively.
    Mr. Steube. So, to clarify, do you need any additional 
funding to be able to successfully deliver ballots in Florida 
this November?
    Mr. DeJoy. No, we do not, sir.
    Mr. Steube. Are there any lessons that other states can 
learn from the way that Florida handles our ballots in absentee 
voting?
    Mr. DeJoy. Well, I'm not particularly familiar with 
Florida, but our general counsel--and we have--has put out 
letters with regard to each state's election guidelines. We 
have a website that's just been posted on the normal process. 
In general, I will say, on behalf of 650,000 postal workers, 
get your ballot early and please vote early and that is just 
common--you know, commonsense.
    But if Florida had a--you know, Florida had a good process, 
so I'm sure their electoral board procedures were good. We 
can't do this all by ourselves, so we would appreciate every 
state's help in reviewing their standards and taking advice of 
the Postal Service General Counsel and what's on our website.
    Chairwoman Maloney. Thank you. The gentleman's time is 
expired.
    We now recognize Mr. Clay. If we're still having connection 
problems, we will be going to Mr. Connolly.
    Mr. Clay.
    Mr. Clay. Hi, Madam Chair. I hope you can hear me now.
    Chairwoman Maloney. Yes, we can.
    Mr. Clay. All right. And thank you for conducting this 
hearing.
    Mr. DeJoy, let me start with a question. Before you 
implemented your changes, did you conduct any analysis of the 
effect your changes would have on delaying prescription drug 
shipments, the delivery of those shipments to your customers? 
Did you analyze that before you implemented these changes?
    Mr. DeJoy. Sir, we have a whole operating organization that 
I asked to put together a plan, and it wasn't a change. It was 
comply with your schedules and when we could comply with our 
schedules. I reviewed this with every regional area VP on a 
discussion that they were ready and they rolled it out.
    I'm not the COO. I'm the CEO of the organization. But I 
have received commitment that we would be able to roll forward 
with the plan on--to committing to our existing schedule.
    Mr. Clay. OK. Mr. DeJoy, let me say this: Prioritizing on-
time truck departures means letter carriers leave without all 
of their packages, including medicine on board. Critical 
medicines like refrigerated insulin is reportedly sitting in 
sorting facilities days longer than expected. Did you examine 
the effect of your changes on medicines like insulin that 
requires special storage?
    Mr. DeJoy. Sir, at no time did I say don't put the mail on 
the trucks when they left on time. This was not a hard, direct 
everything must leave on time. We still have thousands of 
trucks a day that leave late within, you know, a certain 
timeframe. And there are still hundreds of extra trips. So, the 
intention was to put the mail on the trucks and have the trucks 
leave on time. That should not have impacted anybody.
    Mr. Clay. Well, what about the impact--Mr. DeJoy, what 
about the impact of letting--of missing that insulin and having 
it sit on the floor somewhere and it may spoil or whatever? At 
least we know it will be delayed. Did you all give that any 
consideration?
    Mr. DeJoy. We're concerned about the impact of each 
individual across the country, and we're working extremely hard 
to bring the service levels back to where they were and to 
exceed that. And we will be there shortly.
    Mr. Clay. Mr. DeJoy, we would like a copy of any and all 
analysis you conducted before you implemented your changes. 
Will you provide them to this committee?
    Mr. DeJoy. I will go back to the office and see what we 
have--what the operating team has on that, and we'll seek to do 
so.
    Mr. Clay. OK. And while you're at it, Mr. DeJoy, do you 
have any information on the number of prescription drug 
shipments that the Postal Service has delivered late since you 
began implementing these changes, and will you provide that 
information to the committee by the end of the week? Can you 
get us that?
    Mr. DeJoy. I'm not aware of what we have on specific types 
of shipment. I'm sure we have some. I will take a look at it. 
But, again, I want to remind you that the changes is 
misleading, and what I ask is that the team find a way to run 
trucks on a schedule, which intended--the intention was that we 
put the mail on the trucks when we ran them on schedule.
    Chairwoman Maloney. Thank you, Mr. Clay.
    And we now recognize----
    Mr. Connolly. Madam Chairwoman?
    Chairwoman Maloney. Yes.
    Mr. Connolly. Could I just ask unanimous consent? Mr. Lynch 
asked me to enter into the record a set of data from the 
American Postal Workers Union with respect to mail volume and 
the reduction in Advanced Facer Canceller Systems, delivery bar 
code sorters, automated flat sorting machine 100's, and flat 
sequencing systems in its mail processing facilities.
    Chairwoman Maloney. Without objection.
    Mr. Connolly. I thank the chair.
    Chairwoman Maloney. Thank you.
    Mr. Norman from South Carolina is now recognized. Mr. 
Norman.
    Mr. Norman. Thank you, Chairwoman Maloney.
    Mr. DeJoy, I just want to apologize to you. You're getting 
a berating up here. Congressman Lynch going into a five-minute 
dialog would not give you time to answer your questions, would 
not--was yelling over you. It's typical of how this hearing has 
gone.
    And what's amazing to me is this bill had to be rushed out 
this past Saturday. You remember--do you know that 67 members 
did not even take the time to show up? If your workers at the 
post office don't show up, what happens? They don't get a 
paycheck and the mail doesn't get delivery.
    It's an insult what the Democrats are trying to do, a false 
narrative that has not worked for them since this President was 
elected. The Mueller report, the impeachment, none of it is 
working. Now they're going fishing for this. I apologize to 
you.
    Let's get some yes or no answers. Are you in the Postal 
Service actively removing mailboxes at the behest of President 
Trump to undermine the election, or as President Obama said, 
kneecap the Postal Service?
    Mr. DeJoy. No, sir.
    Mr. Norman. Was the U.S. Postal Service going to be 
insolvent before the election if you did not receive the $25 
billion that Democrats insisted in including in their bill?
    Mr. DeJoy. No, sir.
    Mr. Norman. Is the United States Postal Service equipped to 
handle voting by mail for the November election?
    Mr. DeJoy. Yes, sir.
    Mr. Norman. Are you unlocking blue boxes to stop the mail?
    Mr. DeJoy. Anything with blue boxes is stopped, no, so----
    Mr. Norman. Would the--Congressman Palmer showed pictures 
of the burned out mailboxes and the cities on fire: Portland, 
Chicago, Minneapolis, Sacramento, New York. Would that kind of 
slow the post office delivery down?
    Mr. DeJoy. There are certain actions and procedures that we 
have for situations for public unrest that we deploy, a variety 
of different things, up to and including getting our collection 
boxes out of there when it happens. But I don't know all of 
everything that goes with that, but, yes, it would slow down 
the mail.
    Mr. Norman. It would slow it down and the safety of the 
delivering--the person delivering the mail is pretty much an 
issue now, wouldn't it?
    Mr. DeJoy. I'm sorry?
    Mr. Norman. The welfare of the person delivering mail in 
the burned out cities would kind of be a problem, wouldn't it?
    Mr. DeJoy. Absolutely. Our letter carriers have, you know, 
hazardous jobs in many cases.
    Mr. Norman. Were you consulted on this all-important bill 
that we had to take up this past Saturday to add your 
expertise?
    Mr. DeJoy. I don't know if our--I think our legislative 
affairs people had some interaction to comment on it.
    Mr. Norman. And you made a good statement. You're not the 
chief operating officer.
    Mr. DeJoy. No.
    Mr. Norman. You're the CEO. You've been on the job 70 days.
    Mr. DeJoy. Yep.
    Mr. Norman. To be accused of everything you've been accused 
of is simply not right. It's unfair. I'm glad the American 
people are getting a front row seat to what you're having to 
endure.
    I yield back.
    Chairwoman Maloney. The gentleman yields back.
    Mr. Connolly is now recognized.
    Mr. Connolly. Well, my, my, my. You're right. You've been 
on the job 70 days and you've caused this much ruckus. And 
believe it or not, that's called accountability. That's why 
he's here today. That's why we passed the bill. If he wasn't 
consulted, it's because he was the inspiration of the bill; a 
dubious distinction nonetheless.
    Mr. DeJoy, when did you take office? You were announced, I 
think, in May, but when did you actually take over the job as 
Postmaster General? What day?
    Mr. DeJoy. June 15.
    Mr. Connolly. June 15. And you've seen this data. On or 
around that time is when we see a roughly eight percent decline 
in service in the Postal Service, which most people would say 
correlates to the reorganization and operational efficiencies 
you undertook. Do you think that's a fair characterization?
    Mr. DeJoy. I think there's a lot of different issues going 
on within the country that impact mail delay, including the 
actions that we took with regard to transportation. I don't 
think--I think the organizational change was made because of 
the poor--was accelerated because of the poor rollout.
    Mr. Connolly. Yes, I understand.
    Mr. DeJoy. I think that will strengthen the recovery.
    Mr. Connolly. But, of course, we all live in a context, 
don't we, Mr. DeJoy?
    Mr. DeJoy. That is true.
    Mr. Connolly. You're in the context of the worst pandemic 
in 100 years, 176,000 Americans dead, 40,000 postal employees 
who have gotten the virus or quarantined because of it, and, 
sadly, a few dozen dead. And we're on the eve of a massive 
shift to voting by mail. Seventy-six percent of all Americans 
live in a state that can vote by mail, 70 percent of Americans 
want to vote by mail, 50 to 60 percent intend to vote by mail, 
and along comes this.
    Mr. DeJoy. Yes.
    Mr. Connolly. Now, let's stipulate that your motives were 
pure, that you came at this like a normal private sector CEO, 
you see some problems, you want to create some efficiencies and 
save some money and make us work better. Wouldn't you think, 
though, that you might take into consideration the context?
    And if you didn't, as a good CEO, when you saw unintended 
consequences, which your testimony would have us believe these 
were unintended, you'd take measures quickly to ameliorate the 
unintended consequences, namely scaring the public half to 
death about the reliability of the Postal Service, lots of 
anecdotal if not empirical data that, in fact, it materially 
affected the delivery of mail.
    As the new Postmaster General, you don't want to be seen as 
the guy who actually damaged the 244 reputation of the Postal 
Service and skewed voters into believing that their ballots 
won't get in on time because of your service, do you?
    Mr. DeJoy. So, I understand the context. I think when we 
look in terms of the context, it was the summertime, mail 
volume was down, you know, significantly. So, it was not at--
we're getting him ready for the peak season and an election is 
three months away. It was a good time to start to try and roll 
this out. Again, the request was just run your trucks on time, 
put in a plan to run your trucks on time, OK.
    Mr. Connolly. OK.
    Mr. DeJoy. We--I mean, the impact--let me just say, the 
impact is probably about 10--for that, because if the mail gets 
processed and the truck leaves, that mail will move on the next 
truck or the next day, right.
    Mr. Connolly. OK. I----
    Mr. DeJoy. So, these long stories of nine days and so forth 
were not impacting that.
    Mr. Connolly. Forgive me.
    Mr. DeJoy. Those service levels, if we add one day, we 
would be back----
    Mr. Connolly. Forgive me for interrupting you, but I have 
limited time. That's why I have to interrupt you.
    You made a statement before the Senate the other day to 
Senator Gary Peters, you've had no contact with the Trump 
campaign during your tenure. Is that correct?
    Mr. DeJoy. I've had no contact with the Trump campaign. I 
have not--I mean, I've spoken to the President. I've spoken to 
Steve Mnuchin. I've spoken to other people, but I have not--
I've had no contact about the--I have not spoken to anybody 
about the Postal Service.
    Mr. Connolly. Did you not tell the Board of Governors this 
month, in August, that, in fact, you had had contact with the 
Trump campaign to ask them to stop their attacks on the Postal 
Service and voting by mail?
    Mr. DeJoy. I have put word around to different people to 
please--that this is not helpful to----
    Mr. Connolly. So, you did have contact with the Trump 
campaign for a good purpose?
    Mr. DeJoy. I'm trying to think of where--the Trump--when 
you say the Trump campaign, I've not spoken to Trump campaign 
leadership in that regard. I've spoken to people that I'm--that 
are friends of mine that are associated with the campaign, yes.
    Mr. Connolly. One of whom was Steve Mnuchin?
    Mr. DeJoy. Steve Mnuchin is Secretary of Treasury.
    Mr. Connolly. I know.
    Mr. DeJoy. I never spoke to Steve about telling the 
President to not do something.
    Chairwoman Maloney. The gentleman's time is expired.
    Mr. Connolly. I thank--thank you, Mr. DeJoy.
    Chairwoman Maloney. The gentleman's time is expired, but 
you may answer his question.
    Mr. DeJoy. What was the question?
    Mr. Connolly. I'm sorry. The question was, what 
conversations did you have with the Secretary of Treasury, Mr. 
Mnuchin, about the Postal Service, your hiring, and the 
consequences that seem to have unfolded with these operational 
efficiencies?
    Mr. DeJoy. The conversation I had with the Secretary were, 
when I came here, we had this note that was kind of stuck in 
the mud, and I worked with him to get the note done. It was 
really, you know, we're going to--it was I'm going to try and 
control costs and grow revenue, and it was very high-level 
thing and let's try and get the deal done so we have the loan. 
That was really it.
    Chairwoman Maloney. Thank you. Mr. Jordan is now 
recognized.
    Mr. Jordan. Thank you, Madam Chair.
    Mr. DeJoy, was it the Postal Service's fault that it took 
six weeks after the June 23 Chairwoman Maloney's primary 
election for her to be declared the winner? Was that your guys' 
fault?
    Mr. DeJoy. I'm not fulfilled with the details, but I know 
it took a long time.
    Mr. Jordan. But I'm asking, that wasn't your fault, was it? 
It was the Board of Elections.
    Mr. DeJoy. No.
    Mr. Jordan. Was it the Postal Service's fault that New 
Jersey was still counting ballots four weeks after the primary 
election last month?
    Mr. DeJoy. No, sir.
    Mr. Jordan. How about the Democrats' Iowa caucuses. Was 
that the Post Office's fault that we didn't know who won the--I 
don't know if we still figured out who won the Democratic Iowa 
caucus. Was that the Post Office's fault?
    Mr. DeJoy. No, sir.
    Mr. Jordan. So, just a couple facts. I want to make--just 
be clear. You got $14 billion cash on hand. You've got a $10 
billion line of credit. Is that right?
    Mr. DeJoy. Yes, sir.
    Mr. Jordan. And changing out the sorting machines and 
removing and changing out mail collection boxes is nothing 
different than has happened before, right? Every Postmaster 
General, every year we do those sort of things. Is that right?
    Mr. DeJoy. Yes, sir.
    Mr. Jordan. Yes. So, there's no difference. In fact--what 
was the number--I think between 2011 and 2016, it was like 
12,000 mail collection boxes that were removed, changed out by 
the Obama-Biden administration. Is that right?
    Mr. DeJoy. It was a lot. I don't remember the exact number.
    Mr. Jordan. Yes, it was a lot. And you didn't order 
reduction in overtime or reduction in hours? I think you 
testified to that earlier.
    Mr. DeJoy. I did not.
    Mr. Jordan. So, why are these guys out to get you? What is 
it?
    Mr. DeJoy. I don't--they have their own concerns. I assume 
they're legitimate with them and----
    Mr. Jordan. Well, you assume they're legitimate. Why are 
they out to get you? I mean, Mr. DeJoy, they've had people 
protesting at your house last night. They've been doing it for 
weeks. Ninety some of these people have already called for you 
to resign.
    They passed the bill before they even talked to you, before 
they even had a hearing. They're not interested in any 
bipartisan solution, as evidenced by the fact the chairwoman 
wouldn't even contact the White House chief of staff who had a 
bill that he worked on with the previous chairman, the late 
Chairman Cummings, a bipartisan bill to address concerns at the 
Post Office.
    So, I'm asking you, why are they after you? You were--first 
of all, you were appointed by the Board of Governors, right?
    Mr. DeJoy. I was appointed by--unanimous appointment by a 
bipartisan Board of Governors.
    Mr. Jordan. Unanimous vote. Bipartisan. Not all 
Republicans. Democrats thought you were the right guy for the 
job, right?
    Mr. DeJoy. Yes, sir.
    Mr. Jordan. So, why are they out to get you?
    Mr. DeJoy. I have no idea. I do have a lot of support out 
there amongst the employees and people in America, though. I 
receive it every day.
    Mr. Jordan. You've got an amazing record in business. 
You've got an amazing history of community service. You help 
kids with their education. You served your community, served 
our country, and these people are out to get you. When all the 
facts--none of the facts--as The Wall Street Journal said this 
is one giant conspiracy from the Democrats.
    I just want to know, what could be their reason? What could 
it be, Mr. DeJoy? We know it's not based on the facts. What 
could it be? Might it be politics? Might it be? Might it be the 
election coming up? Might it be the fact that they actually 
want to wait and count votes after election day?
    Maybe they want six weeks after the election--maybe they 
want to be counting votes six weeks after the election, the 
Presidential election, the biggest election we're going to 
have. Maybe they want to be counting votes six weeks after like 
they did in the chairwoman's race or four weeks after like they 
did in New Jersey. Or maybe they want to wait forever like they 
did in the Democrat Iowa caucuses. Might that be the reason? 
The chaos and confusion that we saw with all three of those 
elections, maybe that's what they want. Could that be the 
reason, Mr. DeJoy?
    Mr. DeJoy. I don't know what motivates people to have 
different opinions of me.
    Mr. Jordan. Well, they've called you all kinds of names 
today already. Protesting outside your house. They were there 
last night, weren't they?
    Mr. DeJoy. Yes, sir.
    Mr. Jordan. Banging pots and pans outside your house, 
disrupting your neighbors, disrupting you, when the facts, the 
facts, as you've testified, are not anything close to what 
they've been saying for the last three weeks, what they said 
Saturday on the House floor.
    We know what this is about. We all know what this is about. 
This is about these guys wanting chaos and confusion because 
they--I think they know this. I think they know on election 
night President Trump's going to win. They know on election 
day, the vote count on election day, President Trump's going to 
win, and they want to keep counting.
    Six weeks, four weeks, Iowa caucus, whenever, I don't know 
when they decided that one. I still don't know if they've 
declared a winner. I don't know if it was Bernie or Biden or 
whoever was running then. That's what they want.
    And they're willing to go after a guy like you, who has 
served our country, served his community, helps kids with their 
education, amazing record. They're willing to go after you. 
You've been on the job 70 days, and everything you've testified 
is nothing new that's been done. The same thing has been done 
by other Postmaster Generals, and yet they're coming after you 
because that's how much they want to get this President.
    It's disgusting, and we all know what's going on. The fact 
that you won't--you know it too. You won't say it. I think that 
shows your character as well. But I'll say it because it's the 
truth, and the American people understand it and see right 
through it.
    I yield back.
    Chairwoman Maloney. The gentleman yields back.
    Congressman Krishnamoorthi, you are now recognized.
    Mr. Krishnamoorthi. Good morning, Mr. DeJoy.
    Mr. DeJoy. Good morning.
    Mr. Krishnamoorthi. Before becoming Postmaster General, I 
believe you appropriately resigned from being the finance chair 
for the Republican National Convention, correct?
    Mr. DeJoy. I did, sir.
    Mr. Krishnamoorthi. I say you appropriately resigned 
because, even in your written testimony you said, we should 
keep the nonpartisan tradition of the USPS. And in this case, 
occupying a high-level political post at the same time you'd be 
occupying a high-level USPS post would create at the least 
appearance problems, if not more, right?
    Mr. DeJoy. Yes, sir. I also think I couldn't hold both 
positions.
    Mr. Krishnamoorthi. Yes, sir.
    Mr. Duncan, are you on the line, sir? Mr. Duncan?
    Mr. Duncan. Yes, Congressman.
    Mr. Krishnamoorthi. Yes, sir. As chairman of the board, you 
are one of the highest ranking officials at the USPS, correct?
    Mr. Duncan. As chairman of the board, I am a member of a 
part-time board that is Senate confirmed, and----
    Mr. Krishnamoorthi. But you're the chair of the board. 
You're the highest ranking official at the USPS. I'd like to 
point out that you are also on the board of two Republican 
super PACs, namely the Senate Leadership Fund and American 
Crossroads, correct?
    Mr. Duncan. Yes, sir.
    Mr. Krishnamoorthi. I just went to the USPS website, sir, 
and I looked at your bio. And I'd be remiss if I didn't point 
out on your official government bio at the USPS website, you 
said, ``As RNC chairman, he,'' namely you, ``raised an 
unprecedented $428 million and grew the donor base to 1.8 
million,'' a record at the time. This is on your official 
government USPS bio.
    Mr. Duncan, I have a couple other questions for you. In 
your written testimony, you mentioned that an outside research 
firm called Russell Reynolds Associates was contracted to find 
the, quote/unquote, "best person for the job," best person for 
the job of Postmaster General, correct?
    Mr. Duncan. Correct.
    Mr. Krishnamoorthi. You further noted in your testimony 
that Russell Reynolds reviewed 212 candidates, and then they 
narrowed the search to 53 after they reviewed those people's 
bios and backgrounds and they vetted them, correct?
    Mr. Duncan. Yes, sir.
    Mr. Krishnamoorthi. Interestingly, according to David 
Williams, the former vice chairman of the board, the former 
inspector general for 13 years at the USPS, as well as a 
published report over the week, Mr. DeJoy was not among the 53 
presented to the Board.
    Either, one, Russell Reynolds considered Mr. DeJoy and 
decided there were 53 better candidates than him, or Mr. DeJoy 
was not considered by Russell Reynolds at all before presenting 
the 53 finalists. Which was it, Mr. Duncan?
    Mr. Duncan. We were still in the process of developing the 
pool before we had our first-round interviews at that point.
    Mr. Krishnamoorthi. I understand. You're talking about the 
first-round interviews, the round of 14. But you don't dispute, 
obviously, in your answer that Mr. DeJoy did not make the 
initial cut of 53 finalists presented to the Board, but he was 
inserted into the round of 14, not by merit but his 
connections. It would be the same as an NCAA team not making 
the round of 64 but then swooping into the round of the Sweet 
16. That's what happened here.
    So, let me ask you this question: Mr. Williams repeatedly 
asked the Board to do a background check on Mr. DeJoy by the 
Postal Inspection Service. Do you know what the Postal 
Inspection Service is, sir?
    Mr. Duncan. Yes, sir.
    Mr. Krishnamoorthi. And you and the Board refused to do 
that background check. And that was not shared with the Board 
before they voted.
    Now let me turn to my final set of questions here. Mr. 
Duncan, you were once quoted in a Republican fundraising letter 
saying, quote: "The Obama-Biden Democrats and their liberal 
special interest allies are trying to steal the election 
victories from Republicans."
    I assume you still believe that about Joe Biden and the 
Democrats, sir?
    Mr. Duncan. I have no knowledge of that fundraising letter.
    Mr. Krishnamoorthi. Yes, it's in the CNN article that 
quotes you directly right here. Then we have another article 
from the Las Vegas Sun. It says--again, you wrote in a letter: 
"Democrats will soon be trying to pad their totals at ballot 
boxes across the country with votes from voters that do not 
exist."
    Do you still believe that to be the case, Mr. Duncan?
    Mr. Duncan. What are the dates of these letters?
    Mr. Krishnamoorthi. This article is from the Las Vegas Sun 
from 2008. Do you still believe this, this sentiment?
    Mr. Duncan. No. I don't believe anyone at this point who is 
a nominee of the major parties is trying to steal an election.
    Mr. Krishnamoorthi. Thank you. That would be in 
contradiction of what the President said in a tweet on August 
20: "They are trying to steal this election, the Democrats."
    Chairwoman Maloney. The gentleman's time has expired, but 
the gentleman may answer.
    Mr. Duncan. Let me respond. There are lots of false 
premises in this about making the cut. The process was that we 
had lots of people who put input, including Members of 
Congress, members of the administration, all of our Board 
members. I think I put in a half a dozen different names.
    We ran into a period of time after the holidays and when 
the COVID started that we weren't moving as fast as possible. 
We got together. We talked about, well, we need to make sure 
that we have as many candidates as possible because you get a 
better pool, you get a better choice at the end of that time.
    It was during that period of time that Mr. DeJoy's interest 
became--or availability became known to me. I submitted that 
name, as I had many others.
    Chairwoman Maloney. The gentleman's time has expired.
    Mr. Massie, Congressman Massie, you are now recognized. 
Congressman Massie. Congressman Massie, you are now recognized, 
or we could then go to Mr. Higgins.
    We have some difficulty. We're going to go to Mr. Roy, and 
come back to Mr. Massie.
    Mr. Roy.
    Mr. Roy. Thank you, Madam Chairwoman. Can you hear me?
    Chairwoman Maloney. We can hear you, but we're not seeing 
you. Now we see you.
    Mr. Roy. OK, excellent. I appreciate it. Thanks for the 
indulgence.
    Mr. DeJoy, can you answer a couple questions for me. Were 
you nominated by the President of the United States, or were 
you selected by a unanimous bipartisan board?
    Mr. DeJoy. I was selected by a unanimous bipartisan board.
    Mr. Roy. Thank you. A minute ago, my colleague Mr. Connolly 
lamented you have done, quote, "70 days of damage." Yet Mr. 
Connolly, if I'm not mistaken, has been on this committee for 
11 years, chair or ranker of the Government Operations 
Committee for seven years. And given that the Oversight 
Committee held a hearing in April 2019 about the financial 
condition of the USPS, why do you think, Mr. DeJoy, that we're 
having a hearing today, 71 days before an election and 48 hours 
after we voted on legislation before we had the hearing? Why do 
you think we're having a hearing today?
    Mr. DeJoy. I do not know, sir, but I will say that I am 
surprised at the lack of attention to the financial condition 
of the Postal Service over the last 10 years.
    Mr. Roy. So, you are saying to me that the financial 
condition of the Postal Service is nothing new, that this is 
something that we have known has been coming for a long time 
and that the Postal Service has lost money for what, at least 
13 consecutive years?
    Mr. DeJoy. I think 10 years.
    Mr. Roy. OK. Mr. DeJoy, does the United States Postal 
Service deliver 8 billion pieces of mail a month, give or take?
    Mr. DeJoy. Yes, sir.
    Mr. Roy. And does it have about $14 billion cash on hand to 
manage the affairs of the Postal Service for right now? Is that 
right?
    Mr. DeJoy. Yes, sir.
    Mr. Roy. If every single American voted by mail, which 
won't happen, by the way, we all know that, it would be less 
than about two percent of the total mail delivered in a given 
month, right? In other words, is the USPS perfectly capable of 
handling any amount of mail that would be attached to our 
election in November?
    Mr. DeJoy. We are very ready to handle the election mail, 
sir.
    Mr. Roy. Mr. DeJoy, do you believe that this hearing to 
date so far this morning or at any point today will cover any 
of the following: the PPP extension to ensure small businesses 
can survive while governments are keeping businesses shut down, 
the thousands of restaurants, the thousands of live music 
venues, the thousands of hotels, the thousands of barber shops 
across the country that are struggling to survive, is anything 
in this hearing going to discuss any of that, to the best of 
your knowledge?
    Mr. DeJoy. No, sir.
    Mr. Roy. Are you aware of this Democratic Congress pulling 
up any legislation to deal with these issues this month rather 
than going home but yet calling Congress back on Saturday to 
have a hearing--I'm sorry, have a vote before we even have a 
hearing on Saturday? Are you aware of that, or is this the only 
thing that we've been voting on in August?
    Mr. DeJoy. I haven't been following the agenda of Congress 
that much. I've had my own issues to deal with. I know this 
is----
    Mr. Roy. Well, I appreciate that. There hasn't been that 
much to follow. So, I appreciate that.
    Are we discussing, for example, human trafficking? Will 
that be discussed today? I've been asking for a hearing on the 
scourge of human trafficking, what we can do to stop that. I've 
been asking for hearing on that for over a year. We're not 
having that hearing today, are we? We're having a hearing on 
this topic. Is that right?
    Mr. DeJoy. I think we will be sticking to Postal Service 
matters.
    Mr. Roy. That's right. Look, Mr. DeJoy, I appreciate you 
being here in front of the committee. I think the fact of the 
matter is pretty clear. This is a political exercise. This is a 
show here. I've already been seeing out there on social media 
some of the difficulties, the technology and everything else. 
The fact of the matter is we're jamming through this for 
theater. We're doing a hearing on the Monday after a vote on 
Saturday that has no prayer of becoming law.
    This is exactly what the American people are sick of. They 
want the Postal Service to operate, and you're trying to work 
on trying to make it operate. We should have hearings about the 
health and the financial status of the Postal Service. We 
should work on legislation to improve it. There are bipartisan 
efforts to do that. We should actually roll our sleeves up and 
do that work.
    But, by the way, I'd say the same thing about the PPP. I 
was proud to work with Dean Phillips in June to pass bipartisan 
legislation to help small businesses. Why aren't we doing that 
right now? Why aren't we doing that today? That is our job. And 
there are people out there who are struggling, that can't make 
the check. They can't pay their mortgage. They're wondering 
where they're going to have the revenue in order to survive for 
a business they built up or to be able to employ the people 
that have worked for them for years.
    That's what we should be working on, Madam Chairwoman. And 
I would just posit that this is a waste of time for the U.S. 
Congress. The American people are sick of it. And we should be 
allowing the Postal Service to go back to doing its job here 
and we should be focusing on doing ours.
    With that, I'll yield back.
    Chairwoman Maloney. I thank the gentleman for yielding and 
his comments.
    And just as a point of information, the Democratic Congress 
did pass the HEROES Act on May 15 that did fund all kinds of 
help to people, and that is sitting on Mitch McConnell's desk 
as well as this bill. So, he has a choice, he can move a 
standalone or he can move the HEROES Act.
    I now recognize Congressman Raskin. Mr. Raskin, you are 
recognized.
    Mr. Raskin. Thank you, Madam Chair.
    I've got diabetic constituents who are waiting for insulin. 
I've got constituents with cancer waiting for chemo drugs to 
come in. But this headline really took the cake for me: ``Rats 
reported feeding on packages of rotted fruit and meat as 
Postmaster General's cutbacks unleash chaos at California's 
mail centers.'' This is from not some haven of liberal fake 
news, Business Insider Magazine.
    Mr. Postmaster General, why do you celebrate on-time 
departure of Postal vehicles if the deterioration in service 
that you regret has caused letters and packages left stacking 
up in the mail centers? Should we be celebrating vehicles going 
out on time if they don't have people's packages and letters on 
them and their prescription drugs?
    Mr. DeJoy. Sir, we're concerned with every late delivery 
and every package buildup, and there are a lot of contributing 
factors to why, you know, and where. But----
    Mr. Raskin. OK. And we----
    Mr. DeJoy. Let me finish. The process is an integral part 
of delivering the mail cost-effectively, OK?
    Mr. Raskin. The President has called the post office----
    Mr. DeJoy. And why would we--the alternative is to run 
trucks late and run extra trips. Extra trips were empty also, 
thousands of them empty. You know why----
    Mr. Raskin. Forgive me, because I've got limited time. I 
can't allow you to filibuster here.
    President Trump called the post office a joke. Is it a 
joke?
    Mr. DeJoy. The Postal Service is not a joke.
    Mr. Raskin. Mr. DeJoy, if I wanted to become a letter 
carrier or a mail handler, a postal clerk, would you hire me 
without a background check?
    Mr. DeJoy. We have a process that I do believe includes 
background checks. So, no.
    Mr. Raskin. It's compelled, right? Everybody's got to take 
a background check, except they didn't have one for you.
    Mr. DeJoy. That's not true. I had background checks.
    Mr. Raskin. You did have a background check?
    Mr. DeJoy. Yes. I had background checks. I got secret 
clearance. I had FBI background checks. I've had everything.
    Mr. Raskin. OK. So, you would be willing to release the 
background check?
    Mr. DeJoy. No. Why would I release a background check?
    Mr. Raskin. Well, that's interesting.
    Let me go to Mr. Duncan about that.
    Mr. Duncan, would you be willing to allow Russell Reynolds 
to turn over the file from this process? Mr. Duncan?
    Let me come back to you, Mr. DeJoy.
    The former chairman of the Postal--vice chairman of the 
Postal Board of Governors, Mr. Williams, who was also the 
inspector general, also reported that you didn't come through 
the normal Russell Reynolds interview process, but you were 
apparently the product of different nominations by different 
political people.
    And the astonishing thing about what he said last week was 
that, when you finally were brought in for that first 
interview, you basically interviewed the selection panel rather 
than them interviewing you, to the point that one of the 
members joked that they had better ask you at least one 
question so that it couldn't be said that it wasn't a real 
interview.
    Now, you were also reported stating that you weren't sure 
that you wanted to accept the job, and you needed to 
essentially interview them about what it entailed.
    What gave you the confidence that the job was basically 
yours for the asking when you finally met the selection 
committee?
    Mr. DeJoy. Sir, I did not think the job was mine for the 
asking. I don't know what Mr. Williams' contention is or what 
his problem is with me.
    Mr. Raskin. He was the inspector general for 13 years at 
the Postal Service and the vice chair.
    Mr. Duncan. OK. So, he's part--he's also probably part of 
the reports that have been stacking up that this committee 
hasn't done anything about.
    Mr. Raskin. What do you make of the former chairman of the 
Postal Board of Governors, Mr. Fineman, calling Treasury 
Secretary Mnuchin's involvement in the selection process 
absolutely unprecedented?
    Mr. DeJoy. Steven Mnuchin had nothing to do with my 
selection, OK. I was called by Russell Reynolds----
    Mr. Raskin. Did you talk to Secretary Mnuchin about taking 
the job? There was a report that you had lunch together to 
discuss this.
    Mr. DeJoy. That's totally inaccurate and outrageous.
    Mr. Raskin. You have never talked to him about--before 
taking the job, you never talked to him about taking the job?
    Mr. DeJoy. I talked to him about the job after I received 
the offer. I did not accept the offer immediately.
    Mr. Raskin. OK. But you never spoke to him before about his 
soliciting your interest in the job or----
    Mr. DeJoy. He did not solicit any interest. I kept my 
interest, which, as you identified, I did not know that I had 
an interest. I had a perfectly good life prior to this. But I 
was interested in helping, and I was called by Russell Reynolds 
out of the blue.
    Mr. Raskin. One of the reasons that we have background 
checks--and I'll be very interested, with your permission and 
Mr. Duncan's permission, to see your background check--is that 
we identify patterns of misconduct or potential conflicts of 
interest that are out there.
    Now, you had----
    Mr. DeJoy. Sir, I have no patterns of misconduct in my 
background.
    Mr. Raskin. Let me finish my question, if I could.
    Mr. Comer. Madam Chair, he's gone over his time.
    Mr. Raskin. One of your businesses was called New Breed 
Logistics, later XPO Logistics, which has contracts with the 
Postal Service stretching back many years.
    Chairwoman Maloney. The gentleman's time has expired. You 
may answer the question.
    Mr. Raskin. OK. Well, the question is: They identified 
problems with contract performance and billing practices in the 
contract file. Would you consent to releasing that contract 
file so everyone can see what your----
    Mr. DeJoy. I don't even know what you're speaking about.
    Mr. Raskin. Are you not aware of XPO Logistics, which----
    Mr. DeJoy. I am aware of XPO Logistics.
    Mr. Raskin. OK. So, do you have $30 million invested?
    Mr. Comer. Time, Madam Chair. He's gone way over his time.
    Mr. Raskin. Do you have $30 million invested?
    Mr. Comer. He doesn't even have to answer that.
    Mr. DeJoy. I have a significant investment in XPO 
Logistics, which I vetted before with the ethics department of 
the Postal Service, and I was given specific types of 
guidelines that I needed to adhere to. It's a very, very small 
part of the Postal Service business I have nothing to do with.
    And I--my--I complied with all ethical requirements, and we 
have an OIG investigation. I guess they'll get to everything 
that you're interested in, and we will see what will happen.
    Mr. Comer. Mr. Raskin's time has expired.
    Chairwoman Maloney. The gentleman's time has expired.
    The gentleman has been testifying for two hours. I call for 
a five-minute break. We will resume in five minutes. A five-
minute break.
    [Recess.]
    Chairwoman Maloney. The recess is over. We are now back to 
work.
    And, next, Representative Massie, you are now recognized.
    Mr. Massie. OK, Madam Chairwoman, can you hear me?
    Chairwoman Maloney. Yes, we can. We can't see you, but we 
can hear you.
    Mr. Massie. Uh-oh. You can't see me.
    Chairwoman Maloney. OK. Turn on your--there you are. There 
you are. We see you and we can hear you. OK. Mr. Massie is now 
recognized.
    Mr. Massie. OK. Madam Chairwoman, I ask unanimous consent 
to submit into the record two press releases from the U.S. Post 
Office. The first one is from April 28, 2011. The second one is 
from February 23, 2012.
    Chairwoman Maloney. Without objection.
    Mr. Massie. All right. I want to read some excerpts from 
these press releases and then ask Chairman Duncan to respond to 
the press releases because these are from Kentucky.
    In 2011, the post office announced, and I'll read this: As 
a result of a study begun in September 2010, the Postal Service 
has made the decision to move mail processing operations from 
the Ashland Processing and Distribution Facility to the 
Charleston, West Virginia, Processing and Distribution 
Facility.
    What this means is, here in eastern Kentucky, when we mail 
our next-door neighbor, the envelope goes to Charleston, West 
Virginia, before it comes back to our next-door neighbor.
    I want to read from this other press release from the U.S. 
Post Office, the Kentuckiana District. It says, and this is 
February 23, 2012: As a result of studies began five months 
ago, the Postal Service has made the decision to move all mail 
processing operations from--the Bowling Green, Kentucky, moved 
to Nashville. Compton, Kentucky; Elizabethtown, Kentucky; 
Hazard, Kentucky; Lexington, Kentucky. Our second largest city 
lost their mail processing facility in 2012. Paducah, Kentucky, 
moved to Evansville, Indiana; and Somerset, Kentucky, 
Knoxville, Tennessee.
    So, this was in 2012. This was an election year, and this 
was while Obama was President and Biden was Vice President. I 
want to read a quote from Chief Operating Officer Megan Brennan 
at the time: "The decision to consolidate mail processing 
facilities recognizes the urgent need to reduce the size of the 
national mail processing network to eliminate costly, 
underutilized infrastructure. Consolidating operations is 
necessary if the Postal Service is to remain viable to provide 
mail service to the Nation."
    Now, the Democrats have cooked up this conspiracy theory 
that the post office is now somehow going to be at fault for 
disenfranchising voters or suppressing votes because--and the 
media is complicit in this. They've shown video of mail sorting 
equipment being moved out of facilities. Well, here I've just 
mentioned 10 facilities in Kentucky that were shut down in an 
election year.
    So, I want to ask Chairman Mike Duncan: Mr. Duncan, do you 
believe this in 2012 was part of some conspiracy to 
disenfranchise voters in the 2012 election or part of some 
conspiracy to keep people from getting their medication or 
Social Security checks?
    Mr. Duncan. Congressman, I have no knowledge of the 
conspiracy to keep people from voting or getting their Social 
Security checks. But, as a resident of that area, I know that 
it's added to the number of days it takes to send or receive a 
letter.
    Mr. Massie. Right. And I believe you know Chief Operating 
Officer Megan Brennan. She was the COO in 2010 and then became 
Postmaster General. Do you question her motives in the course 
of these operations?
    Mr. Duncan. No. I worked very closely with Megan Brennan 
when she was chief of this organization, and she has great 
integrity. She knows the system. She's been an operations 
person. She was a letter carrier. She worked her way up. She 
bleeds post office blue.
    Mr. Massie. And she has a business degree from MIT, I would 
add.
    So, this wasn't a part of any kind of conspiracy then. It 
was a part of realigning the infrastructure of the post office 
to the changing needs of the U.S. customer.
    And I just want to close by highlighting some irony and 
hypocrisy. Postmaster General DeJoy, how long will the post 
office be funded if there's no more transfers of cash to the 
post office? How long can you operate?
    Mr. DeJoy. Until late 2021.
    Chairwoman Maloney. Sir, would you turn on your mic, 
please?
    Mr. DeJoy. Late 2021.
    Mr. Massie. OK, late 2021. So, at least for one more year. 
I hope that members of this committee are aware that the U.S. 
Government ceases to be funded on September 30 of this year. 
So, we're holding a hearing about a post office that's funded 
for fully another year. Meanwhile, we're not even in town 
because Speaker Pelosi isn't concerned that government funding 
ends on September 30. Everything but the post office shuts down 
on September 30 at midnight if we don't do something.
    Also, one other element of irony and hypocrisy: Our 
Democratic Governor shut down 95 percent of the voting 
precincts in the state, and now Democrats are somehow trying to 
blame the post office for disenfranchising voters.
    And, with that, I will yield back.
    Chairwoman Maloney. The gentleman yields back.
    We now recognize Congressman Rouda.
    Mr. Rouda. Thank you, Madam Chairwoman.
    Let's level-set. For the thick-headed individuals that 
don't understand why we are here today, let me sum it up for 
you: First and foremost, mail is being delivered late, at the 
expense of those who need prescriptions, at the expense of 
small businesses who need supplies to stay in business or 
reopen for business, for Social Security recipients and 
veterans who need their benefits. That's the first reason.
    The second reason, we got a President of the United States 
who says that mail-in ballots are fraudulent and, if he doesn't 
win the election, it's because it was fraudulent. We know 
that's not true. We know that's a lie, and that lie continues 
to be continued by members in this committee on the other side 
of the aisle.
    Third, we know from a memo from Mr. DeJoy to 46 states 
telling them they should be worried about receiving mail-in 
ballots to their voters on time and for them to be returned 
back in time to be counted.
    And, fourth, we're here because the United States Postal 
Service has requested financial help from this institution.
    Let me turn to my questions. Unlike any private enterprise, 
the Postal Service has a universe service obligation to deliver 
mail to virtually every address in the United States, 
regardless if it's profitable or not. The Postal Service also 
has a ridiculous mandate to prefund in 10 years' time 75 years 
of retiree health benefits, unlike any other private or public 
institution.
    Mr. DeJoy, in your testimony, you stated that you are 
against the prefunding mandate. The Trump-appointed Board of 
Governors, Postal workers, and Senators on both sides of the 
aisle are against that mandate. As you know, there is a 
bipartisan bill sitting on Mitch McConnell's desk that would 
eliminate the prefunding mandate and free up tens of billions 
of dollars for the U.S. Postal Service.
    Here's some free business advice: Pick up the phone, please 
call Mitch McConnell because one vote and one stroke of a pen 
by this President would free up billions of dollars for the 
U.S. Postal Service to be able to accomplish the opportunity to 
revitalize that organization for decades to come.
    I have some questions about your business plan. It's 
standard practice as an executive to come in, meet with your 
team, and develop a strategic plan before executing operational 
changes. This was the plan that was released in May just before 
you became Postmaster General. Did you make any written 
modifications to this plan since you have taken office?
    Mr. DeJoy. No. First of all, sir, you are incorrect in my 
position on the prefunding of the healthcare. In my written 
statement----
    Mr. Rouda. I know, you support it.
    Mr. DeJoy. I support it.
    Mr. Rouda. Yes, I said that. Yes, you do support it. I 
recognize that.
    But back to my question, have you made any modifications to 
this business plan?
    Mr. DeJoy. I'm working on making modifications to that 
business plan?
    Mr. Rouda. Yes. In fact, on August 13, developing a 
strategic plan to achieve operational excellence and financial 
stability. Is that plan that you're working on, would it usurp 
this plan?
    Mr. DeJoy. If approved by the Board of Governors, it would. 
And I must add, we do need to identify that. The legislation 
also requires the Postal Service to be self-sustaining, and it 
has not been self-sustaining for the last----
    Mr. Rouda. And that's why getting rid of the premandate is 
so important. But I just want to make sure that we are working 
under a written plan of some kind. If you have made any written 
modifications in memos to team members, will you provide this 
committee with that information so we know how you have 
modified this five-year plan?
    Mr. DeJoy. When we come out with a plan, we----
    Mr. Rouda. Well, surely you've got memoranda and other 
documents floating around, right? You can give us a draft, 
can't you?
    Mr. DeJoy. I would not----
    Mr. Rouda. You can't give us a draft? We just got the 
report with the KPI, showing that you're down 10 percent 
nationally, when we know that in battleground areas it's down 
even more. So, you were able to get that to us late. Can you 
get us that information, as requested?
    Mr. DeJoy. Probably not.
    Mr. Rouda. Let me ask you this: Let's turn to the impact 
you have had with the internal communications that show senior 
managers not to even plug in the previously disconnected 
machines without approval from headquarters. Mail processing 
equipment and blue collection boxes will remain where they are.
    Will you tell your workers and the American public right 
now that USPS employees can plug in disconnected machines?
    Mr. DeJoy. I'm unaware of the directive that you're 
speaking about.
    Mr. Rouda. Well, it's an internal communication from----
    Mr. DeJoy. I got six----
    Mr. Rouda [continuing]. USPS. So, you will then allow them 
to plug in machines to be able to do their jobs?
    Mr. DeJoy. I'm not going to agree to something I'm unaware 
of or the memo that you're speaking about.
    Mr. Rouda. But you know how absolutely insane this is. This 
is like telling Jamba Juice they can't plug in the blenders to 
do their job.
    Mr. DeJoy. Well, there must be a reason. I didn't do it, 
but the organization is--has----
    Mr. Rouda. But you're the head of the unit. You're the head 
of the business. The buck stops with you.
    Mr. DeJoy. The buck on what machine gets plugged in? That's 
an outrageous statement.
    Mr. Rouda. The fact that you're down over 10 percent 
nationally in service----
    Mr. DeJoy. It has nothing to do with a plugged-in machine 
anywhere.
    Chairwoman Maloney. The gentleman's time has expired.
    Mr. Rouda. I yield back. Thank you, Madam Chair.
    Chairwoman Maloney. The gentleman can answer the question.
    We now recognize Congressman Ro Khanna. Oh, excuse me, 
Hice, Congressman Hice.
    Mr. Hice. Thank you, Madam Chair.
    I will just bring up, Madam Chair, if I may, the fact that 
you allowed Mr. Raskin to go significantly over his time while 
at the same time cutting off Mr. Roy is not going unnoticed. 
And I think Mr. Roy's point regarding the HEROES Act, that it 
was $3.4 trillion of swamp spending and did not even extend the 
PPP, which was what it was supposed to do.
    But what the HEROES Act did include was universal mail-in 
ballots, no voter ID for all those ballots, ballot harvesting. 
It's funny to me that the HEROES Act, which was supposed to be 
about COVID help and relief, did not extend PPP, but it did 
have a whole lot of voting reform in it that actually brings us 
into the conversation here today.
    Mr. DeJoy, let me just--I think you would agree with me, 
would you not, that the sanctity of the voting box, the ballot 
box, is a paramount issue for Americans? Would you agree?
    Mr. DeJoy. Yes, sir.
    Mr. Hice. And I am sure all of us would. Now, in 2017, 
there was an investigation by the Office of Special Counsel 
that concluded that the United States Postal Service improperly 
coordinated with the Postal Workers Union in support of Hillary 
Clinton. And the investigation, the OSC's investigation went on 
and stated that it was a systematic violation of the Hatch Act 
that was involved, and, in fact, many Postal workers were 
required to work overtime to make up for the absence of all of 
that.
    It is also very interesting that the union we are referring 
to is the National Association of Letter Carriers, which just 
10 days ago endorsed Biden for President.
    Let me ask you, how many fraudulent votes are necessary for 
it to be considered too many?
    Mr. DeJoy. I have--I don't know, sir. I guess one.
    Mr. Hice. I would say one. We don't want fraudulent votes. 
There's no reason for us to have that.
    Your predecessor, Ms. Brennan, committed to Congress to 
fully implement some of the recommendations, in fact, all the 
recommendations from OSC to avoid future Hatch violations.
    So, I'd like to ask you, what kind of changes have you made 
to prevent these type of violations from taking place in the 
future?
    Mr. DeJoy. Congressman, that is not a focus I've had in my 
70 days, but I will take a look at the status of that 
initiative and get back to you.
    Mr. Hice. OK. I would appreciate you getting back with us.
    There is no question in my mind that the vast majority of 
USPS workers are faithful workers. They're honest, dedicated 
public servants. That being said, what the OSC has identified 
is, without question, many cases of political bias. And, in 
fact--just lay this out.
    When you have a union that consists of 300,000 workers and 
that union comes out and endorses a candidate, in this case 
Biden, and then that union is supposed to be expected to 
accurately handle and deliver ballots to both parties fairly, 
does that raise any concerns for you at all?
    Mr. DeJoy. Sir, I respect everybody's, you know, right to 
support candidates and donate to candidates. I have done so 
myself for 20 years. So, in my mind, it doesn't raise any 
awareness on the--concern with regard to Postal workers and 
their initiatives.
    Mr. Hice. Let me interrupt. I respect the rights of 
individuals too.
    Mr. DeJoy. The--you know, the Postal Service has 650,000 
people, and we will have--like the rest of the American 
society, we will have people that don't pay attention to the 
laws. But, for the most part, I believe in the ability to 
donate and support----
    Mr. Hice. Mr. DeJoy, I respect your--thank you for your 
answers. Thank you for your answers. And I respect the right 
for people to vote and support who they want to as well. But 
this is a case where you have 300,000 workers of a union that 
has endorsed Biden, and there must be in place some sort of 
mechanism to ensure that the handling of those ballots and all 
political material, election material is properly handled and 
not in a biased way. And I look forward to your responding to 
us in the next week or so.
    I yield back.
    Mr. DeJoy. Yes, sir. Thank you.
    Mr. Hice. Thank you.
    Chairwoman Maloney. The gentleman yields back.
    I now recognize Congressman Ro Khanna.
    Mr. Khanna. Thank you, Madam Chair.
    Thank you, Mr. DeJoy, for being here. I want to see if we 
can find some common ground to resolve some of the differences. 
Can you begin by sharing with the American people and this 
committee the unofficial motto of the Postal Service?
    Mr. DeJoy. Rain nor snow nor sleet nor hail will make our 
delivery----
    Mr. Khanna. It's about service, correct, not about profit? 
Do you know how many veterans serve in the Postal Service, 
about?
    Mr. DeJoy. 100,000.
    Mr. Khanna. Correct. Do you know what percentage of 
veterans, about, rely on the Postal Service for their 
prescription medicine?
    Mr. DeJoy. I don't know.
    Mr. Khanna. It's a high number. It's about 80 percent of 
veterans. So, I guess my beginning, I want to ask you this: You 
know, our Defense Department, we don't tell them you have to go 
sell weapons to make revenue to serve the American people. We 
don't say that about our health service or the National 
Institutes of Health.
    Why should we have a different standard for the Postal 
Service? Why do you have to go make a profit instead of just 
serving the American people?
    Mr. DeJoy. Sir, it's an interesting and good question. And 
it's not that we need to make a profit. It's to be self-
sustaining, which means cover--at least cover your costs.
    Mr. Khanna. But why? It's such a small----
    Mr. DeJoy. I'm not a legislator. I'm the Postmaster 
General.
    Mr. Khanna. Do you know--I mean, do you know the history? 
Do you remember the time in the Postal Service history where 
that wasn't a requirement?
    Mr. DeJoy. I do, in the seventies.
    Mr. Khanna. Actually, it was from 1840 to 1970, we funded 
the Postal Service. We didn't require them to make a profit 
because we thought people should in rural America and other 
places and our veterans should serve. And one of the reasons 
people serve in the Postal Service who served in our military 
is they view it as public service.
    Now, I appreciated one point you made, which is you assume 
that those who disagree with you have a legitimate difference, 
a legitimate perspective. Your perspective is that these mail 
sorting machines aren't required because packages need to be 
delivered and open up floor space. It's your testimony that you 
didn't direct it, correct? Who directed it?
    Mr. DeJoy. I have not done an investigation. It came 
probably through operations. It's been a long-term----
    Mr. Khanna. So, you don't know who directed it?
    Mr. DeJoy. No.
    Mr. Khanna. You don't know who implemented it?
    Mr. DeJoy. Well, there's hundreds of them around the 
country in different places. It was an initiative within the 
organization that preceded me.
    Mr. Khanna. So, your perspective is this is necessary to 
make efficiency of packages. You understand that there are 
millions of people in America who have the opposite view, who 
are concerned that this may slow down the delivery of mail. Do 
you have any sense of how much it would cost to restore these 
machines?
    Mr. DeJoy. No.
    Mr. Khanna. Would it be more than $10 billion?
    Mr. DeJoy. More than what?
    Mr. Khanna. $10 billion.
    Mr. DeJoy. $10 billion?
    Mr. Khanna. Yes. No, right?
    Mr. DeJoy. No. It would be less than $10 billion.
    Mr. Khanna. Less than a billion dollars?
    Mr. DeJoy. I would assume so. It's only 700 machines.
    Mr. Khanna. Let's stipulate that you may be right about the 
efficiency. I disagree with you, but let's just stipulate that. 
Now, we have Donald Trump, the President, tweeting out 
yesterday that he's up in the polls; he thinks he's going to 
win. Nate Silver thinks Biden is going to win. I think everyone 
in this room can agree on one thing: Whoever wins, the American 
people should have confidence in that result.
    So, if it would cost less than a billion dollars, 
regardless of whether it's efficient or not, what is the harm 
in just putting those machines back until election day just for 
the peace of mind, for the confidence of the American people?
    Mr. DeJoy. Well, first of all, sir, you know, we do not--
we've heard all the statistics about the mail-in votes and so 
forth, right? And we don't need the machines to process an 
election.
    But you make a statement about for a billion dollars, if we 
just gave you a billion dollars. You're not going to give us a 
billion dollars. You're going to make a request. You have no 
way of getting us a billion dollars. We haven't been funded in 
10 years. You can't pass any legislation--you can't pass any 
legislation that helps the Postal Service.
    Mr. Khanna. If I can just finish this point. If we give you 
the money, do you see my point?
    Mr. DeJoy. It's a hypothetical. I'm not willing to--
listen----
    Mr. Khanna. But I guess what I'm not understanding is what 
is the harm?
    Mr. DeJoy. You haven't given us any money. You haven't 
given us any legislation.
    Mr. Khanna. But what is the harm?
    Mr. DeJoy. And you're sitting here accusing me of things 
with regard to this--as the committee----
    Mr. Khanna. I haven't accused you of anything. I am trying 
to understand----
    Mr. DeJoy. And it's a big statement, if we give you a 
billion dollars.
    Mr. Khanna. I think I'm trying to understand what most 
Americans are trying to understand. What is the harm in putting 
these machines--even if the machines, in your perspective, 
don't do anything, what is the harm to do it until election 
day?
    Mr. DeJoy. In Washington, it makes plenty of sense. To me, 
it makes none.
    Mr. Khanna. You haven't explained why.
    And then final question----
    Mr. DeJoy. Because they're not needed, that's why.
    Mr. Khanna. But if it will restore people's faith in a 
democracy and avoid a polarized election, I would think----
    Mr. DeJoy. Get me the billion--get me the billion and I'll 
put the machines in.
    Mr. Khanna. OK. Well, that's a commitment. We'll find a way 
to get you the money.
    The last question I have for you is, can you--you know, 
Reagan said trust but verify. I understand you've committed to 
the American people that you're going to have these delivered 
in time. Can you give us a specific and detailed plan and 
submit that to Congress on how you're going to make sure that 
the ballots get delivered in time?
    Mr. DeJoy. I need to get back to you. If there's a plan 
that we--that we can--I mean, there's normal processing 
procedures plus enhanced processing procedures around an 
election. I can probably give you some type of summarized 
objectives that we'll try--that we'll try to fulfill.
    Mr. Khanna. I appreciate that. I appreciate the commitment 
of a billion dollars and you'll put the machines back. So, 
thank you.
    Mr. DeJoy. Thank you.
    Chairwoman Maloney. The gentleman yields back.
    I now recognize Congressman Comer.
    Mr. Comer. Thank you, Madam Chair.
    And you went over four minutes, so I may go over a few 
minutes, and I hope you'll indulge me in my questioning.
    Mr. DeJoy, thank you again for being here today. I'm sorry 
for some of the rhetoric that you've had to endure over you 
your first 60 days in office. That's something I want to remind 
everyone. You've been Postmaster General for around 60 days. Is 
that correct?
    Mr. DeJoy. Seventy today.
    Mr. Comer. Now, I want to make this very clear to the 
American people who are watching this committee hearing. You 
report to the Postal Board of Governors. Is that correct?
    Mr. DeJoy. I do, sir.
    Mr. Comer. And the Postal Board of Governors is a 
bipartisan board comprised of both Democrats and Republicans. 
Is that correct?
    Mr. DeJoy. That is correct, sir.
    Mr. Comer. And its makeup is that way because of the 
statute passed by Congress requiring a bipartisan Board of 
Governors, right?
    Mr. DeJoy. Yes, sir.
    Mr. Comer. Well, if there's one thing I hope my Democrat 
colleagues learn today it's that you report to the Board of 
Governors, not the President of the United States.
    Now, there's been a lot of rhetoric by my friends on the 
Democrat side of the aisle pertaining to all of the changes 
that have been made. In fact, I want to reference a tweet by 
Representative DeFazio. I assume this is a photo op where he's 
chained himself to one of the blue boxes that have been in the 
news a lot lately.
    In your opening testimony, Mr. DeJoy, you said you didn't 
remove--you didn't order the removal of the blue boxes, sorting 
equipment, or the reduction of overtime. Can you explain to us 
who did and what that process was because I think it's 
important for the American people to know. Because there are a 
lot of Democrats here, even though they've talked about 
politics and they've talked about the fact that the President 
wants to sabotage the election, the Democrats are using this as 
a political ploy. They are spinning this to try to benefit 
politically. In fact, Representative DeFazio has received 
$32,000 from the Postal Workers Union since 2012. So, I'm sure 
his campaign donors probably appreciated that photograph.
    But, again, if you wouldn't mind telling us about the 
process briefly of the removal of the blue boxes, who ordered 
them and how that came about.
    Mr. DeJoy. Sir, this is a longstanding thing that's been 
going on in the Postal Service for a long time. You know, the 
fact that I'm here at the committee to talk about boxes and 
things, I'd much rather spend--take the time to talk about the 
legislation we require to help get us into a sustainable, you 
know, position and other matters that concern the Postal 
Service. I had nothing to do with boxes or machines or 
restricting overtime or throwing the election or anything.
    Mr. Comer. Well, correct me if I'm wrong. On average, about 
3,100 collection boxes a year over the past seven years have 
been taken offline, dating back to the time when Obama was 
President. Is that correct?
    Mr. DeJoy. It's been a long time, yes. Yes.
    Mr. Comer. Am I correct to say that, during the Obama-Biden 
administration, they removed 12,000 blue boxes? Is that 
correct?
    Mr. DeJoy. I think 35--I think there was a--it's just hard 
for me to associate box removal with the President of the 
United States. So, you guys can do that here. I have a hard 
time.
    Mr. Comer. Mr. Postmaster General, do you remember the 
Democrats calling for the then-Postmaster General to resign 
because President Obama removed 12,000 blue boxes? Do you 
remember that?
    Mr. DeJoy. I don't think I ever recall----
    Mr. Comer. I don't either.
    Mr. DeJoy [continuing]. A request for the Postmaster 
General to resign.
    Mr. Comer. So, let's be very clear. Removing the sorting 
machines, removing the blue boxes that were removed, they won't 
affect the Postal Service's capacity to handle ballots this 
election season. You've testified as to that, correct?
    Mr. DeJoy. Yes, sir. Correct.
    Mr. Comer. Now, the Democrats want to portray you as 
implementing new policies because of the false narrative that 
the President wants to somehow sabotage the election. Is that 
narrative true?
    Mr. DeJoy. I am not engaged in sabotaging the election.
    Mr. Comer. Absolutely false. As a matter of fact, aren't 
you planning on voting by mail? Did someone tell me that?
    Mr. DeJoy. I am, yes.
    Mr. Comer. So, you have full confidence that when your 
ballot is in the mail, it will get to the appropriate election 
official on time, obviously, correct?
    Mr. DeJoy. Yes, sir.
    Mr. Comer. Will you pledge here today that the Postal 
Service will do its best to return all ballots this election on 
time?
    Mr. DeJoy. I do, sir.
    Mr. Comer. What would you tell Americans who are concerned 
about something happening to their ballot once they put it in 
the mail this election season? What would you tell the 
Americans? Because they've seen a lot of that from my 
colleagues on the Democrat side. This has been their spin since 
the Russian hoax fell flat, since the impeachment sham died in 
the Senate. Every conspiracy theory today that the Democrats 
have used to try to hurt the President has fallen flat. So, 
this is the new flavor of the day.
    And it's had the consequences of putting a lot of Americans 
concerned that if they drop that absentee ballot in the mail, 
that it's not going to get to the election official. How can 
you relieve their fears that the Democrats have caused?
    Mr. DeJoy. The American people have the commitment of the 
650,000 women and men of the United States Postal Service that 
we will do everything within our power and structure to deliver 
ballots on time. But, again, we remind them to request your 
ballot early and vote early.
    Mr. Comer. You know, it's really discouraging to hear the 
rhetoric from the Democrats about this whole Postal issue. My 
grandmother was a rural mail carrier in Tennessee, spent her 
whole career as a rural mail carrier. The men and women I know 
in the Postal Service work extremely hard, and they deserve 
better than the rhetoric and the postal bashing that has been 
coming from the other side, all for political purposes.
    We all want to see the post office succeed, especially in a 
district like mine, a very rural district, that still hasn't 
recovered from what Congressman Massie mentioned, the changes 
that Obama made when he took the sorting facilities out of 
Bowling Green, Kentucky, and Paducah, Kentucky.
    But I'll close my questioning with this: This is a sad day 
for the Oversight Committee. The Oversight Committee is 
responsible for identifying waste, fraud, and abuse. The 
Oversight Committee is supposed to be responsible for making 
government transparent and accountable.
    Postmaster DeJoy, you have come here with a sterling 
background. You are one of the most qualified Postmaster 
Generals we've ever had, with your background in the logistics 
business. It's an honor for the Federal Government to have you 
trying to reform the post office.
    But the bill that the Democrats rushed through Saturday 
without even having a committee hearing on it, that bill ties 
your hands, and it also gives $25 billion to the Postal 
Service, which I find ironic because Mr. McGovern in the Rules 
Committee markup on Friday said he didn't trust you. We've had 
a couple of other Democrats say that they didn't have 
confidence in you. But they gave you a $25 billion blank check 
with no strings attached.
    They've tied your hands to where you can't make any needed 
reforms. That's not what this committee is supposed to be 
about. I apologize, as a minority member of this committee. I 
hope that we can do better in the next Congress.
    Madam Chair, I yield back.
    Chairwoman Maloney. The gentleman yields back.
    And I recognize myself for a point of personal privilege 
and information. The bill that the House passed that I 
authored, I authored that bill after the Postmaster General 
came forward with changes to the post office that slowed the 
mail down. It does not in any way hinder any effort to make the 
post office more efficient and effective.
    Mr. Comer. Madam Chair----
    Chairwoman Maloney. I also funded the post office because 
it deserves to be funded. It's a national treasure. It's a 
national service.
    And I now recognize Mr. Mfume for five minutes. Mr. Mfume.
    Mr. Mfume. Thank you, Madam Chair.
    Let me just say for my colleagues on the other side of the 
aisle, not all--the people that we represent----
    Chairwoman Maloney. Mr. Mfume, would you turn on your mic, 
please.
    Mr. Mfume. Thank you, Madam Chair.
    Some of us represent dearly the people we represent, so in 
no way--and I want to assure members of this committee--that 
this is some sort of hoax.
    We are here, Mr. DeJoy, as you might imagine, because we've 
been hearing from the people who hire us, people who live 
across this country in our districts. And so for me, that's the 
people of Baltimore City, Baltimore County, and Howard County, 
Maryland, just like all of my colleagues have others, I'm sure, 
who have complained.
    And I just want to keep this focus on the face of those 
people. These are senior citizens, like you and like me. 
They've worked hard. They're at a point in their life where 
they depend, like they've always had--had depended on the mail. 
Some of them have high blood pressure. They wait for their 
medications. Others have heart trouble. They wait for their 
medications.
    These are citizens, men and women, who put on uniform in 
various wars and conflicts and represented us and rely daily on 
the mail for their checks, their VA checks, for their 
medicines. These are small businesspeople, like you used to be, 
and many of these members of the committee may have been, who 
watch their small business compete now not being able to keep 
abreast of basic things that they rely on to come through the 
mail.
    And then they're just average citizens, somebody who wants 
to pay a bill because they don't believe in the internet, and 
they believe in writing an old-fashioned check, and then 
they're told by the company that they're being charged now with 
a late fee because it didn't arrive on time.
    So, these are real, real stories. And when the mail slows 
down, it has a disparate impact on communities, and 
particularly on communities of color around this country.
    These changes, Mr. DeJoy, I assume, are changes that you 
have vetted. I'm talking about the ones you've implemented with 
the Board of Governors. Is that correct?
    Mr. DeJoy. The change, the organizational change and the 
requirement to--with the--in the initiative to have the trucks 
leave on time, are within my authority, but I had discussed 
them previous----
    Mr. Mfume. Well, let me ask you this: Major changes are 
required to have an advisory opinion, is that correct, before 
they're submitted to the Board of Governors?
    Mr. DeJoy. That is not the change like--major--there is 
some level of change that is--closing plants and so forth, we 
need to go to the PRC for.
    Mr. Mfume. And do you have analytics to sort of justify the 
changes that you've made, and if so, could you provide them at 
a later date to this committee?
    Mr. DeJoy. We--I need to get back to you on that.
    Mr. Mfume. OK. It's my understanding that the removal of 
mailboxes, whether it was 20 years ago, 30 years ago, or last 
week, required density studies. Is that still the case?
    Mr. DeJoy. I believe it is, and we have----
    Mr. Mfume. Could you supply to this committee the density 
studies for the last three months, because there's been an 
accelerated removal of boxes, and accelerated removal of 
sorting machines, 671 to which you said earlier you would not 
put back online.
    I'm not a conspiracy theorist, but I don't believe that 
Humpty Dumpty fell. I think he was pushed. And when I see these 
sort of things back up in such a way that we get your report 
dated August 12 that says, Yes, there has been an eight percent 
decrease in mail arriving on time, a nine percent decrease in 
periodicals arriving on time, and a decrease in virtually all 
other classifications, it just makes some of us a little 
suspect. And I'm sure you would understand that.
    Let me ask you, are you familiar with the Expedited to 
Street/Afternoon Sorting program?
    Mr. DeJoy. I am.
    Mr. Mfume. It was introduced on the 25th of July?
    Mr. DeJoy. Uh-huh.
    Mr. Mfume. It affects 1,200 ZIP Codes across the United 
States. Are you aware of that?
    Mr. DeJoy. I'm aware of that it affected a lot of ZIP 
Codes, yes.
    Mr. Mfume. Are you aware that it shakes up longstanding 
procedures at the mail--at the Post Office?
    Mr. DeJoy. I'm aware of what the process was. And whether 
it was longstanding procedures, the intention of the plan is to 
adjust for the decrease in mail volume and get back on 
schedule. And that was a pilot. It wasn't a change. It was a 
pilot program to make--to marry up the delivery--the carrier 
delivery to homes and businesses with the schedule that--of 
incoming mail from the destination----
    Mr. Mfume. Are you aware that the National Association of 
Letter Carriers filed an official grievance against that 
program?
    Mr. DeJoy. I am. But I will tell you, before that program, 
before that pilot went off, we checked--we had a discussion 
with the union leadership and they were amenable to rolling out 
the program.
    Mr. Mfume. And just before I yield back my time, sir, what 
would you say to those veterans, those senior citizens, those 
average Americans, and those small businesspeople who have been 
disproportionately impacted in the last five or six weeks 
because of this slowdown?
    Mr. DeJoy. We are concerned about every delivery that is 
late, and we're working very, very hard to get it back on 
track.
    Mr. Mfume. Thank you, Madam Chair.
    Chairwoman Maloney. The gentleman's time is expired.
    Mr. Grothman, you are now recognized.
    Mr. Grothman. Fine. Can you hear me now?
    Chairwoman Maloney. Yes, we can hear you. We are not seeing 
you yet, Mr. Grothman. There you are. OK.
    Mr. Grothman. OK. First of all, thank you for being here, 
Mr. DeJoy. Sorry, I think some of the questions have been 
unduly rude, but I'll throw the question here. What percent 
increase in regular mail deliveries do you anticipate because 
of the election this October, say, compared to last October?
    Mr. DeJoy. I'm sorry. I didn't hear the question.
    Mr. Grothman. What percent increase in mail deliveries do 
you expect this October compared to last October because of the 
election?
    Mr. DeJoy. I think the election mail will run--it's about--
over the course of a month, about two percent of normal mail.
    Mr. Grothman. So, about a two percent upper. Could you 
compare that to other days or times around Christmas, for 
example, any other bumps?
    Mr. DeJoy. I think that the narrative goes like Mother's 
Day is higher, Christmas is higher. You know, we just handled 
Census mail, so it is not--it's not a lot of mail, but it is 
critical. There were cutoff dates. It's not a Mother's Day 
card, it's a ballot, and it's important so we put extra effort 
to make sure that it gets there on time.
    Mr. Grothman. OK. But you don't consider it, say, compared 
to how much mail you had maybe three years ago, or the amount 
of mail on Christmas----
    Mr. DeJoy. It's not a volume issue, sir. It's just that 
every ballot counts, so we want to get every one of them.
    Mr. Grothman. OK. I know here in Wisconsin, I assume 
nationwide, there's postage that comes with the absentee 
ballots. As a matter of fact, in Wisconsin, there's postage 
going around and postage coming back. Do you have plans to 
handle the additional postage that you're going to get on the 
election?
    Mr. DeJoy. You broke up, but I think I can guess at what 
you were trying to get at. We are not charging anything extra 
for anything. All our rates and classifications are----
    Mr. Grothman. That wasn't the point. That wasn't the point. 
In Wisconsin, the local unit of government that issues the 
absentee ballot pays to have the ballot sent out, and actually 
puts a stamp on each ballot that's coming back. So, at least in 
Wisconsin, you should be getting more revenue in with the 
election. What do you plan on doing with the additional revenue 
you're getting in, or do you plan on doing something special at 
all?
    Mr. DeJoy. I don't know--I'm not understanding how we would 
get extra revenue. One way or another we would have had a stamp 
on it going out or a stamp on it coming back. In any case, the 
revenue will go to--any revenue we get, if it was additional 
revenue, will go to cover our losses.
    Mr. Grothman. I'm assuming that when you get additional 
revenue, you like it when more mail is being sent, right, 
because you have fixed cost, you're even ahead of the game, if 
you have more Valentine's Day cards or Christmas cards, or, in 
this case, more absentee ballots or whatever.
    Mr. DeJoy. We love mail.
    Mr. Grothman. Is that true? Right. So, you should be happy. 
And are we happy? Good. OK. That should put it on firmer 
grounds.
    You, right now, have, I'm told, about $14 billion in the 
bank. Do you anticipate the election causing that to be run 
down at all, or do you anticipate it going up? Would it have 
any dent on it?
    Mr. DeJoy. No. I don't think it will have too much of an 
impact in either way.
    Mr. Grothman. OK. So, you have $14 billion in the bank now. 
You're still going to have $14 billion on--as far as you know, 
on December 1?
    Mr. DeJoy. It just depends. We lose--we'll probably lose 
$10 billion or $11 billion this year, so depending on how 
package volume stays, we could have less cash. And if I may, 
having $14 billion, we also have--I have $12 billion worth of 
liabilities that need to be paid at some time over the next six 
months. We have $135 billion of liabilities.
    We're running a 633,000-person organization that does not 
get funding. Even though the Federal Government ends in 
September, they have an expectation of getting funding. We 
don't have an expectation of getting funding. So, we have to 
drive cost out and increase revenue, and that's the big 
difference that we have than any other agency.
    Mr. Grothman. The point I'm trying to make is----
    Mr. DeJoy. So, $14 billion, while it sounds like a lot of 
money, it's not a lot of money for what we do.
    Chairwoman Maloney. The gentleman's time is expired.
    Mr. Grothman. Right. But you anticipate still having money 
in the bank after the election, that's the point I'm trying to 
make.
    Mr. DeJoy. We'll have cash, yes.
    Chairwoman Maloney. The gentleman's time is expired. The 
gentleman may answer the question.
    Mr. Grothman. Thank you very much.
    Mr. DeJoy. We will--we have plenty of operating capital 
right now to get through November, yes, and handle the 
election.
    Mr. Grothman. Thank you very much.
    Chairwoman Maloney. OK. The gentleman yields back. 
Congresswoman Wasserman Schultz is now recognized.
    Ms. Wasserman Schultz. Thank you, Madam Chair.
    Mr. DeJoy, the culture and ethos of the U.S. Postal Service 
is every piece every day. I've been in briefings with Florida's 
local Postal Service employees who were telling me that since 
your arrival, this is no longer the mission of the USPS. 
Overtime to finish delivering mail is not allowed, and piles 
upon piles of backlog mail are being left undelivered. Sorting 
machines are being sold for scrap or unplugged and roped off.
    My first question: Is it still the policy and goal of the 
USPS to deliver every piece every day, or have you eliminated 
or changed that in any way?
    Mr. DeJoy. First of all, that is misrepresentation of any 
action that I have taken, but, yes, the goal is to get--deliver 
every piece every day. And, ma'am, we were not doing that 
before I got here, and my goal is to----
    Ms. Wasserman Schultz. OK. Well, it's gotten--reclaiming my 
time, it has clearly gotten worse since your arrival. We have 
piles upon piles of mail that, as a result of the changes that 
you've made, appear to have delayed the mail even further than 
supposedly they were delayed previously.
    Mr. DeJoy. Change.
    Ms. Wasserman Schultz. No.
    Mr. DeJoy. The change I've made.
    Ms. Wasserman Schultz. Well, the changes that you've made.
    Mr. DeJoy. The change. I made one change.
    Ms. Wasserman Schultz. Well, I'm sorry, you've made far 
more than one change.
    Mr. DeJoy. That's not true.
    Ms. Wasserman Schultz. OK. Reclaiming my time. You're not 
with honest with this committee.
    Mr. DeJoy. That's not true. I am being honest.
    Ms. Wasserman Schultz. OK. I would ask that the chair add 
time back and direct the witness not to interrupt me.
    Mr. Comer. Madam Chair?
    Ms. Wasserman Schultz. Mr. DeJoy. I'm sorry. Reclaiming my 
time.
    Mr. Comer. Let's allow the witness to answer the questions 
and the false accusations.
    Ms. Wasserman Schultz. Reclaiming my time, I did not 
interrupt any other member while they were talking, and I 
expect not to be interrupted. The time is mine.
    Mr. DeJoy, you are not being honest with the committee 
about removing the sorting machines. We have been asking you 
for details for weeks, and you have been hiding them from us 
while removing them at a break-neck pace.
    On August 4, your staff gave this committee a briefing on 
this issue, and all they told us was that you'd be moving 
machines around to where they were needed most. We have the 
slides from that briefing. There was no mention that taking any 
sorting machines offline.
    On August 11, your general counsel responded to our request 
for more information with no mention of taking any sorting 
machines offline.
    Your culture of misinformation has even trickled down to 
Florida postal leadership. On August 14, my office asked 
whether sorting machines were being removed at the Royal Palm 
facility, which covers all of south Florida, and were assured 
that capacity was actually being expanded.
    But it was only after I spoke with local postal workers 
that I was told about the FSS machine in Royal Palm, which had 
been shut down and roped off since July. Press outlets finally 
revealed the internal plan to remove more than 600-plus sorting 
machines. You were not transparent. We had to get it from news 
reports.
    I want to take this opportunity to enter into the record, 
Madam Chair, an August 18, 2020, email from USPS Director of 
Maintenance Operations, Kevin Couch. Madam Chair?
    Chairwoman Maloney. Without objection.
    Ms. Wasserman Schultz. The email reads, ``Please message 
out to your respective maintenance managers tonight they are 
not to reconnect, reinstall machines that have been previously 
been disconnected without approval from headquarters 
maintenance, no matter what direction they are getting from 
their plant manager.''
    Mr. DeJoy, yes or no, and you've indicated in this 
committee hearing that it's not your job to decide about 
whether sorting machines are on or offline, but at the same 
time you told Mr. Khanna that you won't bring them online 
because they're not needed. So, yes or no: Have any plant 
managers requested mail sorting machines be reconnected?
    Mr. DeJoy. First of all----
    Ms. Wasserman Schultz. Yes or no?
    Mr. DeJoy [continuing]. I disagree with the premise that I 
have directed all these things.
    Ms. Wasserman Schultz. I'm not asking you anything other 
than--reclaiming my time, Madam Chair.
    Chairwoman Maloney. Reclaiming your time. Yes-or-no answer.
    Ms. Wasserman Schultz. Yes or no, have any plant managers 
across the country in the USPS requested mail sorting machines 
be reconnected?
    Mr. DeJoy. How would I know that?
    Ms. Wasserman Schultz. You're in charge. You don't know 
whether there are plant managers that have requested----
    Mr. DeJoy. No, I don't know.
    Ms. Wasserman Schultz. Well, let me just assure you that 
there are plant managers that was reported in the press in both 
Washington--there are plant managers in Texas and Washington, 
and I have articles that I can show you--that have asked to 
have sorting machines reconnected and brought back online, and 
they've been too scared to come forward to say so.
    So, you've indicated that it's local leadership. In this 
hearing I heard you say, it's not your job to decide whether 
sorting machines are brought online or not.
    Someone needs to mute, Madam Chair. Madam Chair, someone 
needs to mute their----
    [Technical interruption.]
    Chairwoman Maloney. Please mute. People that are listening, 
please mute.
    Ms. Wasserman Schultz. I need probably about additional 30 
seconds from the interruptions added back onto my time, please.
    You have said in this hearing, it's both not your job to 
make decisions about sorting machines, and at the same time, 
you've said that you're not going to bring them back online 
because they're not needed. It can't be both.
    So, my local bar code, my local handlers who work with 
sorting machines regularly and this specific bar code sorter 
machine, have assured me that it would not be difficult to plug 
it back in. How difficult would it be to reconnect machines 
that haven't already been destroyed?
    For example, on display, if we can bring that up on the 
screen, I was sent a photo from a processing and distribution 
center in Florida where the power cord is hanging from the 
ceiling and not plugged in. And my local handlers tell me that 
the sorting machines regularly, and that specific machine 
specifically, that it would not be difficult to plug back in.
    Do you believe that it is the local handlers' job to decide 
whether they need a sorting machine, and will you give them the 
freedom to plug the machines back in and bring machines that 
haven't been taken apart back online in order to make sure we 
can get the mail out on time, which you acknowledge has gotten 
worse since your arrival?
    Chairwoman Maloney. The gentlewoman's time is expired, but 
the gentleman may answer the question.
    Mr. DeJoy. That was a long list of accusations.
    Ms. Wasserman Schultz. No. I just want a simple answer to 
the question about whether you will give----
    Mr. DeJoy. Is it my time now? Is it my time now?
    Ms. Wasserman Schultz. No. No. It's always my time, and I'd 
like an answer to the question.
    Mr. Comer. Her time expired, Madam Chairman.
    Ms. Wasserman Schultz. I'm sorry. I'd like an answer to the 
question whether or not you believe it----
    Mr. DeJoy. We have a management team that is responsible 
for making decisions as to what machines are used and not used.
    Ms. Wasserman Schultz. But those things are decided 
locally. Will you let them decide that locally? Yes or no.
    Chairwoman Maloney. The gentlewoman's time is expired.
    Mr. Comer. Time is expired.
    Mr. DeJoy. No.
    Ms. Wasserman Schultz. OK. Well, then you have not told us 
the truth in this hearing, and it is your fault that the mail 
is delayed. Your fault, on you, and you've acknowledged that.
    Mr. Comer. Her time is expired.
    Ms. Wasserman Schultz. I yield back the balance of my time.
    Chairwoman Maloney. We request your response in writing.
    Congressman Higgins, you are now recognized.
    Mr. Higgins. Thank you, Madam Chair. That was quite a 
debacle. This is exactly--this hearing right here is exactly 
why America does not trust Congress. Our cities are on fire, 
violent mobs roam our streets at night, the Chinese have 
crushed the American economy with a virus, and Democrats are 
talking about a mailbox conspiracy.
    Postmaster General DeJoy, are you aware of any evidence 
whatsoever that supports a mail delivery conspiracy?
    Mr. DeJoy. No, sir.
    Mr. Higgins. Would you repeat that, sir?
    Mr. DeJoy. No, sir.
    Mr. Higgins. The question is an answer America needs to 
hear. Are you aware of any evidence whatsoever of some kind of 
a mailbox or mail delivery conspiracy?
    Mr. DeJoy. I am not, sir.
    Mr. Higgins. Postmaster General, thank you for being here 
today. Let me ask you, are you here on subpoena or voluntarily?
    Mr. DeJoy. I'm here voluntarily.
    Mr. Higgins. Well, you're a better man than me, because 
you're sitting at attempt after attempt by my colleagues across 
the aisle to assassinate your character. And might I suggest to 
you, sir, as an American patriot and a constitutionalist, if I 
was you, I wouldn't appear before this committee without a 
subpoena in the future. Congratulations on your character for 
being here voluntarily to submit yourself to this harassment.
    During the course of your lifetime--sir, I'll be 59 today. 
I cannot remember a time when the Postal Service was not in 
some sort of financial trouble. Do you recall any time, sir, 
some sort of an era that I'm not recalling that the Postal 
Service was totally squared away, operated within budget, and 
was never in financial trouble?
    Mr. DeJoy. I think in the late 1990's and early 2000, a few 
years, it was covering its cost. And happy birthday, sir.
    Mr. Higgins. Thank you, sir. That's very kind of you.
    I recall the saying, out of the last 40, 50 years, there's 
only been a couple of years where there was anything that could 
be described as financial stability in the Postal Service. I 
mean, dedicated men and women, but the fact is that 
inefficiencies are legendary within the Postal Service.
    So, let me just ask you, Postmaster, why did you accept 
this job? Tell America why you took this job?
    Mr. DeJoy. Sir, I have certain experience--I had the 
certain experiences in my life, business-wise, with large 
projects and large logistical----
    Mr. Higgins. We know that you're qualified, sir. I get 
that. But America needs to hear from your heart, why did you 
accept this job, this incredible burden to serve your 
government in your Nation in this way? What was your purpose?
    Mr. DeJoy. I've been active in my community and the country 
most of my adult life, and this is something that was asked for 
me to participate in that I think I could help and fix and lead 
to a better place, and that's why I took it.
    Mr. Higgins. Well, from this American, and from my 
constituents, thank you. Thank you, sir, for taking on this 
burden and this task. You know, one would think that perhaps 
next week, the Oversight Committee will have a hearing 
suggesting that smoking cigarettes could cause cancer.
    Who did not know in America that the Postal Service is 
constantly going through modernization efforts, attempts to 
become more efficient and struggles to become solvent into the 
future?
    Now, you handle a lot of mail, do you not? I have one 
question in closing, sir. My understanding is you handle about 
471 million pieces of mail a day. Can you handle the mail of 
the election cycle, given the fact that about 150 million 
Americans are registered to vote, and your average mail 
delivery is 471 million a day? Can you handle the mail delivery 
for the election cycle, good sir?
    Mr. DeJoy. The whole organization is committed to 
delivering election mail, and we will do it.
    Mr. Higgins. Roger that. Thank you, sir. Thank you for 
appearing before us today. I apologize on behalf of all of 
America for the way that you've been treated by my colleagues 
across the aisle.
    Madam Chair, I yield back.
    Chairwoman Maloney. The gentleman yields back.
    Congressman Sarbanes, you are now recognized.
    Mr. Sarbanes. Thank you, Madam Chair.
    Thank you, Postmaster DeJoy, for being here.
    Chairwoman Maloney. Mic, please.
    Mr. Sarbanes. Thank you, Postmaster, for being here with us 
today.
    I'll be candid, I don't trust you right now. I don't know 
whether it's I don't trust your judgment, or I don't trust your 
motives. If you think you could implement the changes you did 
without having the negative impact that we've seen, then I 
worry about your judgment; and if you did understand what that 
impact would be, then I'm concerned about your motives. But 
you've got an opportunity here today to demonstrate to us that 
your judgment is sound and that your motives are pure.
    You're a businessman. We've heard a lot about that today. 
You're an expert apparently in supply chain management, which 
requires a lot of planning, specifics, details, all kinds of 
minutia, correct?
    Mr. DeJoy. Yes, sir.
    Mr. Sarbanes. Yes. On Friday when you were in the Senate, 
you said, quote, "As we head into the election season I want to 
assure the committee and the American public that the Postal 
Service is fully capable and committed to delivering the 
Nation's election mail securely and on time. This sacred duty 
is my No. 1 priority between now and Election Day." Is that 
what you said?
    Mr. DeJoy. Yes, sir.
    Mr. Sarbanes. Yes. And you said it again today, the idea of 
getting the mail to people securely and on time. I've got to 
tell you, I'm very concerned about the issue of what's going to 
happen with the mail ballots. We've heard that from others 
today.
    We have a President freely admitting that he is opposed to 
USPS funding because he's hoping that a hobbled Postal Service 
won't be able to handle mail ballots, and your own general 
counsel has warned 46 states that mail ballots may not be 
delivered on time.
    Traditionally, as you know, the Postal Service has always 
prioritized sorting election mail separately and pushing it out 
as fast as possible, including daily sweeps of mail facilities 
for any election mail otherwise missed in processing.
    Yet, the states and localities have been left wondering if 
this is no longer the case, and what the President's continued 
broadsides against mail ballots will mean in practice for those 
efforts.
    On Friday, again, to the Senate colleagues of ours, you 
said, ``First class or better treatment of election mail would 
not change.'' Quoting you in response to Senator Peters, you 
said, ``Yes, sir, we will deploy processes and procedures that 
advance any election mail in some cases ahead of first-class 
mail.''
    Now, I will note that the on the website, there's an FAQ to 
election officials that says they should use first-class mail 
or a higher level of service for election mail. Using USPS 
marketing mail service will result in slower delivery times, 
and may increase the risk that voters will not receive their 
ballots in time to return them by mail.
    So, you're saying that the Post Office is going to handle 
this on a first-class basis, but at the same time, the FAQ is 
telling election officials that they should take responsibility 
for this, or otherwise, the marketing mail service will come in 
more slowly.
    So, we've heard about your commitment to our Senate 
colleagues. You've said it again today. But to be honest, Mr. 
Postmaster General, we need something in writing. That would be 
very helpful. A detailed accounting of how exactly you're going 
to execute on your promises.
    You're a specialist in logistics, so we want to know, what 
are you doing at USPS to make good on these words? How is USPS 
designing its interface with states and localities, with 
election mail vendors and others to ensure that ballots get 
priority treatment? We need written policies and directives, 
not just words.
    I assume you know that USPS has long offered memorandums of 
policy to ensure the system-wide execution of key policies and 
procedures. I was looking at a bunch of these last night. And 
in that vein, I'm asking: Can you commit today to the immediate 
issuance of a formal USPS policy in writing that will guarantee 
all delivery of election mail is treated at first class or 
better for the 2020 general election? Can you do that for us?
    Mr. DeJoy. Our process is to do that physically. I have to 
get back to you on what I can give you in writing on that.
    Mr. Sarbanes. We'd like to see that in the form of a 
memorandum so we can verify the commitment that you're making. 
This is where your motives can be shown to be pure. So, if you 
could do that, I'd appreciate that.
    Mr. DeJoy. First-class mail is a classification of mail. 
And then we are talking about a physical process. So, there's--
we could advance mail in front of first class, so it's still 
not called first-class mail.
    Mr. Sarbanes. I understand. I'm just asking to see in 
writing a memorandum on this that the Post Office and the 
public, and we can get some confidence from.
    The other thing is, we've talked--I'm running out of time. 
But we talked about your ability to issue these reports. Could 
you commit as well today that you'll give us some data-specific 
updates on how the efforts regarding the mailed ballots are 
going, and do that on a periodic basis, weekly perhaps? That 
would be very, very helpful. Could you do that?
    Mr. DeJoy. Yes. What I'll do, sir, is I'll commit to give 
the committee an update on the improvement of the service, 
let's say, next Monday, where we stand on the service. And I 
need to check if we can get down to the individual ballot 
level, see what we can do there.
    Mr. Sarbanes. That would be very helpful. I appreciate it. 
That will help demonstrate that you take this sacred duty 
seriously. I yield back.
    Mr. DeJoy. If I can just add, the letters that went out to 
the state was not a warning or was not an indication that we 
would slow anything down. It's trying to educate the state 
election officials on what the process was. This has been done 
in years in past. With the pandemic, we increased the content 
because we knew the vote by mail would be higher.
    It's really--we've reached out to over--we've made 50,000 
contacts with state and local officials in our regional areas, 
and through headquarters to try and integrate their processes 
with our processes so we would have a safe and secure election.
    Chairwoman Maloney. Thank you. The gentleman's time is 
expired.
    Congressman Gibbs, you are now recognized. Congressman 
Gibbs.
    Mr. Gibbs. Thank you, Madam Chair.
    Mr. DeJoy, I apologize to you for some of the behavior--can 
you hear me? Because my thing went----
    Chairwoman Maloney. We can hear you and we can see you.
    Mr. Gibbs. Oh, OK. Postmaster General, I want to apologize 
for some of the treatment you had today. You know, obviously, 
what I'm hearing, you don't really need this job. You didn't 
really need to take this job, and I'm not going to ask you 
directly if you did need to take this job. And I'm assuming you 
didn't need to take this job just like most people in the Trump 
administration, including the President didn't need to take 
this job, but they did it for the love of country, and they 
want to make this country better and help people. And I think 
you fall into that category, so I want to apologize for some of 
the statements made today that were very disturbing to me.
    And you're just trying to do your job. When you were hired 
to do this job by the Board of Governors, Mr. DeJoy, did you 
ever have any discussions with the President on what to do to 
the Post Office, or what you should do? Or was it just the 
Board of Governors?
    Mr. DeJoy. I never spoke with the President about the 
Postal Service prior to getting the position, and I have not 
spoken to him about anything regarding the Postal Service 
since.
    Mr. Gibbs. So, you were brought in to do this job to help--
be more cost efficient, make changes, so obviously, the Postal 
Service can do their job and get out of the red. And, so, 
you're doing your job, and now they're coming after you, 
attacking you for doing your job.
    Now, we've seen--I think we're all in agreement that first-
class mail has dropped considerably with packages or however 
you categorize it, has increased significantly. And I believe 
that's one of the reasons why you're making some changes for 
efficiency, cost efficiencies. And we've had a lot of 
discussion about the sorting machines.
    Now, is it true to say that for what the mail volume is, 
even with the additional Census and the additional ballots--you 
know Christmas is higher mail time than anything else--there's 
still going to be enough sorting machines to do this and you're 
also going to be able to move the packages by making changes 
you're making? Is that a true statement?
    Mr. DeJoy. Yes. We should--we will have plenty of sorting 
capacity.
    Mr. Gibbs. OK. Some of the other delays, COVID-19, 
[inaudible] rate in the Postal Service. I saw there was an 
article up here a couple months ago about the Postal Service 
took a very liberal policy about making sure that people don't 
come to work if they have a temperature. Obviously, that's 
probably made a lot of good common sense. Are we having trouble 
filling, on a day-to-day basis, getting drivers and mailmen? 
You know, are there a lot of shortages of personnel, or what's 
the situation with that?
    Mr. DeJoy. Across the country, our employee availability is 
down 3 to 4 percent on average across the country. But the 
issue is, in some of the hotspots in the country, areas like 
Philadelphia, Detroit, and there's probably 20 if the averages 
cover that. And they're down--they could be down, you know, 20 
percent, that's giving us--that is contributing to the delivery 
problem that we're having.
    Mr. Gibbs. Yes. You've got challenges, and I just want to 
make that point.
    You know, I believe the vast majority of our postal workers 
are honest public servants. And the Office of Special Counsel 
has found in many instances there is political bias, back in 
the 2017 report. Back in the 2016 campaign, they were biased 
toward Hillary Clinton.
    Considering the substantial increase of mail-in ballots 
this November, what steps do you think the Post Office is 
taking to ensure that political bias does not factor in the 
delivery of ballots, from the report?
    Mr. DeJoy. I think--I have not reviewed the report, but I 
have full confidence in the 650,000 men and women of the Postal 
Service that they will handle the election mail safe and 
securely. Like the rest of the country, there are individuals 
that do things they shouldn't, and we have an inspection 
service and a management team that look for that kind of stuff. 
But I have full faith that we will deliver on a safe and secure 
election.
    Mr. Gibbs. I appreciate that. Some of the challenges you 
have in states, I know here in Ohio, the primary election, 
people could request ballots to be mailed out to them on 
Saturday before the Tuesday election, and I think that was a 
real challenge, because I think a lot of states do that.
    So, what's the Post Office doing to try and make sure--
working with states so people who realize, you know, on the 
weekend before Tuesday of the election, there might be a 
challenge of getting the ballot?
    Chairwoman Maloney. The gentleman's time is expired. The 
gentleman may answer his question.
    Mr. DeJoy. I think he asked--I couldn't hear. It was 
breaking up. But with regard to the--and that's one of the 
reasons that we are working with the state election officials 
to make sure, and to educate the public. We will be sending a 
letter out to every American, again, you know, describing our 
participation in the election process, and, again, requesting 
to request their ballot early and to vote early.
    But when it gets down to those last days, that last day, we 
will have various procedures, sweep procedures, expedited. I 
mean, I've heard stories of postal managers running ballots 
over to the election board, so we're going to do everything we 
can to make sure every ballot gets where it needs to be.
    Chairwoman Maloney. Thank you.
    Congressman Welch, you are now recognized, Congressman 
Welch.
    Mr. Welch. Thank you very much.
    And I want to thank Postmaster General DeJoy. And I want to 
thank the chairman of the board, Mr. Duncan, for your patient 
answering of our questions.
    As both of you know, it was President Nixon in 1970 who had 
signed a very major postal reform bill to guarantee the 
independence of the Post Office. And on the Postal Service 
website, its history speaks about that bill as something that 
was to, quote, "remove the Postal Service from politics." And I 
assume that both of you agree that that is an essential mission 
of the Post Office?
    Mr. DeJoy. Yes, sir.
    Mr. Welch. Mr. DeJoy, I'll ask you--all right.
    Mr. DeJoy, I have asked for a document labeled ``DeJoy 
Political Donations Chart'' to be presented, and I'd ask--I 
want to ask you a few questions about that. Mr. DeJoy, I mean, 
obviously, you have the right to make political donations 
within the law, and I have no dispute with that, but I do want 
to go through them because of these questions that are being 
raised.
    According to the Federal Election Commission records, since 
2016, you've donated $3.2 million to the Republican candidates 
and committees. Does that sound right?
    Mr. DeJoy. Sounds about right, yep.
    Mr. Welch. Yes. And the Republican National Committee was 
the beneficiary of $1.3 million in contributions, correct?
    Mr. DeJoy. Yes. I am a Republican, sir.
    Mr. Welch. Right. And you contributed $1.2 million to 
President Trump's Trump Victory Fund, correct?
    Mr. DeJoy. I would need to check that, but it sounds about 
right.
    Mr. Welch. OK. And my understanding is that in May 2019, 
you were announced as the chairman of the Republican National 
Convention fundraising committee for the Convention that was to 
take place in Charlotte. Is that correct?
    Mr. DeJoy. Yes. That is a not-for-profit foundation that I 
was selected by the Charlotte Host Committee, which is usually 
bipartisan and conventions for the city.
    Mr. Welch. Right. And you stayed on that position until 
June 12, 2020, shortly before you took over officially as the 
Postmaster General, correct?
    Mr. DeJoy. I did, sir.
    Mr. Welch. Right. And in June of--from January to April of 
this year in the run-up before you were selected as Postmaster 
General, you've provided 18 contributions in the amount of 
about $650,000 to various Republican committees, correct?
    Mr. DeJoy. You seem to have something in front of you. I 
don't know what you're looking at, but I give a lot of money--
let's go for the record, I give a lot of money to Republicans.
    Mr. Welch. Right. And let me just ask an obvious question. 
You obviously support the Republicans. That's obvious. That's 
totally within your right. You're a big supporter of President 
Trump, totally within your right. How do you square being a 
major supporter of the President and Republican committees and 
other members with the independence that's required of the 
Postmaster General? Can you really do both?
    Mr. DeJoy. Absolutely, sir.
    Mr. Welch. Well, you're aware of the fact, of course, that 
President Trump has made very hostile statements about the 
Postal Service. He called the Postal Service a joke. I assume 
you disagree with that?
    Mr. DeJoy. I do, sir.
    Mr. Welch. And he has also vehemently and repeatedly 
attacked mail-in voting, saying, and I'll quote, "mail-in 
ballots will lead to massive electoral fraud and a rigged 2020 
election." Do you agree with that?
    Mr. DeJoy. I'm in charge of delivering ballots. I don't 
really want to comment on what--that's not my responsibility, 
electoral. I'll leave that to the states.
    Mr. Welch. It's not, but would you--is it your view that if 
there is fraud, it will have nothing to do with the United 
States Postal Service?
    Mr. DeJoy. It is my view that there--if there is massive--I 
mean, if there is fraud, it will--it's our attempt not to have 
any fraud to do with the United States Postal Service, yes.
    Mr. Welch. All right. But if the mail is not delivered on 
time, and Republicans and Democrats who do vote by mail do not 
have a timely delivery of that ballot to their town clerks, 
that, in fact, will result in them being disenfranchised. Is 
that not correct?
    Mr. DeJoy. The mail will be delivered on time, sir.
    Mr. Welch. Well, we've heard that you have made significant 
reforms to try to improve Postal Service, but it's resulted in 
significant delays, and those delays coincided, of course, with 
the run-up to the election. You've heard--and you've apologized 
for that. It's not just the postal boxes, the blue boxes, the 
mail sorting machines, but you heard from Congressman Cooper 
that the requirement about----
    Chairwoman Maloney. The gentleman's time is expired, but 
the gentleman may answer the question.
    Mr. DeJoy. Thank you, Congressman. Again, I'll repeat, I 
had nothing to do with the collection boxes, the sorting 
machines, the Post Office hours, or limiting overtime. The 
change I made was ask the team to run the trucks transportation 
on time and mitigate extra trips based on a review of an IG--
OIG audit that was absolutely astonishing in the amount of 
money we were spending, and the number of late trips and extra 
trips we were running.
    It was a plan that was rolled out with operations, and it 
was a very, very important aspect of the network. It's a very--
people ask why do trucks matter? Why do on-time trucks matter? 
They do matter. It's a fundamental premise of how the whole 
mail network is put together. If the trucks don't run on time, 
the mail carriers can't leave on time. They're out there at 
night. They have to come back and get more mail. Collection 
processes are late. Plant processes are distorted.
    I see several billion dollars in potential savings in 
getting the system to connect properly, and that's why we ran 
out and put a plan together to really get this fundamental 
basic principle: Run your trucks on time. I find it really, you 
know--I would not know how to reverse that. Now, am I to say 
don't run the trucks on time? Is that the answer that we're 
looking to get me to say here today?
    Mr. Welch. I think the question was----
    Chairwoman Maloney. The gentleman's time is expired.
    Mr. Comer. The time is expired.
    Chairwoman Maloney. Now we recognize our Congressman 
Keller. You are now recognized.
    Mr. Keller. Thank you, Madam Chair.
    And I would like to thank the Postmaster General DeJoy for 
being here today.
    On July 29, 2020, the USPS general counsel sent a followup 
letter from May to 46 states, including Pennsylvania, 
expressing concern that the states' deadlines for requesting 
and casting ballots by mail do not fit with the Postal 
Service's delivery standards.
    Mr. DeJoy, can you confirm that these letters and outreach 
to state election offices is something USPS has done in the 
past under previous Postmasters General?
    Mr. DeJoy. Yes, this has been done in the past. I looked at 
a letter a couple of--about a week ago that was sent out, you 
know, before the 2016 election also. But we have intensified 
the effort to work with the election boards and to communicate 
with the election boards to help them gain more knowledge on 
what our process is. It's really been amazing to me in this 
experience how many people don't--in high places, don't really 
understand what a--you know, how we use a postmark.
    Mr. Keller. Yes, I would agree with that. Also, the 
Democrats have been making a lot of noise about these letters 
your general counsel sent to state election boards. I'd like to 
clear this up. In the letters to the states, does the USPS say 
that they will not deliver ballots this November?
    Mr. DeJoy. No, sir.
    Mr. Keller. Do they say that--do the letters state that the 
USPS will not, or cannot process ballots this November?
    Mr. DeJoy. No, sir, it doesn't.
    Mr. Keller. Do they say that the voters should not vote by 
mail?
    Mr. DeJoy. No, sir, it doesn't.
    Mr. Keller. OK. Specifically, the letter recommends that 
votes--or voters' mail, people voting by mail, should complete 
their ballots no later than--complete and submit their ballots 
no later than October 27 to comply with Pennsylvania--or to 
comply.
    Pennsylvania would need to change current law, which allows 
voters to request a ballot as late as Tuesday, October 27, to 
ensure that the USPS can deliver completed ballots in time to 
be counted by Election Day on Tuesday, November 3, 2020, by 8 
p.m. as is required under Pennsylvania law.
    Do you agree that Pennsylvania should move the application 
deadline for mail and absentee ballots back, for example, on or 
around October 19 to request the ballot in order to ensure 
voters can receive their ballots in time and complete them and 
return them no later than Tuesday, October 27 as recommended by 
the Postal Service's general counsel?
    Mr. DeJoy. I didn't catch all of the details on that----
    Mr. Keller. Well, basically----
    Mr. DeJoy [continuing]. But it would be best if the state 
election boards followed the recommendations of our general 
counsel to ensure that every ballot--we're still going to do 
everything that we need to do, but I don't know why we would 
want to put this in conflict, this very important process in 
democracy.
    And I don't know why we should have--take any chance other 
than have a properly integrated system between election boards 
and the Postal Service. And that's all the general counsel and 
the team that supports them is trying to do, make people aware 
why would we want to put more risk in the system than is 
necessary?
    Mr. Keller. Well, Pennsylvania law states that, you know, 
the ballots are to be received by November 3 by 8 p.m. Anybody 
that's reasonable--I mean, I'm 55-years-old, and I've used the 
Postal Service for the past 37 years to deliver my mail, to pay 
my bills, to do everything. And I don't wait until the day the 
bill is due to mail the check.
    I mail it in enough time, knowing that it's only reasonable 
that I have to walk to the mailbox, I have to put in the 
mailbox, somebody has to come collect it, it has to be put in a 
car or on a plane and taken to another place to be processed 
and delivered. It's only reasonable that states should take 
into account when they set up their laws.
    So, I'm going to keep moving on because there's another 
point I would like to get to also. Governor Tom Wolf recently 
announced that Pennsylvania will cover the cost of postage for 
every mail-in ballot this year.
    The United States Postal Service handbook for area mail 
processing guidelines states that postmarks are not required 
for mailings bearing a precanceled stamp for postage. In other 
words, envelopes with prepaid postage that Pennsylvania send 
with the ballots to be returned, will they be postmarked?
    Mr. DeJoy. We're going to work to try and set up a process 
to postmark as much as we can.
    Mr. Keller. Is it currently the process----
    Mr. DeJoy. Prepaid postage--processes that prepaid postages 
do not get postmarked.
    Mr. Keller. So, it could, if nothing were to change, which 
the chairwoman's bill said you can't change anything--so if 
nothing were to change, you wouldn't be able to postmark those 
letters?
    Mr. DeJoy. Yes. If we didn't make a special effort to 
postmark prepaid mail, we would not be postmarking. Now, we 
have certain other ways of identifying election mail, which is 
how we have done in the past to try and postmark the things. 
But they're not seamless efforts, so----
    Mr. Keller. You would have to make some adjustments to be 
able to make sure that's secure?
    Mr. DeJoy. Yes, sir.
    Mr. Keller. I would sincerely hope that the chairwoman of 
this committee would have thought of that, and that would have 
been the value of having this hearing before she introduced a 
bill saying you can't make any changes, because you're trying 
to do things to make sure that the items you handle are done in 
time. So, I do appreciate that.
    One thing, Postmaster General, can you guarantee that you 
will deliver every ballot to the people when they request them 
and every ballot when it's returned?
    Mr. DeJoy. I guarantee we will use every effort of 650,000 
people that work at the organization to fulfill that 
obligation.
    Mr. Keller. You won't change anything this election that 
you've done previously?
    Chairwoman Maloney. The gentleman's time is expired.
    Mr. Keller. Thank you.
    Chairwoman Maloney. The gentleman can answer the question.
    Mr. DeJoy. I think I did.
    Chairwoman Maloney. Congresswoman Speier is recognized. 
You're now recognized.
    Ms. Speier. Thank you, Madam Chair. I have two documents 
I'd like to submit for the record, one from the Postal Service 
on the reorganization, and one from Citizens for Responsibility 
and Ethics in Washington.
    Chairwoman Maloney. Without objection.
    Ms. Speier. Thank you.
    Ms. Speier. Mr. DeJoy, thank you so much for being here 
today. You have answered some questions about your 
contributions to the President. You also contributed $586,000 
to attend a dinner for him in February of this year. Is that 
correct?
    Mr. DeJoy. I don't think so, no.
    Ms. Speier. Well, there's records that show you did.
    Your wife has also been nominated to be the Ambassador to 
Canada. Is that correct?
    Mr. DeJoy. She is, yes.
    Ms. Speier. All right. Mr. Duncan, wherever you are?
    Mr. Duncan. Yes.
    Ms. Speier. Mr. Duncan, you have also been active in 
President Trump's campaign, and as the director of American 
Crossroads super-PAC. Is that correct?
    Mr. Duncan. I'm the director of the American Crossroads 
Super PAC, yes.
    Ms. Speier. And you've contributed over $1.9 million to 
President Trump's campaign?
    Mr. Duncan. That's not correct.
    Ms. Speier. Not you personally, but the PAC?
    Mr. Duncan. I don't know the answer to that.
    Ms. Speier. Well, the records show that.
    So, you're both vested in making sure that the President 
gets reelected. Is that correct?
    Mr. DeJoy. I'm not here to talk about the President's 
election. I'm here to talk about the Postal Service issues.
    Ms. Speier. OK. Mr. Duncan, how much did the Postal Service 
pay Russell Reynolds to be the company to look for a 
replacement?
    Mr. Duncan. I don't have that number. I would be happy to 
try and provide it for you.
    Ms. Speier. All right. In your own testimony, you said they 
started with 212. They then vetted 50 and they got down to the 
first-round interviews and there were 14, but Mr. DeJoy was not 
one of them. So, we paid this company to do a national search 
for the replacement for the USPS Postmaster General. He was not 
in that group. But Mr.--I guess Mr. Barger said, well, we have 
another candidate. Did you recommend Mr. DeJoy as a candidate?
    Mr. Duncan. Let me go back on your premise that he wasn't 
included. We were still taking recommendations at that point in 
time before the first interview process had gone in. So, he----
    Ms. Speier. All right. Mr. Duncan, just answer the 
question. Did you recommend Mr. DeJoy as a candidate?
    Mr. Duncan. I gave Mr. DeJoy's name as a candidate as I did 
with other candidates. I submitted it through the process.
    Ms. Speier. All right. But he was not part of what was 
provided to you by the search firm.
    Let's move on. Mr.--the President has been very critical of 
Amazon and the contract they have with the Postal Service, Mr. 
DeJoy. Have you reviewed that contract?
    Mr. DeJoy. I have not reviewed the contract specifically in 
any detail, no.
    Ms. Speier. Well, but you did offer some testimony, I 
believe, in the Senate that suggested that you had, in fact, 
reviewed it, and that you thought that----
    Mr. DeJoy. No.
    Ms. Speier [continuing]. The rates were----
    Mr. DeJoy. The question was about rates. There's a 
contract. Contracts are thick. We--I'm studying the rate-
building process of the Postal Service on the NSAs. That's what 
I----
    Ms. Speier. So, you did look at Amazon's rates?
    Mr. DeJoy. I did look at Amazon's rates, yes.
    Ms. Speier. All right. On your statement of financial----
    Mr. DeJoy. As well--as long as hundreds of other----
    Ms. Speier. I understand. In your statement of financial 
disclosure, you sold your Amazon stock on June 22, I believe, 
and then you purchased options on Amazon on June 24. That would 
suggest to almost anyone that there's a conflict of interest. 
It doesn't require that you make a decision. It only requires 
that you participate.
    Did you check with the Government Office of Ethics to see 
if that was appropriate?
    Mr. DeJoy. Before I went into--in the Postal Service, you 
file your forms the day you arrive at work. I filed my forms. I 
was going to a meeting on Amazon. I owned stock someplace in 
the call at Morgan Stanley. And I was--they told me I had to 
either recuse myself from reviewing a number of contracts or 
sell the stock. I called our broker to sell the stock. We 
actually had calls----
    Ms. Speier. So, Mr. DeJoy, I'm going to have to----
    Mr. DeJoy. But I did not buy options. I actually bought 
covered calls.
    Ms. Speier. It's on your statement.
    Mr. DeJoy. I bought covered calls back at a loss. That's 
what I did to get completely out of the stock. I had to unwind 
covered calls.
    Ms. Speier. You still have those calls, do you not?
    Mr. DeJoy. No. I had to pay more money for the calls than I 
sold them for. I think you should get an understanding of what 
a covered call is before you accuse me of any improprieties.
    Ms. Speier. All right. I think--let me just ask one last 
question. Have you removed any machines that automate the 
postmarking process?
    Chairwoman Maloney. The gentlewoman's time has expired.
    Mr. DeJoy. I have not removed any machines.
    Chairwoman Maloney. The gentlewoman's time has expired. The 
gentleman may answer.
    Mr. DeJoy. I have not--I'll repeat again for the hundredth 
time, I have not removed any machines.
    Ms. Speier. Well, that's separate from the sorting 
machines.
    Chairwoman Maloney. Congresswoman Miller, you are now 
recognized.
    Mr. DeJoy. Any machines. I'll repeat, I have not removed 
any machines.
    Chairwoman Maloney. Congresswoman Miller, you are now 
recognized.
    Mrs. Miller. Thank you, Madam Chair. Can you hear me?
    Chairwoman Maloney. Yes, we can.
    Mrs. Miller. OK. And thank you, Ranking Member Comer. And a 
special thank you to our esteemed guest today for taking the 
time to participate in this so-called hearing.
    Postmaster DeJoy and Chairman Duncan, my constituents in 
rural West Virginia rely on the Postal Service to receive their 
essential prescriptions, their mail, and their packages. Thank 
you for your continued work during the pandemic to ensure that 
these critical services continue.
    In a year that is riddled with conspiracy theories, such as 
baseless claims of Russian collusion, we are wasting another 
hearing opportunity to attack our duly elected President over 
the most blatant and verifiably false claim that Republicans 
are destroying the United States Postal Service.
    This couldn't be further than the truth. Everyone knows 
that the Postal Service needs a serious overhaul, but bailing 
out our Postal Service without instituting any necessary 
reforms is not the answer. Democrats here today are doing a 
great disservice to our postal workers and undermining American 
confidence in our electoral process.
    The Postmaster General has said repeatedly that the USPS 
will have no difficulty delivering ballots, but my colleagues 
across the aisle place the blame on the Postal Service instead 
of their own states' incompetence to properly hold their own 
elections.
    The USPS can handle the absentee and mail-in ballots from 
the 2020 election and has enough money to remain solvent well 
into next year, giving the Postmaster General and Congress time 
to work on a solution to put the USPS back on a sustainable 
path.
    While all of us here today recognize that the Postal 
Service is an essential duty of the Federal Government, there 
seems to be only one party that is serious about making sure 
that it works effectively for the American people.
    Postmaster DeJoy, on average, how many pieces of mail does 
the United States Postal Service deliver in a day?
    Mr. DeJoy. About 451 million pieces, ma'am.
    Mrs. Miller. Thank you. If every single eligible voting age 
American voted by mail in a single day, about 153 million or 
so, would the United States Postal Service be able to ensure 
that these pieces of mail were delivered?
    Mr. DeJoy. I think we have adequate capacity to handle the 
mail, the election, yes.
    Mrs. Miller. And you would be able to do this without 
significant impact to your normal day-to-day operations?
    Mr. DeJoy. You're asking me on one day. I have not done 
that analysis. But the way ballots flow throughout the week, we 
would--we handle it--we would handle it very easily.
    Mrs. Miller. Thank you. However, you cannot control what 
deadlines states set in terms of requesting and returning 
ballots or how long it takes for these election boards to count 
the ballots to call a race. Isn't that correct?
    Mr. DeJoy. Yes, ma'am.
    Mrs. Miller. We saw huge delays in election results in New 
York, as I'm sure the chair is well aware. The core issue why 
you are here today, Mr. Postmaster General, is to ensure that 
every American has their right to vote fully protected.
    What is becoming abundantly clear is that the Trump 
administration, Republicans in Congress, and the USPS are not 
obstacles to that right. Rather, you are helping to ensure 
voting access despite incompetence and partisanship on the part 
of a great many state election officials across the country.
    Last week, a scathing analysis by NPR found that at least 
550,000 mail-in ballots were rejected in the Presidential 
primary elections earlier this year. Of those, nearly half 
those rejected ballots came from New York, New Jersey, and 
California, where there isn't a single Republican in statewide 
office.
    This November, we must ensure that all Americans can and 
should be able to vote safely in person at their local polling 
locations; and those that do need absentee ballots can and 
should be able to vote securely through the USPS, as they have 
in past elections.
    I hope my colleagues and our counterparts at the state 
level heed the recommendation of the USPS on how to execute 
this undertaking, free from politics and partisanship.
    I yield back my time.
    Chairwoman Maloney. The gentlewoman yields back.
    I now recognize--Congresswoman Kelly, you are now 
recognized.
    Ms. Kelly. Thank you, Madam Chair.
    I've been on this committee for over seven years, five 
years in the minority. The hypocrisy around how witnesses are 
treated and around the post office is astounding.
    Thank you for being here, Mr. DeJoy.
    Small businesses are a vital part of the United States 
economy. They represent nearly 75 percent of all employers and 
account for 44 percent of all economic activity. Small 
businesses, many without significant savings or access to 
credit, have relied on the Postal Service to stay afloat during 
this pandemic. The Postal Service plays an important role, as 
you know, in enabling their growth and commercial success.
    Last Friday, you testified before the Senate committee, and 
I quote, "you feel bad about the dip in our service." Well, 
there are a few businesses that feel pretty bad too. Cassidy 
Lavender, a Louisiana business owner, was forced to abandon the 
Postal Service after losing nearly $10,000 due to his shipping 
delays. Beth Nolan, a Michigan business owner, had to fire an 
employee to recoup the cost spent making up for her delivery 
delays. A 2013 OIG report found that small businesses are a key 
customer segment for the Postal Service, generating more than 
$9 billion in annual revenue.
    Before implementing the numerous operational changes 
discussed here today, were there any analysis performed on the 
impact such changes would have on these key customer--on this 
key customer segment?
    Mr. DeJoy. There was--there was not numerous operational 
changes. There was one request that we adhere to our 
transportation schedule. And I did not perform any operational 
analysis myself, but we had a team looking at how we would plan 
to roll out the change. And that team was across the whole 
country, an existing team, not a new team.
    And I'm unaware--I don't know how much analysis we would 
need to do to comply with our schedules that were already 
established.
    Ms. Kelly. Thank you. It seems decisions were made without 
taking into account the real world impacts. A beauty salon in 
my district has not received mail for a week to 10 days. The 
owner is concerned about bills that might be delivered late, 
which can have a terrible impact on their business. Another 
person I spoke to said she received her--she receives her mail 
now every other day and still hasn't received a check she's 
relying on.
    When I went to the post office myself to mail a package, 
the postal workers there said, we know who you are and we just 
want to apologize, but we're just doing what we're told. I 
didn't get those phone calls when President Obama was the 
President.
    Will you commit here today to reversing any policy or 
practice that has the effect of slowing down mail and package 
delivery? I represent the Chicagoland area, and I'm hearing 
from postal people themselves, and they want you to address the 
lack of staffing and the late start times, which they feel has 
greatly impacted the delivery of the mail.
    Mr. DeJoy. Ma'am, we're very concerned about every delayed 
package or piece of mail, and we are also very interested in 
fostering the support of small business. What I can tell you is 
we're working very hard to get the standards back to where they 
were before. There are a variety of issues that are 
contributing to this, not just the requiring the trucks to 
leave on time, but we are working across the country to improve 
service.
    Ms. Kelly. My district is urban, suburban, and rural. You 
know, my colleagues have asked for something in writing and I 
would support that, that we need to see something in writing, 
not just promises.
    An estimated 14.5 million rural Americans who lack access 
to reliable internet rely on the Postal Service to meet their 
basic needs, including receiving life-saving medications, 
collecting paychecks, and paying their bills. It is important 
that rural Americans have access to reliable and affordable 
delivery services. Or are they too inefficient to service, 
since we talk about we're trying to be efficient? Are they just 
forgotten about?
    Mr. DeJoy. No, ma'am, they're not forgotten about. We are 
working to deliver to every American on a timely basis.
    Ms. Kelly. Well, your chase for operational efficiency has 
been at the expense of hardworking Americans, and I hope you 
will take these concerns into account as you assess some of 
your decisions from the past 70 days and beyond.
    Mr. DeJoy. I very much do, ma'am. And the changes I am 
making are for the betterment of the Postal Service and the 
American people long term. We lose $10 billion a year and 
there's no end in sight. We have $145 billion in liabilities 
and 10--$14 billion in cash.
    So, we can sit--you can blame me for this, but these 
conditions have been around long before my time and they need 
to be addressed.
    Chairwoman Maloney. The gentlewoman's time has expired. 
Congressman Green, you are now recognized.
    Mr. Green. Thank you, Chairwoman and Ranking Member.
    Today, Democrats are pushing the conspiracy theory that 
President Trump has put the Postal Service in great jeopardy. 
This is just more hysteria in a long line of Democrat hoaxes, 
including the Russia probe, the Mueller investigation. Remember 
Adam Schiff? He saw with his own eyes proof of Russian 
collusion. I guess he must have kept that from Mueller. Oh, who 
can forget the impeachment sham, by the way, attacking the 
President's loans, his business associates, of course, his tax 
returns. They have nothing to offer the American people but 
attacks on the man they despise, Donald Trump.
    The postal union should realize--and I know they've 
endorsed Joe Biden, but they should look at this. The Democrats 
are throwing the postal carriers under the bus just to get at 
Trump. It's despicable. If the Postmaster General's donations 
are a conflict to his doing a good job, wouldn't the postal 
union's millions in donations over the years to Democrats 
disqualify them from delivering the mail?
    Message to all postal workers, the Democrats are insulting 
your integrity. Weaponizing the House Oversight Committee to 
fuel Speaker Pelosi's postal conspiracy theory is an outrageous 
abuse of power. Don't be fooled by the partisan rhetoric.
    The reality is the USPS has the money they need in the near 
term, certainly through the election. The Postal Service has 
the most cash on hand it's had in years, and it has access to a 
$10 billion CARES Act loan that it has not even tapped into 
yet. But, oh, we had to come back this weekend to vote on more 
money for the USPS.
    The Postal Service will prioritize ballots over other mail. 
They will process election mail as first-class mail, regardless 
of the postage used. And Postmaster General DeJoy has assured 
the American people, and I quote, "The United States Postal 
Service is fully capable and committed to delivering the 
Nation's election mail securely and on time," end quote. The 
Democrat attacks on the Postal Service are baseless.
    Now, the Postal Service has been losing some money, $8.8 
billion last year. A big reason for these budget deficits is 
the evolution of technology, the internet. First-class mail is 
down.
    This issue significantly predates the Trump administration, 
but now, due to the pandemic, online business is booming, 
package volume through the roof. Package revenue this year 
increased $2.9 billion compared to Fiscal Year 2019. In other 
words, the Postal Service has made more revenue in the pandemic 
than it did in the last period--or the same period last year.
    USPS is in no immediate fiscal danger. On June 30, the 
board said that they have, and I quote, "significant liquidity 
to continue operating through at least August 2021," end quote. 
Postmaster DeJoy has said, "I don't need anything to deliver 
mail on election night, but we do need legislative reform. We 
need freedom from a change in the Postal Regulatory Commission 
regulation, and we do need to be reimbursed for our costs," end 
quote.
    The fact is the Postal Service well prepared for the 
election? Yes. Postmaster General DeJoy has had a long career 
in logistics, unanimously selected for the post by the Board of 
Governors, which has two Democrats, by the way. He's 
implemented commonsense cost-cutting measures to address the 
problems.
    Saturday's bill, which passed, tries to halt those reforms 
and operational changes. Well, in the short term, the Postal 
Service will be fine. Reforms must eventually be instituted to 
ensure solvency.
    As far as these protesters outside the home of the 
Postmaster General, these protesters, who are banging pots and 
pans, intimidating and bullying the Postmaster, it's terrible, 
it's unconscionable, but completely in line with the book-
burning, police eye-lasing criminals who are destroying lives, 
destroying property in Democrat-controlled cities. But, hey, 
that's who they are now.
    Let's not call the Congress back to fix the lost 
unemployment in a pandemic, but let's call the Congress back to 
vote to give the post office more money they don't emergently 
need before we even hold the investigative committee hearing, 
all to support a conspiracy theory that a bipartisanly selected 
Postmaster General is trying to steal an election.
    This is theatrics. It's a joke. What a way to end the 
Democrat majority's time leading the House, another conspiracy 
theory and attack on the President. Typical. Actually, it's 
saddening. Our postal workers are quite capable and they are 
ready for the 2020 election.
    Madam Chairwoman, with that, I yield.
    Chairwoman Maloney. Congresswoman Lawrence. You are now 
recognized, Congresswoman Lawrence.
    Mrs. Lawrence. Thank you, Madam Chair.
    Postmaster General, shortly after you took the office, I 
reached out to schedule an introductory call with no agenda in 
particular, just to share my experiences as a career postal 
employee to kind of welcome you to the seat, but my request was 
turned down. I was told you needed your time to get acquainted 
with the agency and that you did not have time to have that 
meeting.
    But I've seen since you've been in office, the time to get 
acquainted to make these really, really impactful decisions on 
delivery and processing of the mail, you were comfortable with 
doing so.
    I want to ask you, Mr. DeJoy, are you familiar with chapter 
1 of 39 U.S. States Code?
    Mr. DeJoy. No, I'm not.
    Mrs. Lawrence. OK. The United States--the Code reads: The 
United States Postal Service shall be operated as a basic and 
fundamental service provided to the people by the Government of 
the United States, authorized by the Constitution, created by 
Act of Congress, and supported by the people.
    Mr. DeJoy, did you take an oath of office when you became 
the Postmaster General?
    Mr. DeJoy. I did, ma'am.
    Mrs. Lawrence. I remember when I took my oath of office 
when I was sworn in to be an employee of the Postal Service. 
And to just tell you my journey, because I'm sure you're 
familiar with some of the names. I started as a distribution 
clerk working tour one. Then I moved to being a letter carrier, 
then to being an acting supervisor, then a supervisor of 
delivery and collection. I served in HR. I served in safety and 
health. I served as an EEO investigator. I had the entire state 
of Michigan in a district role of the Women's Program and for 
career counseling and development.
    And I ended my career after several task forces that were 
put on to monitor and to track the mail before we made 
decisions like taking out equipment, density counts. As a 
supervisor of delivery, I know what it took to remove a post 
office box. It's called a collection box. It's not a blue box, 
it's a collection box.
    So, I wanted to talk to you about--have you ever served as 
a letter carrier?
    Mr. DeJoy. First off, ma'am, I congratulate you on your 
career path. And, no, I have never served as a letter carrier.
    Mrs. Lawrence. So, I did, sir. So, the Postal Service is 
introducing a new initiative called Expedited to Street/
Afternoon Sortation, and it reduces the morning office time to 
allow carriers to leave for the street earlier. And then upon 
returning from the streets, the carriers are then to sort any 
undelivered mail for the next day.
    Are you aware what that initiative that you have rolled 
out, the impact it has on delivery carrying?
    Mr. DeJoy. The intent--that was a program that was on the 
shelf. The intent of that program is to adjust for--there's 
been a significant decline in mail, as you know, and to--the 
standards had not been adjusted. That was worked out with union 
leadership to run--to run a pilot.
    The pilot--I stopped the pilot when I stopped everything 
else. So, the intent of it is to get the carriers out earlier 
so they can come back earlier. That's basically--in the day.
    Mrs. Lawrence. Well, Mr. DeJoy, I really stress that you do 
some deliberate work to understand the impact that it has, 
because if a carrier does not come back--because this is the 
challenge that we have all the time. A carrier, if he has only 
one piece of advertisement, must stop at every home.
    So, regardless of the volume, if you're making the same 
amount of stops, you're not going to shorten the time. And so 
when you do that, the carrier is going to be out basically the 
same amount of time, and so when they come back, you're 
delaying the mail.
    We have--I have complaints in my office from people getting 
delivery one day a week now, sir. That is not according to your 
oath. That is not according to what the chapter 1 of 39 says 
your role is.
    I want to--in my short period of time, Madam Chair, I was 
interrupted, I would just like to end this with some of my 
colleagues have said this is a theater, why are you here? Well, 
you're here because the citizens of the United States rely on 
the Postal Service to deliver, our seniors, our veterans.
    One thing is clear. You have been a major supporter of the 
President, as documented. I don't resent you for that. You have 
that right. But when you are getting messages daily in tweets 
that the Postal Service says, we don't make a deal, they don't 
get the money. The money means that you won't have universal 
mail-in. I want you to know that you have an oath of office.
    Chairwoman Maloney. The gentlewoman's time has expired.
    Mrs. Lawrence. And I expect for you and the American people 
expect for you to uphold it.
    Thank you, Madam Chair.
    Mr. DeJoy. And, ma'am, I will live up to that oath.
    And if I can expand on your question with regard to the 
expedited process, that would not result in one-day-a-week mail 
across--in any area. We do have some employee availability 
issues in some of the hot spots across the Nation where we 
have--as you would know, we could have 700 routes and only 500 
carriers. And it's forcing----
    Mrs. Lawrence. For crying out loud, why would you implement 
that then at this time?
    Mr. DeJoy. I didn't implement anything to affect that. I 
did not implement anything to affect that. That would not--the 
expedited----
    Mrs. Lawrence. But you're adding fuel to the fire, and 
that's the point I'm making.
    Mr. DeJoy. I'm trying to--I'm committed to six-day 
delivery. I am committed to growing the Postal Service. I have 
ideas for new business opportunities for the Postal Service. 
And I am trying to--in the Code it also says we must be self-
sustaining, and we're not. And that's what I'm trying to do.
    Thank you, though, and, again----
    Chairwoman Maloney. In the interest of time, the gentleman 
has been testifying for quite a long time, and we are now going 
to have a recess for five minutes. Recess for five minutes.
    [Recess.]
    Chairwoman Maloney. The committee will now reconvene.
    Congresswoman Plaskett, you are now recognized.
    Ms. Plaskett. Thank you very much, Madam Chairwoman, and 
thank the witness for being here.
    Mr. DeJoy, first, before I have that discussion with you, 
my line of questioning, hearing my colleague just a little 
earlier talking about abuse of power was just such an 
outrageous statement, and what he said was an abuse of power.
    I think we in Congress are here to ensure that there is no 
abuse of power in any of the branches of government. And when 
he talks about the collusion, we see that when the Senate 
Republicans finally get off of their butts and do their job, 
eventually there is corroboration to some of the work that 
happens here in the House. At least the House is going to do 
its job. And there are issues that need to be addressed here 
today, and that's what we're going to do.
    So, Postmaster DeJoy, your general counsel, Thomas 
Marshall, said: ``We are currently unable to balance our costs 
with available funding sources to fulfill both our universal 
service mission and other legal obligations.'' That letter went 
on to outline a number of drastic operational changes that are 
being attempted to implement in the name of cost-cutting.
    You have spoken here today about the measures that need to 
take place. And in one instance you're saying how you want to 
get those done, and then I also hear you saying as if it was 
not you or you're not responsible for the changes that have 
been made.
    In your August 13 email to all postal employees, you took 
credit for the changes that have been made. Here's what you 
said. You took credit and you said also: "Unfortunately," 
quote, "this transformative initiative has had unintended 
consequences that impacted our overall service levels." That 
was your email. Is that correct, Mr. DeJoy?
    Mr. DeJoy. It sounds like it was, yes.
    Ms. Plaskett. OK. And as a transformative initiative, it's 
fair to say that these changes were intended to have a 
meaningful impact. Is that correct?
    Mr. DeJoy. Yes, ma'am.
    Ms. Plaskett. And these changes are happening across 
several states and across the country?
    Mr. DeJoy. I don't know what you're reading from.
    Ms. Plaskett. The transformative changes that you all have 
intended as cost-cutting measures.
    Mr. DeJoy. No, it was not cost-cutting measures, right. The 
two changes I made was the organization and complying with the 
schedule.
    Ms. Plaskett. And those transformative changes have 
happened across states, several states?
    Mr. DeJoy. Every state a truck moves in, yes.
    Ms. Plaskett. OK. So, that would be several states, yes. 
Thank you.
    I have a slide that I'd like to show about first-class 
mail. If you can see from the slide, this is a U.S. Postal 
Service slide, it discusses the presort first-class mail. It 
appears that there's been a decline since July.
    This slide reflects nationwide numbers. Would you agree 
with that, Mr. DeJoy?
    Mr. DeJoy. Yes, it does.
    Ms. Plaskett. And clearly, an eight percent drop in on-time 
mail is a meaningful impact. And the headlines from across the 
country that the committee has collected show how widespread 
these delays are.
    Would you agree that there are delays presently?
    Mr. DeJoy. There are delays, yes.
    Ms. Plaskett. Thank you. I know in my own district, which 
relies heavily on the mail because we cannot drive to different 
big boxes or other locations, being an island, Leonadie Blake 
(ph), her Cigna prescriptions usually take three to five days, 
have taken two weeks. Shannon DeSig (ph), who runs a small 
retail store in St. John, usually 10 days max for priority, 
which is kind of long for priority but we are an island, and 
now takes weeks. Ivan Jacobs, priority mail typically takes 
four days. It's now taking 12 days. Sherrolyn Stapleton's 
summer college program items have disappeared. It goes on and 
on and on.
    Now, 39 U.S.C. Section 3661(b) provides: ``When the Postal 
Service determines that there should be a change in the nature 
of Postal Services which generally affect service on a 
nationwide or substantially nationwide basis, it shall submit a 
proposal, within a reasonable time prior to the effective date 
of such proposal, to the Postal Regulatory Commission (PRC) 
requesting an advisory opinion on the change.''
    Now, you have agreed with me in previous questions that 
this has been a change that has substantial nationwide basis, 
it generally affects postal services, and that it is a change 
in the nature of Postal Service which generally affects service 
on a nationwide substantial basis.
    Have you, sir, submitted a request for an advisory opinion 
to the Postal Regulatory Commission?
    Mr. DeJoy. A request for an advisory opinion on asking the 
organization to adhere to their transportation schedules is not 
required.
    Ms. Plaskett. I didn't ask you about the transportation 
schedules. I asked you----
    Mr. DeJoy. That's the only change that----
    Ms. Plaskett. If I may finish my statement, sir, I'll let 
you finish yours.
    That when a Postal Service determines there should be a 
change in the nature of Postal Services which generally affects 
service on a nationwide or substantially nationwide basis, the 
changes that have occurred or have had a meaningful impact on 
service, one, under Buchanan v. U.S. Postal Service, the three 
factors for legal requirements are a meaningful impact on 
service, a change that must be in the nature of Postal 
Services, and a change which would, quote, "affect a broad 
geographic area." Is that not the case?
    Chairwoman Maloney. The gentlelady's time has expired. The 
gentleman may answer.
    Mr. DeJoy. Thank you. The change that was made was not 
expected to have the impact it had for the duration of the 
period that it had. But it also did not contribute to 10-and 
12-and two-week delays. Mail that was processed that didn't 
make it on the truck would have gone on the next truck.
    If you look at that chart, you would see that as soon as we 
went into day plus one, we were back up into the 90 percentile. 
There were other factors that are contributing to excessive 
delays throughout the country for these longer delays.
    Ms. Plaskett. Yes. COVID----
    Mr. DeJoy. Yes, ma'am.
    Ms. Plaskett [continuing]. As well as others. And the fact 
that you instituted----
    Chairwoman Maloney. The gentlelady's time has expired.
    Ms. Plaskett [continuing]. These impacts after that is 
happening to this country really questions your logistics 
expertise.
    Chairwoman Maloney. The gentlelady's time has expired.
    Mr. DeJoy. We--we are working very, very hard across the 
whole country to get all the mail on the trucks, and we are 
seeing rapid recovery. And we will--once this is put back in 
balance, we will have a better system and a much more cost-
effective system.
    Chairwoman Maloney. The Congresswoman's time is expired.
    Congress Member Gomez, you are now recognized, vice chair 
of the committee, Congressman Gomez.
    Mr. Gomez. Thank you so much, Madam Chair.
    I want to focus on the change that you take credit for, 
which is making sure that the trucks have gone out on time. So, 
I'm going to read a series of questions. Most of them at the 
beginning are yes/no.
    You instituted a change to sharply reduce extra mail 
delivery trips by, quote, "requiring trucks to run on time and 
on schedule," correct?
    Mr. DeJoy. Yes, sir.
    Mr. Gomez. And referring to this new delivery schedule, you 
told the Senate, quote, "Our production processing within the 
plants was not fully aligned with the established schedule so 
we had some delays in mail," correct?
    Mr. DeJoy. Yes, sir.
    Mr. Gomez. Mr. DeJoy, when precisely did you implement the 
change requiring the trucks to leave on time, the date?
    Mr. DeJoy. It was the second week, I think the second week 
of July.
    Mr. Gomez. Second week of July. Thank you, sir.
    So, you told the Senate that the U.S. Postal Service did an 
analysis showing these changes theoretically would mean, quote, 
"all late deliveries would have been improved." Then you told 
Senator Rosen that didn't happen, quote, "for a variety of 
reasons." Then you continued, quote, "The analysis we did would 
show that we would improve service to every constituent."
    Can you briefly describe the variety of reasons that that 
did not happen?
    Mr. DeJoy. You confused me. I----
    Mr. Gomez. Basically, the fact that you said that this 
would actually improve the delivery of mail on time. You said 
that that would happen. And then later on, you said, for a 
variety of reasons that did not happen. What are those variety 
of reasons?
    Mr. DeJoy. So, the--this will improve service and reduce 
cost substantially. And it will also be the fundamental 
baseline of operation, you know, for the Postal Service----
    Mr. Gomez. Mr. DeJoy, I'm going to reclaim my time.
    I'm asking you specifically, because you said this in the 
beginning of your testimony. You said for a variety of 
reasons----
    Mr. DeJoy. Specifically, one of the--so a variety of 
reasons has to do why mail delivery is down across the Nation. 
With regard to this specific change, the production schedules 
within the plants were not aligned with the transportation 
schedules going out--going between the plants.
    That was a--there was about 10 percent of the mail was not 
aligned. The production plants were getting done late and the 
trucks were--the trucks were leaving. This was not a mandate 
that every truck leaves on time. We still have a significant 
amount of trucks that run delay and a significant amount of 
extra trips.
    Judgments were made at each individual plant that did not--
that provided for transitional issues in doing it. We will get 
this back. We're working it very hard, and it will be a 
successful endeavor for the United States Postal Service.
    Mr. Gomez. Well, that's what we're hoping.
    Mr. DeJoy, you couldn't make this commitment to the Senate 
on Friday, so I'm going to ask you again. Do you commit to 
providing the analysis that you used regarding the truck 
schedules that would show that there will be lower late 
deliveries? Would you provide that to us by Friday?
    Mr. DeJoy. I will go back and see what I can----
    Mr. Gomez. I have it for you right here. This is what you 
said. I can read it. Quote----
    Mr. DeJoy. OK. Well, I'll go back and look too. And if it 
said that and I have something, I'll send it to you.
    Mr. Gomez. I kind of highly doubt that you're going to do 
that, but----
    Mr. DeJoy. Why would you doubt? Why would you do that?
    Mr. Gomez. Because you're not very forthcoming.
    You also told the Senate: ``Our recovery process''----
    Mr. DeJoy. I'm here, sir.
    Mr. Gomez [continuing]. ``In this should have been a few 
days and amounted to be a few weeks.'' Why have days turned 
into weeks?
    Mr. DeJoy. I'm trying to figure that out.
    Mr. Gomez. So, what I find interesting is that you're 
supposed to be some logistics expert, right? That's what you've 
been brought in. That's what people have said, that--and then 
all of a sudden you said, OK, we're going to get these trucks 
to leave on time.
    But you didn't focus on getting the mail to the people on 
time, and that you said that that would actually improve, 
right? You would reduce late deliveries. But the opposite 
happened. And then you would say that it would take only a 
matter of days to fix, but that didn't happen, right?
    Mr. DeJoy. Uh-huh.
    Mr. Gomez. I know people that work in operations. My wife 
works in operations, very good at it. And they're looking at 
data all the time, all the time, and seeing what little 
operational changes can be done to change the flow of whatever 
you're trying to accomplish, right? So, that's what people are 
questioning your ability, right?
    I actually talked to a lot of postal workers in Los 
Angeles. I represent Los Angeles. I was out there, and they 
said that the delay in the packages, these changes is causing 
mail to back up. Where you have baby chickens that are being 
left in boxes that are going silent, that are starting to rot, 
food that's starting to rot, flies that are starting to infest 
the facilities. And they brought up the same fact, that they 
take an oath, an oath to get the mail out on time. They're 
asking are you living up to that oath, right?
    I was actually avoiding following other colleagues who 
called on you to resign, but I do think now it's time for you 
to resign, not because you're necessarily--there's this grand 
political conspiracy, but just the incompetence that we've seen 
when it comes to the Postal Service. It's time for you either 
to step down and have somebody that can run it or the Board of 
Governors should fire you.
    I yield back.
    Chairwoman Maloney. The gentleman yields back.
    Congresswoman Ocasio-Cortez, you are now recognized.
    Ms. Ocasio-Cortez. Thank you very much, Madam Chairwoman. 
And thank you to Postmaster DeJoy for coming in and offering 
your testimony today.
    Mr. DeJoy, when your announcement in your new position as 
Postmaster General was announced, you know, there were some 
folks that were flagging concerns that you would be the first 
Postmaster General in two decades without previous experience 
or service directly in the USPS. But to be fair, and as you 
mentioned, you do have extensive career experience in supply 
chain logistics, correct?
    Mr. DeJoy. I do.
    Ms. Ocasio-Cortez. And, in fact, you served as CEO of your 
own supply chain company, New Breed Logistics, for 30 years, 
correct?
    Mr. DeJoy. I did.
    Ms. Ocasio-Cortez. And that was up until about 2014, when 
you merged New Breed Logistics with another company, XPO 
Logistics, where you also served as CEO for a year and then 
served on its board of directors until about 2018, when you 
submitted your resignation, correct?
    Mr. DeJoy. Yes.
    Ms. Ocasio-Cortez. Now, I would like--Madam Chairwoman, I 
would like to submit to the committee three documents for the 
record: The Postmaster's new entrant report detailing his 
financial disclosures, publicly available data detailing the 
USPS top suppliers for the last three years, and the recent XPO 
SEC filings.
    Now, Mr. DeJoy----
    Chairwoman Maloney. Without objection.
    Ms. Ocasio-Cortez. Thank you.
    Mr. DeJoy, you received about $1.86 million in rental 
payments from your former company, XPO, correct?
    Mr. DeJoy. Approximately, yes.
    Ms. Ocasio-Cortez. Have you taken any meetings with XPO 
Logistics since becoming Postmaster General?
    Mr. DeJoy. I have not.
    Ms. Ocasio-Cortez. Have you emailed, texted, called, video 
conferenced or communicated with your former company XPO 
Logistics?
    Mr. DeJoy. I have many friends at the company, and I've 
spoken to them casually over those several months. Yes, I 
probably would have spoken to them.
    Ms. Ocasio-Cortez. Thank you. Now, you started in your role 
as Postmaster General on June 16 of this year. That's a very 
big job, I don't need to tell you that, and it has a lot of 
responsibility. You mentioned meeting with President Trump, 
Secretary Mnuchin. I can't even imagine how busy that must be.
    Now, do you keep a daily calendar?
    Mr. DeJoy. I do, yes.
    Ms. Ocasio-Cortez. Have you or your staff made any 
deletions to your calendar since becoming Postmaster General on 
June 16?
    Mr. DeJoy. I don't--I don't think so.
    Ms. Ocasio-Cortez. You don't think so? Have--do ethics 
officers at USPS have access to your calendar to screen 
conflicts of interest?
    Mr. DeJoy. We have an ethics officer that looks at meetings 
that I have, yes.
    Ms. Ocasio-Cortez. And they have full access to your 
calendar?
    Mr. DeJoy. They will work--yes.
    Ms. Ocasio-Cortez. Can we get a commitment from you to 
submit your calendar dating back to June 16 to this committee?
    Mr. DeJoy. I don't know. I'll check with counsel.
    Ms. Ocasio-Cortez. Well, you know----
    Mr. DeJoy. I don't want to set a precedent for my calendar 
to be submitted every two months.
    Ms. Ocasio-Cortez. Well, according to regulations that we 
currently have, electronic calendars that are submitted and 
maintained on USPS computers are agency records. And so can we 
get your commitment to hand that calendar over to this 
committee as a matter of course for investigation?
    Mr. DeJoy. If that is in fact--I'm new to this. If that is 
in fact a process that our counsel says I must comply with, 
then I will do that, yes.
    Ms. Ocasio-Cortez. Thank you.
    Madam Chairwoman, I would say the details of this calendar 
are extraordinarily important to the committee's 
investigations. And if we cannot receive them voluntarily, I 
would recommend consideration of a subpoena for these details.
    Now, last and selfishly--I represent New York's 14th 
congressional District--we have written the agency several 
times regarding accessibility for a ramp in our historic 
Jackson Heights Post Office. And I would greatly appreciate 
return correspondence to make sure that we can ensure that our 
disabled and elderly constituents can get access to the post 
office. Thank you very much.
    I yield my time.
    Mr. DeJoy. Thank you.
    Chairwoman Maloney. The gentlelady yields back.
    Congresswoman Pressley. Congressman Pressley followed by 
Mr. Armstrong. You are now recognized, Congresswoman Pressley.
    Ms. Pressley. Thank you, Chairwoman Maloney.
    While some of our colleagues might use this hearing to 
continue to gaslight and mislead our constituents, I am here to 
get to the truth. The American people deserve that.
    To direct the systemic slowdown of mail delivery during a 
pandemic within months of a national election is 
incomprehensible. At best, these actions represent 
irresponsible leadership from a novice who has absolutely no 
business leading a government agency. At worst, they are cruel, 
unethical, and antidemocratic. And this is certainly no way to 
repay the 600,000 dedicated and brave employees who risk their 
lives every day to deliver essential mail.
    The Postal Service is one of the largest employers of 
veterans and has one of the most diverse work forces in our 
country. Forty percent of postal workers are people of color, 
and for generations, working for the USPS was one of the only 
living wage jobs accessible to Black and Brown Americans. No 
doubt, many of these families have a personal story of how the 
USPS job made it possible for them to buy their first home or 
to send their child to college.
    Now, it is well-documented that many of these same families 
have been disproportionately impacted by the COVID-19 pandemic 
and will bear the brunt of any effort to dismantle the USPS.
    So, Mr. DeJoy, in the interest of time, yes or no, at your 
direction, the Postal Service is currently under a management 
hiring freeze, yes or no?
    Mr. DeJoy. At management level, yes.
    Ms. Pressley. For the record, Mr. DeJoy, does the hiring 
freeze apply to any other category of workers?
    Mr. DeJoy. No, ma'am.
    Ms. Pressley. And you are also seeking to push early 
retirement, correct?
    Mr. DeJoy. We submitted----
    Ms. Pressley. Yes or no?
    Mr. DeJoy. Yes, yes.
    Ms. Pressley. Mr. DeJoy, 40,000 postal workers have had to 
quarantine. Over 6,000 have tested positive and over 60 have 
died from COVID-19. Do you know if these numbers are the most 
accurate and up to date?
    Mr. DeJoy. Eighty-three have died.
    Ms. Pressley. And so to be clear, does this mean that you 
are collecting in real time formal data on COVID-19 and its 
impact on your work force?
    Mr. DeJoy. We have a task force that has complete 
visibility of everything from PPE to cases, cases in the 
geographical area, cases within the Postal Service.
    Ms. Pressley. So, you do have a mechanism whereby you are, 
in real time, formally collecting data as to the impact of 
COVID-19 on your work force?
    Mr. DeJoy. Yes, we do.
    Ms. Pressley. OK. In the greater Boston region alone, more 
than 220 Postal workers have contracted COVID-19. A letter 
carrier in Chelsea, a city in my district, was hospitalized and 
was told by his doctors that his respiratory system would never 
be the same.
    Mr. DeJoy, will you commit to providing this committee with 
the data that you say you are already formally collecting, 
disaggregated by congressional district, on COVID-19-related 
deaths, positive tests, and quarantines of postal workers by 
Friday, since this is, quite literally, a matter of life and 
death? Can you commit to that, to providing this committee with 
data, disaggregated by congressional district, on COVID-19-
related deaths, positive tests, and quarantines of postal 
workers by Friday?
    Mr. DeJoy. I will look into our ability to provide that to 
the Congress, and if it's available, will certainly do it. I 
don't----
    Ms. Pressley. It would certainly be in keeping with the 
oath that you took and what you've offered here, so I look 
forward to receiving that by Friday.
    Now, a few days ago before the Senate, you said the delays 
in delivery are attributable to, quote/unquote, "employee 
availability in many, many parts of the country."
    So, isn't it true that pursuing a hiring freeze and early 
retirement when your work force is already stretched thin by 
coronavirus would exacerbate delays in the mail, yes or no?
    Mr. DeJoy. Pursuing a hiring freeze has to--did not have 
anything to do with the----
    Ms. Pressley. Yes or no? Your work force is already thin.
    Mr. DeJoy. No, no, no, no, no.
    Ms. Pressley. Mr. Duncan, were you aware when you 
selected--where is Mr. Duncan?
    Mr. DeJoy. He's not here.
    Ms. Pressley. OK. Here you go. OK. Mr. Duncan?
    Mr. Duncan. Yes, Congresswoman.
    Ms. Pressley. I was just looking to direct myself.
    OK. Were you aware when you selected Mr. DeJoy that his 
company New Breed Logistics was determined by the National 
Labor Relations Board to have acted with antiunion animus, yes 
or no?
    Mr. Duncan. No.
    Ms. Pressley. Were you aware that the Equal Opportunity 
Commission won a $1.5 million lawsuit against New Breed for 
sexual harassment and retaliation, yes or no?
    Mr. Duncan. No.
    Ms. Pressley. Were you aware that four women working for 
New Breed suffered miscarriages because the company refused to 
accommodate their request for light duty, yes or no?
    Mr. Duncan. No.
    Ms. Pressley. Did you make any attempt to investigate these 
labor and employment practices before making him the head of 
one of the largest and most diverse Federal work forces? If 
not, why not?
    Mr. Duncan. Yes, we have various background checks. Russell 
Reynolds hired a D.C. firm to do an additional background check 
on him. We worked----
    Ms. Pressley. Well, I question the--I question the 
integrity of that background check if you don't have answers to 
these questions.
    Chairwoman Maloney. The gentlelady's time has expired.
    Ms. Pressley. And, Mr. DeJoy, the hardworking people of the 
United States Postal Service deserve a better leader. In my 
opinion, the only thing you should be delivering is your 
resignation.
    Chairwoman Maloney. Congressman Armstrong, you are now 
recognized for five minutes.
    Mr. Armstrong. Thank you, Madam Chair.
    I'm the last one on our side that gets to go, so I'm going 
to ask probably the most important question of the day. We 
passed $25 billion from the U.S. House of Representatives 
yesterday, and if you don't get that money that we passed on 
Saturday, will the post office be fully operational on November 
3?
    Mr. DeJoy. Yes, we'll be fully operational.
    Mr. Armstrong. Thank you. I sat right there in that chair 
in April 2019, the last time that we had a hearing on the post 
office and postal reforms. And we listened for a day as we 
heard about the systemic problems, all of the consequences, the 
years long of losing money and all the strategic disadvantages 
that exist in the post office.
    And something happened. The witness in your seat at that 
time managed to do something which is unique in this committee, 
and she drew equal opportunity criticism from both sides of the 
aisle.
    Now, just to be clear, you weren't the Postmaster General 
in April 2019?
    Mr. DeJoy. No, I was not.
    Mr. Armstrong. I was on a telephone briefing in April 2020, 
when we heard about the impacts of COVID, from overtime to your 
postal workers contracting the disease, and where the Democrats 
of this committee absolutely said that we needed $25 billion or 
the postal office wouldn't exist. And I do want to say I'm 
sorry for the 83 people who have died and all the people in 
your organization that have been sick.
    I didn't agree with it then and I don't agree with it now, 
but to be clear, you weren't the Postmaster General in April 
2019, were you?
    Mr. DeJoy. No, sir, I wasn't.
    Mr. Armstrong. I'd ask unanimous consent to submit the 
memorandum from April 2019--or 2020.
    Chairwoman Maloney. Without objection.
    Mr. Armstrong. So, then we got to ask what this is about. 
And what it's about is driving fear, placing blame, and 
probably, most significantly, raising money. But it's not about 
raising money for the post office; it's about raising money for 
elections.
    And I have here DCCC, DNC, Members of Congress, Members of 
Senate all running ads on the post office. You know what? About 
saving the post office. None of these ran in 2019. None of 
these ran in April 2020. So, we're asking for the same thing we 
asked for in April 2020, and we've waited until August to run 
these things.
    In fact, your organization had to issue a cease and desist 
to MoveOn.org, did they not?
    Mr. DeJoy. I'm not aware. I think I heard something about 
that.
    Mr. Armstrong. I'm going to ask unanimous consent to issue 
the post office record on a cease and desist to MoveOn.org.
    Chairwoman Maloney. Without objection.
    Mr. Armstrong. I love your organization. I love your 
carriers. I love your rural carriers. I was the only Republican 
on this committee to cosponsor the prefunding bill on the 
pension bill.
    The best thing I've heard you say all day is you're 
committed to six-day mail, because maybe one of the reasons 
we're not as disproportionately impacted in North Dakota is 
because we've been going through this for a long time. So, 
that's the best thing I have heard all day long.
    But I do have a couple questions. And you have talked about 
making sure the elections and doing all of that. But some of 
this is based on--I mean, you're talking about votes as they 
come in throughout the system, right?
    So, North Dakota, 23 percent of their votes is typically 
absentee ballot. Ohio, pretty important state, 21 percent of 
their ballots is typically absentee. Wisconsin, 28 percent. 
Now, I don't think it's beyond the realm of possibility that 
those numbers get to 60 percent this election cycle. Would you 
agree with that?
    Mr. DeJoy. They're going to be a great deal higher.
    Mr. Armstrong. But you cannot deliver a ballot unless it's 
requested? If a voter doesn't request it, the post office can't 
send it?
    Mr. DeJoy. That's true. But in places where they--I don't 
know the particular state rules, but there----
    Mr. Armstrong. And that's what I'm getting to. I mean, and 
so if the ballot's tracked throughout the course of this in the 
normal way that works. But Wisconsin doesn't require you to 
request a ballot until October 29, and they're required to be 
due back on 11/3. The difference between 28 percent and 60 
percent is about 2.9 million ballots.
    Ohio, the difference between 21 percent and 60 percent is 
about 2.1 million ballots. And they don't require you to 
request one till October 31, and it is due back on the 2nd.
    North Dakota, my state, who got one of these letters, 
doesn't require you to postmark your ballot until November 2 
for the election. And the difference between 23 percent and 60 
percent would be 126,327 ballots.
    So, my question for you is, how are we going to deal--I 
mean, how do you possibly deal with different capacity issues 
as it exists there?
    Mr. DeJoy. Sir, the capacity to handle is not really going 
to be the issue. The issue is going to be, as with the dates 
that you identified, as we get closer, the--we can have--we've 
had situations where when the ballots come in on the same day, 
the turnaround time is so slow that we need to really scour and 
look amongst all the other 450 million pieces of mail, find 
ballots and make sure they get delivered and postmarked.
    And the problem comes in when once we do that, we get it 
over to the state election boards, and it's what they decide to 
do with the timing and everything with the ballot that is 
whether the ballot gets counted or not.
    Mr. Armstrong. And then I just have one last question that 
actually doesn't relate to elections or anything. But you have 
seen an increase in packages volume at the United States Postal 
Service since the pandemic began. And we've seen a decrease in 
first-class mail over the course of time. Our law firm went 
from $30,000 a year to zero.
    But is there some--are you looking into, because you're 
making more of a profit on packages, that you may be 
prioritizing packages versus first-class mail?
    Mr. DeJoy. There's no--there's a lot of judgment used in 
each location, and one of the things I'm trying to get my hands 
around and--but the general intent is what comes in comes out, 
according to its class, right. So, if it's a first-class 
package, it would move, you know, ahead. So, there's no 
specific direction to--you know, to do everything.
    And I appreciate your support on the six-day-a-week 
delivery. I think there are many, many ideas we're working 
internally right now to help really connect with the American 
people in a new economy and grow some revenue and achieve 
sustainability. So, thank you.
    Mr. Armstrong. Thank you.
    Chairwoman Maloney. The gentleman's time is expired.
    Congresswoman Tlaib, you are now recognized.
    Ms. Tlaib. Thank you so much, Madam Chair.
    Welcome to the people's House, Postmaster General DeJoy. My 
residents and I don't have a tremendous amount of time, so I 
really would appreciate straightforward answers to the 
questions I have.
    As a lawyer, Mr. DeJoy, I believe that it is incredibly 
important that all the citizens, especially public servants 
leading major Federal agencies, are fully aware of and 
understand fully the law. Do you agree, yes or no?
    Mr. DeJoy. Yes.
    Ms. Tlaib. Good. Then as an educational exercise and to 
ensure everyone here is clear on the law, I'd like to start by 
paraphrasing 18 U.S. Code Clause 1701, which says whoever 
knowingly and willfully obstructs the passage of mail shall be 
fined under this title or imprisoned not more than six months 
or both. I recommend that you and your lawyers familiarize 
yourself with this passage in particular, but as well as 18 
U.S. Code Clauses 595 and 610.
    So, Mr. DeJoy, let's look at how you came to work for the 
impeached President. Before this role, you have never worked in 
the Federal Government as a public servant, correct?
    Mr. DeJoy. That's correct.
    Ms. Tlaib. So, clearly, you were not hired for your 
experience or deep understanding of the Federal Government. So, 
let's see what experience you do have, your resume, so to 
speak.
    Before becoming the Postmaster General, you were for a time 
deputy national fundraising chairman for the GOP, and since 
2016, you've donated approximately $1.2 million to this 
impeached President's campaign and groups that support him.
    On June 24, 2020, you bought between 50,000 and 100,000 in 
what you refer to as, quote, "covered calls in the Amazon 
Corporation." But let's be very clear, Mr. DeJoy. No matter 
what financial maneuvering you performed to try to hide it, the 
fact is that you have financial interest in Amazon.
    So, Mr. DeJoy, yes or no, are you aware that Amazon uses 
the U.S. Postal Service for 40 percent of its shipping?
    Mr. DeJoy. I disagree with the premise that I bought stock 
and----
    Ms. Tlaib. Do you know that they do 40 percent of its 
shipping?
    Mr. DeJoy. I know that it does a lot of shipping with us, 
yes.
    Ms. Tlaib. OK. And I understand that your Amazon calls--
covered calls expires in about October of this year. So, you 
will have to make a decision regarding this financial interest 
and may potentially have sensitive information about Amazon's 
business with the U.S. Postal Service which may influence that 
decision. This appears to be a classic example of conflict of 
interest/insider trading.
    Yes or no, will you commit right now to divest any and all 
financial interest in Amazon to avoid illegal insider trading?
    Mr. DeJoy. Ma'am, that was a lot of time on an issue that 
doesn't matter. I don't own any Amazon stock.
    Ms. Tlaib. You have a financial interest. You can call it 
whatever you want.
    Mr. DeJoy. I don't own anything with Amazon.
    Ms. Tlaib. It is a financial interest.
    Mr. DeJoy. You can continue to----
    Ms. Tlaib. Until you do that, your financial interest in 
Amazon will continue to be problematic and illegal and a 
conflict of interest. Regarding this matter, you have a simple 
choice, Mr. DeJoy. You can either resign or divest in that 
interest.
    It is very clear that you have vested interest in seeing 
the President remain in office, and your financial interest in 
Amazon demonstrates a clear conflict of interest that would be 
gravely concerning even if you weren't in the process of 
dismantling the Postal Service, which you are.
    I've heard from a number of carriers, a number of people in 
my Postal Service that completely conflict with what you're 
saying to us in this committee. Over the past few weeks, I've 
heard from folks that have said that not only are significant 
delays from changes you've made, but some of them have been 
critical medications, again, due to the delays of your actions.
    I'd like to remind you that unlike in the private sector, 
Mr. DeJoy, where you served your own self-interest, your job as 
Postmaster General is not to serve your own profit schemes on 
the taxpayer's dime. You are to serve the United States Postal 
Service, its workers, and the American people.
    This impeached President, Mr. DeJoy, you have to realize 
has a track record of employing crooks who end up in a lot of 
trouble for their illegal activities, Mr. DeJoy: Rick Gates, 
Paul Manafort, Mike Flynn, Michael Cohen, Roger Stone, Steve 
Bannon. With all due respect, you are not in good company right 
now. So, do the right thing and resign.
    I thank the Madam Chair for bringing this to our attention.
    And please, on behalf of the 13th congressional District, 
all we want is for our folks to have access to a qualified 
Postmaster General that understands the importance of 
medication, understands that the workers need protection at the 
workplace, and that we are going to actually get mail delivered 
on time. Because what we hear on the streets, Mr. DeJoy, is 
completely the opposite of what you're saying to us. And you've 
done so much damage in just the short period of time that 
you've been there. And I do believe there's a conflict of 
interest, and you need to understand there are legal 
consequences to that.
    Thank you, Madam Chair.
    Chairwoman Maloney. The gentlelady's time has expired.
    Congresswoman Porter, you are now recognized. Congresswoman 
Porter.
    Ms. Porter. Mr. DeJoy, thank you for being with us today. 
What is the cost of a first-class postage stamp?
    Mr. DeJoy. Fifty-five cents.
    Ms. Porter. Just wanted to check. What about to mail a 
postcard?
    Mr. DeJoy. I don't know, ma'am.
    Ms. Porter. You don't know the cost to mail a postcard?
    Mr. DeJoy. I don't.
    Ms. Porter. What if I want to mail a--you said 55 cents for 
a first-class stamp, but what if it's like one of those 
greeting cards that's a square envelope. Then what is the 
postage?
    Mr. DeJoy. I'll submit that I know very little about a 
postage stamp.
    Ms. Porter. What is the weight limit--you are more in the 
shipping logistics business. What's the weight limit for 
priority mail?
    Mr. DeJoy. Seventy pounds.
    Ms. Porter. And what is the starting rate for U.S. Post 
Office--USPS priority mail?
    Mr. DeJoy. The starting rate for what?
    Ms. Porter. USPS priority mail.
    Mr. DeJoy. Starting weight, 14 ounces.
    Ms. Porter. No, the rate, the price.
    Mr. DeJoy. I don't know. I don't know.
    Ms. Porter. Do you know about--within a million or so, can 
you tell me how many people voted by mail in the last 
Presidential election?
    Mr. DeJoy. No, I cannot.
    Ms. Porter. To the nearest 10 million?
    Mr. DeJoy. I will----
    Ms. Porter. Is that a no, Mr. DeJoy?
    Mr. DeJoy. I would be guessing, and I don't want to guess.
    Ms. Porter. OK. So, Mr. DeJoy, I am concerned--I'm glad you 
know the price of a stamp, but I'm concerned about your 
understanding of this agency. And I'm particularly concerned 
about it because you started taking very decisive action when 
you became Postmaster General. You started directing the 
unplugging and destroying of machines, changing of employee 
procedures, and locking of collection boxes.
    As a professor, I've always told my students that one of 
the most important rules in life is to read the instructions. 
Did you actually read and independently analyze the major 
overhaul plans before you ordered them to take effect?
    Mr. DeJoy. Again, I will repeat that I did not order major 
overhaul plans. The items you identify were not directed by me. 
I did--and we don't need much analysis to run the trucks to a 
schedule.
    Ms. Porter. Reclaiming my time, Mr. DeJoy. Could you please 
tell me who did order these changes if U.S. Postmaster General 
did not? Because these changes have resulted in--and you have 
said yourself in this hearing----
    Mr. DeJoy. The Postal Service has been around for 250 
years. There were plans--there are many, many executives, 
almost 30,000 executives within the organization----
    Ms. Porter. Reclaiming my time, Mr. DeJoy.
    Mr. DeJoy [continuing]. And there were plans that existed 
prior to my arrival that were implemented.
    Ms. Porter. Reclaiming my time, please. Mr. DeJoy, if you 
did not order these actions to be taken, please tell the 
committee the name of who did.
    Mr. DeJoy. I do not know.
    Ms. Porter. Mr. DeJoy, did you analyze these plans before 
they went into effect? You as Postmaster General supervise 
whomever did apparently direct----
    Mr. DeJoy. As I stated numerous times, the plans were in 
effect and being implemented before I arrived.
    Ms. Porter. But, Mr. DeJoy, do you take responsibility for 
these changes?
    Mr. DeJoy. I take responsibility from the day I sat in this 
seat for any service deterioration that has occurred. You're 
asking about operational changes that go on----
    Ms. Porter. Reclaiming my time.
    Mr. DeJoy [continuing]. Throughout the whole organization 
around the country. I don't----
    Ms. Porter. Mr. DeJoy, I'm reclaiming my time, sir. Mr. 
DeJoy, will you commit to reversing these changes?
    Mr. DeJoy. No.
    Ms. Porter. Mr. DeJoy, will you commit to--if the 
independent--I want to switch to conflicts of interest quickly. 
Will you commit that, if the inspector general finds that you 
committed misconduct with regard to your financial interest in 
any other company, such as XPO Logistics or Amazon, will you 
commit--if the inspector general finds that you committed 
misconduct, will you commit to then resigning?
    Mr. DeJoy. I don't believe they will find misconduct, but I 
don't see why I would commit here right now to resigning for 
any reason.
    Ms. Porter. You don't think there's any reason that you 
should ever resign?
    Mr. DeJoy. No reason that I've heard here today.
    Ms. Porter. OK. Mr. DeJoy, do you today--this has been--
you've gone back and forth a bit. I want to ask one final 
question. Do you own any financial interest, whether options or 
stocks, covered calls, bought or sold, do you own today any 
financial interest in Amazon?
    Mr. DeJoy. I do not.
    Chairwoman Maloney. The gentlelady's time has expired. The 
gentleman may answer the question in more detail if he wishes.
    The chair now recognizes the vice chair, Congressman Gomez, 
for the purpose of a unanimous consent request.
    Mr. Gomez. Madam Chair, I'm asking unanimous consent to 
enter into the record the transcript of Mr. DeJoy's testimony 
in the Senate on August 21 where he specifically says, 
``Senator, I will go back and get the truck schedule, the 
analysis that designed the truck schedule that I directed.''
    Chairwoman Maloney. Without objection.
    Chairwoman Maloney. The chair now recognizes Congressman 
Quigley. You are now recognized, Congressman Quigley.
    Mr. Quigley. Thank you, Madam Chair.
    Thank you, sir, for being so patient. I too am not 
accustomed this long in to being at the end of the questioning, 
but it does afford us an opportunity to try to put this in the 
larger picture. You know, one side says blame; the other side 
says accountability. And doing what you did in the private 
sector, you recognize accountability.
    Appreciate the fact that it would be hard to sense that you 
are accepting it now. You've accepted the responsibility for 
the delays, but we are still not clear what exactly--what 
changes took place and what were yours.
    Under Mrs. Lawrence's questioning, you said you stopped the 
pilot program when you stopped everything else. Let me ask you, 
what in your mind were you stopping besides the pilot program?
    Mr. DeJoy. I stopped the removal of collection boxes around 
the country. I stopped the process of reducing hours at postal 
retail centers, and I stopped the removal of the flat and mail 
sortation boxes--machines.
    Mr. Quigley. So, your argument for doing that is that you 
saw that--your argument for doing that was that it wasn't 
working or----
    Mr. DeJoy. No. They were--it just--I met with the Speaker 
and Senator Schumer, and we just collectively thought about the 
heightened discussion that was going on around the Nation and 
for----
    Mr. Quigley. And, respectfully, sir, why that and not the 
overtime issues and not the sorting machines? I mean, why did 
you pick those and not the others, which seem to have pretty 
dramatic impacts? Given the fact that things didn't go well, 
wouldn't you want to look back, coming from the private sector, 
and say, ``Gee, maybe that is impacting us negatively''? Was 
there some other reason you're thinking, ``Well, no, I'm not 
going to change those''?
    Mr. DeJoy. Not change the truck schedule and the----
    Mr. Quigley. The overtime, the sorting machines.
    Mr. DeJoy [continuing]. Overtime. I have spent $700 
million--we have spent $700 million----
    Mr. Quigley. You recognize that there are many, including 
in my district, post office locations which are cutting back on 
overtime. They're following somebody's order, and you won't 
mention who that is. So, back to accountability, you've got to 
admit you own it, right?
    Mr. DeJoy. How do you know that they're cutting back on 
overtime?
    Mr. Quigley. Well, imagine--let me put it another way. Are 
you certain that they're not cutting back on overtime?
    Mr. DeJoy. The direction was given to stop--to cut back--
stop cutting back on overtime in postal retail centers.
    Mr. Quigley. When was that given?
    Mr. DeJoy. So, am I certain? I haven't done an audit yet, 
but I would believe they're pretty compliant.
    Mr. Quigley. Wait. When was that order given? Was that part 
of the order you just talked about?
    Mr. DeJoy. I don't know what you're asking me.
    Mr. Quigley. Are you saying, when you stopped everything 
else, it included the overtime issue as well?
    Mr. DeJoy. It was--there was no directive to reduce 
overtime anywhere within the organization. Overtime----
    Mr. Quigley. And are you certain that no one was cutting 
back on overtime?
    Mr. DeJoy. No, I'm not certain. That's part of the problem 
at the Postal Service, sir. That's what I'm trying to get my 
hands around. There is a lot of--and that's why I did the 
reorganization. There is a lot of----
    Mr. Quigley. Respectfully, you could imagine though that--
--
    Mr. DeJoy. There's a lot of judgment made----
    Mr. Quigley. You're taking----
    Mr. DeJoy [continuing]. In local areas that is not a 
normal----
    Mr. Quigley. You're being selective on what you're taking 
credit for and not. And a cynical person could say you're just 
trying to avoid going before the regulatory body because these 
aren't changes. But when your own--as you say, you're a 
Republican. When your own party says, did you stop these 
changes, you said yes. And in your documents, you talk about 
the fact that there were changes. You can't have it both ways. 
There were changes. You seem to have a line there that you 
don't want to have because it means you have to go before the 
regulatory board, and you don't want to do that.
    Mr. DeJoy. It sounds like a weak----
    Mr. Quigley. It sounds like what happened.
    Mr. DeJoy. It sounds like a weak theory to me.
    Mr. Quigley. Did anyone in the administration--have you 
communicated with anyone in the administration since you were 
considered for this spot about how to operate USPS?
    Mr. DeJoy. No.
    Mr. Quigley. No one has communicated with you who works in 
any way with the Trump administration, and you haven't 
communicated in any way with anyone who works in the Trump 
administration or the Trump campaign about how to operate the 
post office?
    Mr. DeJoy. The only time I communicated with someone in the 
Trump administration was Secretary Mnuchin when we were 
negotiating the terms of the $10 billion note. And my 
discussion in generality was early on in my arrival and in 
generalities were that I, you know, I think that we have some 
opportunities here looking to try and grow revenue, improve 
service, and get some cost out.
    Mr. Quigley. And what was the direction the other way?
    Mr. DeJoy. It was no direction. The Postal Service is mine 
to run. It was no direction.
    Mr. Quigley. My time has expired.
    Chairwoman Maloney. Your time has expired.
    Before we adjourn, I really want to thank you very much for 
your time. You've been here all day. And--oh, wait a minute. Is 
she here? She's virtual. OK. I saw her earlier. There's one 
more Member of Congress who has waved on from the great state 
of North Carolina. It's Alma Adams. She was here, but she is 
now virtual.
    Alma Adams, you are now recognized. Alma Adams, are you--I 
assume she's not here with us now. It doesn't appear that she's 
here now.
    But before we adjourn, I have a few items that I'd like to 
wrap up with the witness. And, also, I would like to grant 
Ranking Member Comer all the time that he may want to consume, 
and he will get that opportunity once I am finished. I'll move 
through this quickly in the interest of time.
    She is here? Is she remote? So, she is getting on.
    My apologies to you, Mr. DeJoy.
    Congresswoman Adams, you are now recognized. Congresswoman 
Adams, can you unmute yourself? We're waiting for Alma Adams.
    Mr. Comer. Mr. DeJoy, you may want to hire the Democrats' 
computer guy to help deliver the mail on time.
    Chairwoman Maloney. I apologize for the delay. We were 
trying to accommodate really from your home state North 
Carolina who wanted to question you.
    So, Mr. DeJoy, on Friday, Senator Peters asked you if you 
had discussed the changes to postal operations with President 
Trump, Mark Meadows, anyone else at the White House, and--or 
anyone in the campaign, and you said no. I believe that Mark 
Meadows has accompanied you to meetings on Capitol Hill. And 
for the record, do you stand by your statement that you have 
had no conversations with Mark Meadows about any changes in 
postal operations?
    Mr. DeJoy. I'm trying to remember the answer that I gave. 
Mark Meadows accompanied Steven Mnuchin and myself and Senator 
Schumer and Speaker Pelosi. We were in the room, and then we 
started talking about machines and--I mean, from the standpoint 
of that conversation there. Mark Meadows was there. After I 
left--we shut the thing. We--and then we had a discussion about 
when we made the decision here at the Postal Service to stop, 
you know, stop the processes with regard to the sorting 
machines and so forth. I can't remember when I spoke to him 
about that, but I was speaking to--I called the Speaker. I 
called Senator Schumer. We--I think we reached out to your 
office. So, on that particular process, we spoke about the 
stopping that we were doing.
    With regard to my change--the changes with regard to the 
organization and with regard to the truck schedule, I didn't 
speak to anybody about that.
    Chairwoman Maloney. OK. Have you spoken to anyone else at 
the White House at any time about changes to postal operations?
    Mr. DeJoy. No, ma'am, I haven't.
    Chairwoman Maloney. OK. So, if you didn't consult with 
these people--or should we go to Alma Adams? She's now ready to 
talk. Alma? Alma Adams? Should we now go to Alma Adams? Alma, 
you are now recognized. I apologize. Alma Adams, you're 
recognized.
    Ms. Adams. Madam Chair, can you hear me?
    Chairwoman Maloney. Yes, we can hear you, and we can see 
you.
    Ms. Adams. Well, thank you very much, and I apologize. 
There was some issue on this side. But thank you for convening 
the hearing.
    Thank you, Mr. DeJoy, for being here today.
    I want you to know that my office, sir, has received almost 
5,000 calls and emails asking Congress to save the Postal 
Service. As a matter of fact, the people love the Postal 
Service. They rate the Postal Service over 91 percent, more 
than any candidate I know.
    Now, I don't live in the country club. I represented 
Guilford County for about 50 years, and I'm representing the 
12th District in Charlotte now. But the folks I represent can't 
afford their medication to come late. They can't afford for 
their ballots to come late, and they can't afford for their 
voices to be silenced. They need the U.S. Postal Service. And 
let's be clear: You have been charged with running a Postal 
Service, Mr. DeJoy and not a business.
    But I've got a photo of my post office in Charlotte. But, 
Mr. DeJoy, bless your heart, are you getting your mail on time, 
sir?
    Mr. DeJoy. I do not know.
    Ms. Adams. OK. Well, I heard you say in your opening that 
you did not direct the removal of sorting machines and postal 
collection boxes, and you indicated you didn't know who was or 
who was doing that. But since you are in charge, I think it 
would be helpful with all the questions that have been asked 
for us to know that.
    But since I'm mentioning this blue box thing, in my 
district here, the boxes have been covered with trash bags. I 
don't understand that, and I don't know if you know anything 
about it, but do you?
    Mr. DeJoy. I do not.
    Ms. Adams. And there's a photo.
    Mr. DeJoy. I do not know anything about it.
    Ms. Adams. OK. Well, it's in the post office that I go to, 
and it's the main post office, and if you can find out, I would 
appreciate that.
    Mr. DeJoy. Yes, ma'am.
    Ms. Adams. But I did visit the center yesterday, the Scott 
Futrell posting distribution center on Friday, and I was told 
that the USPS senior management said that you don't all foresee 
having any influx of election mail going into the election of 
November 3. Is that correct?
    Mr. DeJoy. I didn't hear the question.
    Ms. Adams. In other words, you're not going to have an 
influx of election mail going into November. Is that correct?
    Mr. DeJoy. I don't know how--what--I don't know how anybody 
would say that. I think, as we move to the election, we'll have 
election mail, and we'll be able to handle it.
    Ms. Adams. Well, seven machines are missing and been 
removed from Charlotte. And we have a demand in North Carolina 
for--of almost 400,000 people requesting their mail-in ballots; 
in my district, 53,000. So, do you know about the sorting 
machines that are missing in my district?
    Mr. DeJoy. I do not know specifically about sorting 
machines missing in your district.
    Ms. Adams. All right. You also said that because you didn't 
have anything to do with that and you came on and you accepted 
what was here. So, are you--do you think you can be helpful in 
at least putting things back? I know you said that that's not 
something you wanted to do. But considering all of the 
testimony today, all of the stress that citizens are going 
through, not getting their mail, not getting their medications, 
things getting spoiled, insulin, those kinds of things, do you 
think you could have a second thought about that, Mr. DeJoy?
    Mr. DeJoy. First off, we are--as I said, we're all very 
concerned about each delivery. My goal right now is to have 
these truck trips filled with mail, and we're seeing a great 
deal of improvement. And I believe we'll be--with regard to the 
transportation, we will be in much better shape over the next 
week.
    Ms. Adams. OK. Let me stop you right here because I don't 
want to know about that part. I wanted to know if you're having 
any second thoughts. I certainly hope that you would.
    So, let me ask you about the--on August 18, you announced 
an expansion of the Postal Service leadership task force. On 
the 21st, the Board of Elections announced the bipartisan mail 
committee. Is this initiative different from the task force 
that you announced on the 18th, Mr. DeJoy?
    Mr. DeJoy. No. We--so, to be clear, we had a task force--
there was a task force at the Postal Service before I arrived. 
After review, I expanded the task force to include the union 
leadership. And then the Board--we were at a Board meeting--
decided just to show the connectivity of the board to the 
management team through the 650,000 workers that we're all--to 
represent to the American public that we're all together on 
guaranteeing that we would have a safe and secure election.
    Ms. Adams. OK. Let me reclaim my time here for a moment and 
as you----
    Chairwoman Maloney. Congresswoman, your time is expired.
    Ms. Adams. OK. Thank you, Mr. DeJoy.
    Chairwoman Maloney. I will allow Mr. DeJoy to elaborate 
more if you'd like----
    Mr. DeJoy. No.
    Chairwoman Maloney.--but your time is expired.
    Ms. Adams. All right. I just want to know if he would allow 
you and the ranking member to appoint a staffer to participate 
at least as an observer on this committee.
    Chairwoman Maloney. Well, I'm going to let him reply in 
writing because our time is expired right now.
    Ms. Adams. Yes, ma'am.
    Chairwoman Maloney. But I think that's a good request, and 
I'm sure he'll give it good consideration.
    Now, Mr. DeJoy, so, if you did not consult with these 
people about the operational changes, we are also interested in 
who you did consult with before making these changes. The 
unions have raised concerns that they were not adequately 
consulted, for example.
    So, my question is, will you provide this committee with a 
complete list of the people you did consult with about the 
changes, people inside the Postal Service, at other agencies, 
and any outside parties in the government or in the private 
sector? Will you provide us with that complete list?
    Mr. DeJoy. Ma'am, the extent--I can tell you right now, I 
discussed this with the--with all the vice presidents and the 
COO and the--of the existing management team when I arrived and 
the VPs around the area. There's no big, complex problem 
solving that's necessary to try and get your trucks to run on a 
schedule that's designed to take the mail from the processing 
plant to the delivery unit so it gets on time. So, that was 
basically it.
    I had an OIG audit that was delivered to me, that you have 
access to. It will show you the damage that was being done to 
the organization by not running truck trips on time. And I 
asked the management team, probably 10 vice presidents to put 
together a plan to run your trucks on time. About three weeks 
later, they came. They said, we are ready to go, and we went. 
That's the extent of the analysis.
    Chairwoman Maloney. So, I'm going to ask you again for the 
people you consulted with.
    Mr. DeJoy. That was it.
    Chairwoman Maloney. I ask it voluntarily, and I'd like it 
in writing. But if you refuse, then we will be forced to 
consider obtaining it by a subpoena.
    Mr. DeJoy. OK.
    Chairwoman Maloney. Mr. Duncan, I would now like to turn to 
you. Mr. Duncan, are you still with us, Mr. Duncan?
    Mr. Duncan. Yes. Yes, Congresswoman.
    Chairwoman Maloney. Thank you. Thank you.
    On Friday, Senator Rosen asked Mr. DeJoy to provide the 
transcripts or minutes of any closed, nonpublic Board meetings 
from this year. And Mr. DeJoy said he did not have the 
authority to do that. But you're the chairman of the Board. 
Will you commit to providing this committee with the 
transcripts or minutes of any closed, nonpublic Board meetings 
from this year, including in particular the emergency meeting 
you just held?
    Mr. Duncan. Madam Chairwoman, I commit that I will work 
with our counsel to provide everything legally possible to the 
committee.
    Chairwoman Maloney. Well, that's great. But if you have any 
other lingering concerns, if the counsel may not provide all 
the information, would a friendly subpoena help?
    Mr. Duncan. I think we can work this out. The minutes are 
something that we have available to us.
    Chairwoman Maloney. Well, I thank both of you for 
testifying. It's been a long day. Thank you very much. And I 
now recognize the distinguished ranking member for as much time 
as he may consume for his final thoughts and words.
    Mr. Comer. Thank you, Madam Chair. I'll be brief. I'd like 
to first begin by asking unanimous consent to submit for the 
record this Politico article that just came out basically 
saying that this committee hearing was a waste of time.
    Mr. Comer. Next, Postmaster General DeJoy, I want to thank 
you for being here today, for spending this much time. I also 
want to thank you for taking the job. You know, when we have 
hearings like this, as we've seen unfortunately in this 
committee for the last year and a half, it's going to get 
harder and harder for good people like you to come from the 
private sector, to put your name on the line, to try to make 
government more efficient, which is supposed to be the role of 
this committee.
    You know, I don't know what was more disturbing for me to 
watch today, listening to Democrats who have never owned a 
business much less a logistics business try to tell you how to 
deliver anything quicker or listening to a couple of those 
Democrats struggle with what a covered call actually was.
    But, nevertheless, today's hearing did serve to confirm our 
suspicions of Democrats' motives for this whole hearing and the 
bill that they passed on Saturday. Our suspicion all along was 
that it was politically motivated. As we've seen with the 
picture that I showed of Representative DeFazio, obviously a 
photo op to try to get more tweets and likes and to fire up 
their base, who's not fired up about their Presidential 
candidate apparently.
    It's also an opportunity to raise money, as we saw with 
Representative Armstrong with his mountains of evidence, where 
members of the Democratic Party are fundraising off the post 
office.
    Our suspicion was that the majority had little more than 
conspiracy theories and baseless, frankly, irresponsible 
charges to make against you, and we've seen that. And our 
suspicion was that the Democrats have no interest in doing 
anything to address the real issues that affect the Postal 
Service. We heard that today. They provided the Postal Service 
$25 billion because, quote, "it's a worthwhile institution." I 
agree it's worthwhile, indeed vital, but it isn't sustainable 
unless we help implement reforms.
    Mr. DeJoy has made it clear the steps he has taken since 
becoming Postmaster General are good-faith attempts to improve 
his organization. I would love to say that all the time we've 
spent over the past several days has moved the needle in a 
positive way. I'm not sure I can. But hopefully the time 
Republicans have spent talking about the real issues will 
provide momentum to lead to something positive. Hopefully the 
time Republicans have spent shining the light on partisan 
Democratic attacks have helped Americans understand the real 
situation.
    If the majority is serious about fixing the longstanding 
financial and operational challenges, then we stand ready to 
work together. And to do that, Congress needs to have a working 
relationship with the Postal Service.
    This week has been the opposite of a partnership and I fear 
has done long-term damage to the Nation's trust in one of its 
most esteemed, important, and citizen-serving Federal entities. 
And I also fear the Democrats' conspiracy theories have risked 
Americans' faith in the elections in a way the Russians and 
Chinese could only dream of.
    There is no way the process we have followed can produce 
results that will help the post office be better and serve all 
Americans. We can do better. And I hope to work with my 
colleagues to assure the post office is around for decades and 
centuries to come.
    Thank you, Madam Chairman, and I yield back.
    Chairwoman Maloney. I thank the gentleman.
    In closing, I want to thank our witnesses for their 
testimony, and I want to commend all of my colleagues for 
participating in this important conversation.
    With that, and without objection, letters from 
organizations in support of the bipartisan legislation passed 
by the House on Saturday shall be part of the hearing record, 
along with articles and letters from across the country 
depicting the effects of the delays on veterans, the elderly, 
the chronically ill, small businesses, farmers, and ordinary 
Americans who depend on the mail to be delivered.
    Chairwoman Maloney. Without objection, all members will 
have five legislative days within which to submit additional 
written questions for the witnesses to the chair, which will be 
forwarded to the witnesses for their response.
    I ask our witnesses to respond as promptly as you are able.
    This hearing is adjourned.
    [Whereupon, at 3:52 p.m., the committee was adjourned.]

                                 <all>
</pre></body></html>
